<html>
<title> - SELECT COMMITTEE ON THE EVENTS SURROUNDING THE 2012 TERRORIST ATTACKS IN BENGHAZI, LIBYA - HEARING 4</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                               HEARING 4

=======================================================================

                               HEARING 4

                               before the

                          SELECT COMMITTEE ON
                         THE EVENTS SURROUNDING
                           THE 2012 TERRORIST
                           ATTACK IN BENGHAZI

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, OCTOBER 22, 2015

                               __________

 Printed for the use of the Select Committee on the Events Surrounding 
                 the 2012 Terrorist Attack in Benghazi
                 
                 
                 
   
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
                 
                 
                 


                           Available on the Internet:
                                 www.fdsys.gov
                             
                             
                             
                             
                                    _________ 
                                   
                          U.S. GOVERNMENT PUBLISHING OFFICE
  98-884 PDF                     WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                             
                             
                             
                             
                             
                             

                   HOUSE SELECT COMMITTEE on BENGHAZI

                  TREY GOWDY, South Carolina, Chairman
LYNN WESTMORELAND, Georgia           ELIJAH CUMMINGS, Maryland
JIM JORDAN, Ohio                       Ranking Minority Member
PETER ROSKAM, Illinois               ADAM SMITH, Washington
MIKE POMPEO, Kansas                  ADAM SCHIFF, California
MARTHA A. ROBY, Alabama              LINDA SANCHEZ, California
SUSAN BROOKS, Indiana                TAMMY DUCKWORTH, Illinois

                           Professional Staff

                       Phil Kiko, Staff Director
            Susanne Sachsman Grooms, Minority Staff Director
            
            
            
            
            
 
                                  (II)
            
            
            
            
            
            


                               HEARING 4

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                          House of Representatives,
                              Select Committee on Benghazi,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
1100, Longworth House Office Building, Hon. Trey Gowdy 
[chairman of the committee] presiding.
    Present: Representatives Gowdy, Brooks, Jordan, Pompeo, 
Roby, Roskam, Westmoreland, Cummings, Smith, Schiff, Sanchez, 
and Duckworth.
    Staff Present: Philip G. Kiko, Staff Director and General 
Counsel; Chris Donesa, Deputy Staff Director; Dana Chipman, 
Chief Investigative Counsel; Sharon Jackson, Deputy Chief 
Counsel; Craig Missakian, Deputy Chief Counsel; Mark Grider, 
Deputy General Counsel; Mac Tolar, Senior Counsel; Carlton 
Davis, Investigator; Sara Barrineau, Investigator; Sheria 
Clarke, Counsel; Paige Oneto, Clerk; Kim Betz, Member Outreach 
Liaison; Paul Bell, Minority Press Secretary; Krista Boyd, 
Minority Senior Counsel; Linda Cohen, Minority Senior 
Professional Staff; Ronak Desai, Minority Counsel; Shannon 
Green, Minority Counsel; Susanne Sachsman Grooms, Minority 
Staff Director and General Counsel; Jennifer Werner, Minority 
Communications Director; Peter Kenny, Minority Senior Counsel; 
Erin O'Brien, Minority Detailee; Laura Rauch, Minority Senior 
Professional Staff; Dave Rapallo, Minority Senior Advisor to 
the Ranking Member; Daniel Rebnord, Minority Professional 
Staff; Mone Ross, Minority Staff Assistant; Heather Sawyer, 
Minority Chief Counsel; and Brent Woolfork, Minority Senior 
Professional Staff.
    Chairman Gowdy. Good morning. The committee will come to 
order, and the chair notes the presence of a quorum.
    Good morning. Welcome, Madam Secretary.
    Welcome to each of you.
    This is a public hearing of the Benghazi Select Committee.
    Just a couple of quick administrative matters before we 
start, Madam Secretary.
    There are predetermined breaks, but I want to make it 
absolutely clear, we can take a break for any reason or for no 
reason. If you or anyone would just simply alert me, then we 
will take a break, and it can be for any reason or for no 
reason.
    To our guests, we are happy to have you here. The witness 
deserves to hear the questions, and the members deserve to hear 
the answers. So proper decorum must be observed at all times. 
No reaction to questions or answers, no disruptions. Some 
committees take an incremental approach to decorum. I do not. 
This is your one and only notice.
    Madam Secretary, the ranking member and I will give opening 
statements, and then you will be recognized for your opening 
statement. And then, after that, the members will alternate 
from one side to the other. And because you have already been 
sworn, we will go straight to your opening.
    So I will now recognize myself and then recognize Mr. 
Cummings and then you, Madam Secretary.
    Chris Stevens, Sean Smith, Glen Doherty, and Tyrone Woods 
served this country with courage and with honor, and they were 
killed under circumstances most of us could never imagine. 
Terrorists pour through the front gate of an American facility, 
attacking people and property with machine guns, mortars, and 
fire. It is important that we remember how these four men died. 
It is equally important that we remember how these four men 
lived and why.
    They were more than four images on a television screen. 
They were husbands and fathers and sons and brothers and family 
and friends. They were Americans who believed in service and 
sacrifice. Many people speak wistfully of a better world but do 
little about it. These four went out and actually tried to make 
it better. And it cost them their lives.
    So we know what they gave us. What do we owe them? Justice 
for those that killed them. We owe their families our 
everlasting gratitude, respect. We owe them and each other the 
truth--the truth about why we were in Libya; the truth about 
what we were doing in Libya; the truth about the escalating 
violence in Libya before we were attacked and these four men 
were killed; the truth about requests for additional security; 
the truth about requests for additional personnel; the truth 
about requests for additional equipment; the truth about where 
and why our military was positioned as it was on the 
anniversary of 9/11; the truth about what was happening and 
being discussed in Washington while our people were under 
attack; the truth about what led to the attacks; and the truth 
about what our government told the American people after the 
attacks.
    Why were there so many requests for more security personnel 
and equipment, and why were those requests denied in 
Washington? Why did the State Department compound and facility 
not even come close to meeting proper security specifications? 
What policies were we pursuing in Libya that required a 
physical presence in spite of the escalating violence? Who in 
Washington was aware of the escalating violence? What 
precautions, if any, were taken on the anniversary of 9/11?
    What happened in Washington after the first attack, and 
what was our response to that attack? What did the military do 
or not do? What did our leaders in Washington do or not do, and 
when? Why was the American public given such divergent accounts 
of what caused these attacks? And why is it so hard to get 
information from the very government these four men 
represented, served, and sacrificed for?
    Even after an Accountability Review Board and a half-dozen 
congressional investigations, these and other questions still 
lingered. And these questions lingered because previous 
investigations were not thorough. These questions lingered 
because those previous investigations were narrow in scope and 
either incapable or unwilling to access the facts and evidence 
necessary to answer all relevant questions.
    So the House of Representatives--including some Democrats, 
I hasten to add--asked this committee to write the final, 
definitive accounting of what happened in Benghazi.
    This committee is the first committee to review more than 
50,000 pages of documents because we insisted that they be 
produced. This committee is the first committee to demand 
access to more eyewitnesses because serious investigations talk 
to as many eyewitnesses as possible. This committee is the 
first committee to thoroughly and individually interview scores 
of other witnesses, many of them for the first time.
    This committee is the first committee to review thousands 
of pages of documents from top State Department personnel. This 
committee is the first committee to demand access to relevant 
documents from the CIA, the FBI, the Department of Defense, 
even the White House.
    This committee is the first committee to demand access to 
the emails to and from Ambassador Chris Stevens. How could an 
investigation possibly be considered serious without reviewing 
the emails of the person most knowledgeable about Libya?
    This committee is the first committee, the only committee, 
to uncover the fact that Secretary Clinton exclusively used 
personal email on her own personal server for official business 
and kept the public record, including emails about Benghazi and 
Libya, in her own custody and control for almost two years 
after she left office.
    You will hear a lot today about the Accountability Review 
Board. Secretary Clinton has mentioned it more than 70 times in 
her previous testimony before Congress. But when you hear about 
the ARB, you should also know the State Department leadership 
handpicked the members of the ARB. The ARB never interviewed 
Secretary Clinton. The ARB never reviewed her emails. And 
Secretary Clinton's top advisor was allowed to review and 
suggest changes to the ARB before the public ever saw it.
    There is no transcript of ARB interviews, so it's 
impossible to know whether all relevant questions were asked 
and answered. And because there's no transcript, it is also 
impossible to cite the ARB interviews with any particularity at 
all. That is not independent. That is not accountability. That 
is not a serious investigation.
    You will hear there were previous congressional 
investigations into Benghazi, and that is true. And it should 
make you wonder why those investigations failed to interview so 
many witnesses and access so many documents. If those previous 
congressional investigations were really serious and thorough, 
how did they miss Ambassador Stevens' emails? If those previous 
investigations were serious and thorough, how did they miss 
Secretary Clinton's emails? If those congressional 
investigations really were serious and thorough, why did they 
fail to interview dozens of key State Department witnesses, 
including agents on the ground who experienced the attacks 
firsthand?
    Just last month, three years after Benghazi, top aides 
finally returned documents to the State Department. A month 
ago, this committee received 1,500 new pages of Secretary 
Clinton's emails related to Libya and Benghazi, three years 
after the attacks. And a little over two weeks ago, this 
committee received nearly 1,400 pages of Ambassador Stevens' 
emails, three years after the attacks.
    It is impossible to conduct a serious, fact-centric 
investigation without access to the documents from the former 
Secretary of State, the Ambassador who knew more about Libya 
than anyone else, and testimony from witnesses who survived the 
attacks.
    Madam Secretary, I understand there are people, frankly, in 
both parties who have suggested that this investigation is 
about you. Let me assure you it is not, and let me assure you 
why it is not.
    This investigation is about four people who were killed 
representing our country on foreign soil. It is about what 
happened before, during, and after the attacks that killed 
them. It is about what this country owes to those who risk 
their lives to serve it. And it is about the fundamental 
obligation of government to tell the truth, always, to the 
people that it purports to represent.
    Madam Secretary, not a single member of this committee 
signed up to investigate you or your email. We signed up to 
investigate and, therefore, honor the lives of four people that 
we sent into a dangerous country to represent us and to do 
everything we can to prevent it from happening to others.
    Our committee has interviewed half a hundred witnesses. Not 
a single one of them has been named ``Clinton'' until today. 
You were the Secretary of State for this country at all 
relevant times, so of course the committee is going to want to 
talk to you. You are an important witness. You are one 
important witness among half a hundred important witnesses.
    And I do understand you wanted to come sooner than today, 
so let me be clear why that did not happen.
    You had an unusual email arrangement, which meant the State 
Department could not produce your emails to us. You made 
exclusive use of personal email and a personal server, and when 
you left the State Department, you kept the public record to 
yourself for almost two years. And it was you and your 
attorneys who decided what to return and what to delete. Those 
decisions were your decisions, not our decisions.
    It was only in March of this year we learned of this email 
arrangement. And since we learned of this email arrangement, we 
have interviewed dozens of witnesses, only one of whom was 
solely related to your email arrangement. And that was the 
shortest interview of all because that witness invoked his 
Fifth Amendment privilege against incrimination.
    Making sure the public record is complete is what serious 
investigations do, so it was important and remains important 
that this committee have access to all of Ambassador Stevens' 
emails, the emails of other senior leaders and witnesses, and 
it is important to gain access to all of your emails, Madam 
Secretary. Your emails are no less or no more important than 
the emails of anyone else. It just took us a little bit longer 
to get them, and it garnered a little more attention in the 
process.
    I want you to take note during this hearing how many times 
congressional Democrats call on this administration to make 
long-awaited documents available to us. They won't. Take note 
of how many witnesses congressional Democrats ask us to 
schedule for interview. They won't. We would be much closer to 
finding out what happened in writing the final, definitive 
report if Democrats on this committee had helped us, just a 
little bit, pursue the facts.
    But if the Democrats on this committee had their way, 
dozens of witnesses never would have been interviewed, your 
public record would still be private, thousands of documents 
never would have been accessed, and we wouldn't have the emails 
of our own ambassador. That may be smart politics, but it is a 
lousy way to run a serious investigation.
    There are certain characteristics that make our country 
unique in the annals of history. We are the greatest experiment 
in self-governance the world has ever known, and part of that 
self-governance comes self-scrutiny, even of the highest 
officials. Our country is strong enough to handle the truth, 
and our fellow citizens expect us to pursue the truth wherever 
the facts take us.
    So this committee is going to do what we pledged to do and 
what should have been done, frankly, a long time ago, which is 
interview all relevant witnesses, examine all relevant 
evidence, and access all relevant documents. And we are going 
to pursue the truth in a manner worthy of the memory of the 
four people who lost their lives and worthy of the respect of 
our fellow citizens. And we are going to write that final, 
definitive accounting of what happened in Benghazi.
    And we would like to do it with your help and the help of 
our Democrat colleagues, but make no mistake, we are going to 
do it nonetheless. Because understanding what happened in 
Benghazi goes to the heart of who we are as a country and the 
promises we make to those that we send into harm's way.
    They deserve the truth, they deserve the whole truth, they 
deserve nothing but the truth. The people we work for deserve 
the truth. The friends and family of the four who lost their 
lives deserve the truth. We are going to find the truth, 
because there is no statute of limitations on the truth.
    With that, I would recognize my friend from Maryland.
    [Prepared statement of Chairman Gowdy follows:]
    Mr. Cummings. The truth, the whole truth, and nothing but 
the truth. The truth, the whole truth, and nothing but the 
truth.
    Madam Secretary, I want to thank you very much for being 
here today to testify before Congress on this very important 
issue. This is your third time.
    This week, our chairman, Mr. Gowdy, was interviewed in a 
lengthy media profile. During his interview, he complained that 
he has ``an impossible job.'' That's what the chairman said, 
``impossible job.'' He said it is impossible to conduct a 
serious, fact-centric investigation in such a ``political 
environment.''
    I have great respect for the chairman, but on this score, 
he is absolutely wrong. In fact, it has been done by his own 
Republican colleagues in the House on this very issue, 
Benghazi. The Republican chairman of the House Intelligence 
Committee conducted an extensive, bipartisan, 2-year 
investigation and issued a detailed report. The Senate 
Intelligence Committee and the Senate Homeland Security 
Committee also conducted bipartisan investigations.
    Those bipartisan efforts respected and honored the memories 
of the four brave Americans who gave their lives in Benghazi: 
Ambassador Chris Stevens, Sean Smith, Tyrone Woods, and Glen 
Doherty.
    The problem is that the Republican caucus did not like the 
answers they got from those investigations. So they set up this 
select committee with no rules, no deadline, and an unlimited 
budget, and they set them loose, Madam Secretary, because 
you're running for President.
    Clearly, it is possible to conduct a serious, bipartisan 
investigation. What is impossible is for any reasonable person 
to continue denying that Republicans are squandering millions 
of taxpayer dollars on this abusive effort to derail Secretary 
Clinton's Presidential campaign.
    In the chairman's interview, he tried to defend against 
this criticism by attempting to cast himself as the victim, and 
he complained about attacks on the credibility of the select 
committee. His argument would be more compelling if Republicans 
weren't leading the charge.
    As we all know, Representative Kevin McCarthy, Speaker 
Boehner's second-in-command and the chairman's close friend, 
admitted that they established the select committee to drive 
down Secretary Clinton's poll numbers. Democrats didn't say 
that; the second-in-command in the House said that, a 
Republican.
    Republican Congressman Richard Hanna said the select 
committee was, ``designed''--``designed'' to go after Secretary 
Clinton.
    And one of the chairman's own handpicked investigators, a 
self-proclaimed conservative Republican, charged that he was 
fired in part for not going along with these plans to ``hyper-
focus on Hillary Clinton.''
    These stark admissions reflect exactly what we have seen 
inside the select committee for the past year. Let's just take 
a look at the facts.
    Since January, Republicans have canceled every single 
hearing on our schedule for the entire year except for this 
one, Secretary Clinton. They also canceled numerous interviews 
that they had planned with the Defense Department and the CIA 
officials. Instead of doing that, what they were going to do, 
Republicans zeroed in on Secretary Clinton, her speechwriters, 
her IT staffers, and her campaign officials. This is what the 
Republicans did, not the Democrats.
    When Speaker Boehner established this select committee, he 
justified it by arguing that it would ``cross jurisdictional 
lines.'' I assumed he meant we would focus on more than just 
Secretary of State.
    But, Madam Secretary, you're sitting there by yourself. The 
Secretary of Defense is not on your left. The Director of the 
CIA is not on your right. That is because Republicans abandoned 
their own plans to question those top officials. So, instead of 
being cross-jurisdictional, Republicans just crossed them off 
the list.
    Last weekend, the chairman told the Republican colleagues 
to shut up and stop talking about the select committee. What I 
want to know is this, and this is a key question: Why tell the 
Republicans to shut up when they are telling the truth, but not 
when they are attacking Secretary Clinton with reckless 
accusations that are demonstrably false? Why not tell them to 
shut up then?
    Carly Fiorina has said that Secretary Clinton has blood on 
her hands. Mike Huckabee accused her of ignoring the warning 
calls from dying Americans in Benghazi. Senator Rand Paul said 
Benghazi was a 3 a.m. phone call that she never picked up. And 
Senator Lindsey Graham tweeted, ``Where the hell were you on 
the night of the Benghazi attack?''
    Everyone on this panel knows these accusations are baseless 
from our own investigation and all those before it. Yet 
Republican members of this select committee remain silent.
    On Monday, the Democrats issued a report showing that none 
of the 54 witnesses the committee interviewed substantiated 
these wild Republican claims. Secretary Clinton did not order 
the military to stand down, and she neither approved nor denied 
requests for additional security.
    I ask that our report be included in the official record 
for today's hearing, Mr. Chairman.
    Chairman Gowdy. Without objection.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    
    Mr. Cummings. What is so telling is that we issued 
virtually the same report a year ago--the same report.
    When we first joined the select committee, I asked my staff 
to put together a complete report and database setting forth 
the questions that have been asked about the attacks and all of 
the answers that were provided in the eight previous 
investigations.
    I ask that this report also be included in the record, Mr. 
Chairman.
    Chairman Gowdy. Without objection.
      [The information follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      
    
    
    Mr. Cummings. The problem is that, rather than accepting 
these facts, Republicans continue to spin new conspiracy 
theories that are just as outlandish and inaccurate.
    For example, the chairman recently tried to argue that 
Sidney Blumenthal was Secretary Clinton's primary advisor on 
Libya. And, this past Sunday, Representative Pompeo claimed on 
national television that Secretary Clinton relied on Sidney 
Blumenthal for most--for most--of her intelligence on Libya. 
Earlier this week, the Washington Post Fact Checker awarded 
this claim four Pinocchios, its worst rating.
    Here is the bottom line: The select committee has spent 17 
months and $4.7 million of taxpayer money. We have held four 
hearings and conducted 54 interviews and depositions. Yes, we 
have received some new emails from Secretary Clinton, 
Ambassador Stevens, and others. And, yes, we have conducted 
some new interviews. But these documents and interviews do not 
show any nefarious activity. In fact, it is just the opposite. 
The new information we have obtained confirms and corroborates 
the core facts we already knew from eight previous 
investigations. They provide more detail, but they do not 
change the basic conclusions.
    It is time, and it is time now, for the Republicans to end 
this taxpayer-funded fishing expedition. We need to come 
together and shift from politics to policy. That is what the 
American people want: shifting from politics to policy.
    We need to finally make good on our promises to the 
families. And the families only asked us to do three things: 
one, do not make this a political football; two, find the 
facts; three, do everything in your power to make sure that 
this does not happen again.
    And so we need to start focusing on what we here in 
Congress can do to improve the safety and security of our 
diplomatic corps in the future.
    And, with that, Mr. Chairman, I yield back.
    [Prepared statement of Mr. Cummings follows:]
    Chairman Gowdy. The chair thanks the gentleman from 
Maryland.
    Madam Secretary, you are recognized for your opening 
statement.

STATEMENT OF HILLARY CLINTON, FORMER SECRETARY, U.S. DEPARTMENT 
                            OF STATE

    Mrs. Clinton. Thank you, Mr. Chairman, Ranking Member 
Cummings, members of this committee.
    The terrorist attacks at our diplomatic compound and later 
at the CIA post in Benghazi, Libya, on September 11, 2012, took 
the lives of four brave Americans: Ambassador Chris Stevens, 
Sean Smith, Glen Doherty, and Tyrone Woods.
    I'm here to honor the service of those four men, the 
courage of the Diplomatic Security agents and the CIA officers 
who risked their lives that night, and the work their 
colleagues do every single day all over the world.
    I knew and admired Chris Stevens. He was one of our 
nation's most accomplished diplomats. Chris' mother liked to 
say that he had sand in his shoes because he was always moving, 
always working, especially in the Middle East that he came to 
know so well.
    When the revolution broke out in Libya, we named Chris as 
our envoy to the opposition. There was no easy way to get him 
into Benghazi to begin gathering information and meeting those 
Libyans who were rising up against the murderous dictator 
Qadhafi, but he found a way to get himself there on a Greek 
cargo ship, just like a 19th-century American envoy.
    But his work was very much 21st-century, hard-nosed 
diplomacy. It is a testament to the relationships that he built 
in Libya that, on the day following the awareness of his death, 
tens of thousands of Libyans poured into the streets in 
Benghazi. They held signs reading, ``Thugs don't represent 
Benghazi or Islam''; ``Sorry, people of America. This is not 
the behavior of our Islam or our prophet''; ``Chris Stevens, a 
friend to all Libyans.''
    Although I didn't have the privilege of meeting Sean Smith 
personally, he was a valued member of our State Department 
family. An Air Force veteran, he was an information management 
officer who had served in Pretoria, Baghdad, Montreal, and The 
Hague.
    Tyrone Woods and Glen Doherty worked for the CIA. They were 
killed by mortar fire at the CIA's outpost in Benghazi, a short 
distance from the diplomatic compound. They were both former 
Navy SEALs and trained paramedics with distinguished records of 
service, including in Iraq and Afghanistan.
    As Secretary of State, I had the honor to lead and the 
responsibility to support nearly 70,000 diplomats and 
development experts across the globe. Losing any one of them, 
as we did in Iraq, Afghanistan, Mexico, Haiti, and Libya, 
during my tenure was deeply painful for our entire State 
Department and USAID family and for me personally.
    I was the one who asked Chris to go to Libya as our envoy. 
I was the one who recommended him to be our Ambassador to the 
President. After the attacks, I stood next to President Obama 
as Marines carried his casket and those of the other three 
Americans off the plane at Andrews Air Force Base.
    I took responsibility. And, as part of that, before I left 
office, I launched reforms to better protect our people in the 
field and help reduce the chance of another tragedy happening 
in the future.
    What happened in Benghazi has been scrutinized by a 
nonpartisan, hard-hitting Accountability Review Board, seven 
prior congressional investigations, multiple news 
organizations, and, of course, our law enforcement and 
intelligence agencies.
    So today I would like to share three observations about how 
we can learn from this tragedy and move forward as a nation.
    First, America must lead in a dangerous world, and our 
diplomats must continue representing us in dangerous places.
    The State Department sends people to more than 270 posts in 
170 countries around the world. Chris Stevens understood that 
diplomats must operate in many places where our soldiers do 
not, where there are no other boots on the ground and safety is 
far from guaranteed. In fact, he volunteered for just those 
assignments.
    He also understood we will never prevent every act of 
terrorism or achieve perfect security and that we inevitably 
must accept a level of risk to protect our country and advance 
our interests and values.
    And make no mistake, the risks are real. Terrorists have 
killed more than 65 American diplomatic personnel since the 
1970s and more than 100 contractors and locally employed staff. 
Since 2001, there have been more than 100 attacks on U.S. 
diplomatic facilities around the world.
    But if you ask our most experienced ambassadors, they'll 
tell you they can't do their jobs for us from bunkers. It would 
compound the tragedy of Benghazi if Chris Stevens' death and 
the deaths of the other three Americans ended up undermining 
the work to which he and they devoted their lives.
    We have learned the hard way, when America is absent, 
especially from unstable places, there are consequences. 
Extremism takes root, aggressors seek to fill the vacuum, and 
security everywhere is threatened, including here at home. 
That's why Chris was in Benghazi. It's why he had served 
previously in Syria, Egypt, Saudi Arabia, and Jerusalem during 
the Second Intifada.
    Nobody knew the dangers of Libya better--a weak government, 
extremist groups, rampant instability. But Chris chose to go to 
Benghazi because he understood America had to be represented 
there at that pivotal time. He knew that eastern Libya was 
where the revolution had begun and that unrest there could 
derail the country's fragile transition to democracy, and if 
extremists gained a foothold, they would have the chance to 
destabilize the entire region, including Egypt and Tunisia.
    He also knew how urgent it was to ensure that the weapons 
Qadhafi had left strewn across the country, including shoulder-
fired missiles that could knock an airplane out of the sky, did 
not fall into the wrong hands. The nearest Israeli airport is 
just a day's drive from the Libyan border.
    Above all, Chris understood that most people, in Libya or 
anywhere, reject the extremists' argument that violence can 
ever be a path to dignity or justice. That's what those 
thousands of Libyans were saying after they learned of his 
death. And he understood there was no substitute for going 
beyond the embassy walls and doing the hard work of building 
relationships.
    Retreat from the world is not an option. America cannot 
shrink from our responsibility to lead. That doesn't mean we 
should ever return to the go-it-alone foreign policy of the 
past, a foreign policy that puts boots on the ground as a first 
choice rather than a last resort. Quite the opposite. We need 
creative, confident leadership that harnesses all of America's 
strengths and values, leadership that integrates and balances 
the tools of diplomacy, development, and defense.
    And at the heart of that effort must be dedicated 
professionals, like Chris Stevens and his colleagues, who put 
their lives on the line for a country, our country, because 
they believed, as I do, that America is the greatest force for 
peace and progress the world has ever known.
    My second observation is this: we have a responsibility to 
provide our diplomats with the resources and support they need 
to do their jobs as safely and effectively as possible.
    After previous deadly attacks, leaders from both parties 
and both branches of government came together to determine what 
went wrong and how to fix it for the future.
    That's what happened during the Reagan administration when 
Hezbollah attacked our embassy and killed 63 people, including 
17 Americans, and then, in a later attack, attacked our Marine 
barracks and killed so many more. Those two attacks in Beirut 
resulted in the deaths of 258 Americans.
    It's what happened during the Clinton administration when 
Al Qaeda bombed our embassies in Kenya and Tanzania, killing 
more than 200 people, wounding more than 2,000 people, and 
killing 12 Americans. And it's what happened during the Bush 
administration after 9/11.
    Part of America's strength is we learn, we adapt, and we 
get stronger.
    After the Benghazi attacks, I asked Ambassador Thomas 
Pickering, one of our most distinguished and longest-serving 
diplomats, along with Admiral Mike Mullen, the former Chairman 
of the Joint Chiefs of Staff appointed by President George W. 
Bush, to lead an Accountability Review Board.
    This is an institution that the Congress set up after the 
terrible attacks in Beirut. There have been 18 previous 
Accountability Review Boards. Only two have ever made any of 
their findings public: the one following the attacks on our 
embassies in East Africa and the one following the attack on 
Benghazi.
    The Accountability Review Board did not pull a single 
punch. They found systemic problems and management deficiencies 
in two State Department bureaus. And the Review Board 
recommended 29 specific improvements. I pledged that by the 
time I left office every one would be on the way to 
implementation, and they were. More Marines were slated for 
deployment to high-threat embassies. Additional Diplomatic 
Security agents were being hired and trained. And Secretary 
Kerry has continued this work.
    But there is more to do, and no administration can do it 
alone. Congress has to be our partner, as it has been after 
previous tragedies. For example, the Accountability Review 
Board and subsequent investigations have recommended improved 
training for our officers before they deploy to the field, but 
efforts to establish a modern joint training center are being 
held up by Congress. The men and women who serve our country 
deserve better.
    Finally, there is one more observation I would like to 
share. I traveled to 112 countries as Secretary of State. Every 
time I did, I felt great pride and honor representing the 
country that I love. We need leadership at home to match our 
leadership abroad, leadership that puts national security ahead 
of politics and ideology.
    Our nation has a long history of bipartisan cooperation on 
foreign policy and national security. Not that we always 
agree--far from it--but we do come together when it counts.
    As Secretary of State, I worked with the Republican 
chairman of the Senate Foreign Relations Committee to pass a 
landmark nuclear arms control treaty with Russia. I worked with 
the Republican leader, Senator Mitch McConnell, to open up 
Burma, now Myanmar, to democratic change. I know it's possible 
to find common ground, because I have done it.
    We should debate on the basis of fact, not fear. We should 
resist denigrating the patriotism or loyalty of those with whom 
we disagree.
    So I'm here. Despite all the previous investigations and 
all the talk about partisan agendas, I'm here to honor those we 
lost and to do what I can to aid those who serve us still.
    My challenge to you, members of this committee, is the same 
challenge I put to myself: let's be worthy of the trust the 
American people have bestowed upon us. They expect us to lead, 
to learn the right lessons, to rise above partisanship, and to 
reach for statesmanship. That's what I tried to do every day as 
Secretary of State, and it's what I hope we will all strive for 
here today and into the future.
    Thank you.
    [Prepared statement of Mrs. Clinton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Gowdy. Thank you, Madam Secretary.
    I did not cut off your opening at all, nor would I think 
about doing so, because the subject matter is critically 
important, and you deserve to be heard. I would just simply 
note that--and I don't plan on cutting off any of your answers.
    Our members have questions that we believe are worthy of 
being answered, so I would just simply note that we do plan to 
ask all of the questions. And whatever precision and concision 
that you can give to the answers without giving short shrift to 
any of the answers would be much appreciated.
    And, with that, I would recognize the gentleman from 
Illinois, Mr. Roskam.
    Mr. Roskam. Good morning, Secretary Clinton.
    Jake Sullivan, your chief foreign policy advisor, wrote a 
``tick tock on Libya'' memo on August 21, 2011. And this was 
the day before the rebels took Tripoli. He titles it, 
``Secretary Clinton's leadership on Libya,'' in which he 
describes you as, ``a critical voice'' and, ``the public face 
of the U.S. effort in Libya and instrumental in tightening the 
noose around Qadhafi and his regime.''
    But that didn't come easy, did it? Because you faced 
considerable opposition--and I can pause while you are reading 
your notes from your staff.
    Mrs. Clinton. No, that's fine. I'm listening. I can do more 
than one thing at a time, Congressman. Thanks.
    Mr. Roskam. Okay.
    That didn't come easy, did it, that leadership role and 
that public face and so forth that I just mentioned?
    Mrs. Clinton. No, Congressman. I know this is an issue that 
the committee has raised, and it really boils down to why were 
we in Libya, why did the United States join with our NATO and 
European allies, join with our Arab partners to protect the 
people of Libya against the murderous planning of Qadhafi, why 
did we take a role alongside our partners in doing so.
    There were a number of reasons for that. And I think it is 
important to remind the American people where we were at the 
time when the people of Libya, like people across the region, 
rose up demanding freedom and democracy, a chance to chart 
their own futures.
    And Qadhafi----
    Mr. Roskam. I take your point----
    Mrs. Clinton [continuing]. Qadhafi threatened them with 
genocide, with hunting them down like cockroaches.
    And we were then approached by, with great intensity, our 
closest allies in Europe, people who felt very strongly, the 
French and the British but others as well, that they could not 
stand idly by and permit that to happen so close to their 
shores, with the unintended consequences that they worried 
about, and they asked for the United States to help.
    We did not immediately say yes. We did an enormous amount 
of due diligence in meeting with not only our European and Arab 
partners but also with those who were heading up what was 
called the Transitional National Council. And we had 
experienced diplomats who were digging deep into what was 
happening in Libya and what the possibilities were before we 
agreed to provide very specific, limited help to the European 
and Arab efforts.
    We did not put one American soldier on the ground. We did 
not have one casualty. And, in fact, I think by many measures, 
the cooperation between NATO and Arab forces was quite 
remarkable and something that we want to learn more lessons 
from.
    Mr. Roskam. Secretary Clinton, you were meeting with 
opposition within the State Department, from very senior career 
diplomats in fact, and they were saying that it was going to 
produce a net negative for U.S. military intervention.
    For example, in a March 9, 2011, email discussing what has 
become known as the ``Libya options memo,'' Ambassador Stephen 
Mull, then the Executive Secretary at the State Department and 
one of the top career diplomats, said this: ``In the case of 
our diplomatic history, when we've provided material or 
tactical military support to people seeking to drive their 
leaders from power, no matter how just their cause, it's tended 
to produce net negatives for our interests over the long term 
in those countries.''
    Now, we will come back to that in a minute. But you 
overruled those career diplomats. I mean, they report to you, 
and you are the chief diplomat of the United States.
    Go ahead and read the note if you need to.
    Mrs. Clinton. I have to--I have to----
    Mr. Roskam. I'm not done with my question. I'm just giving 
you the courtesy of reading your notes.
    Mrs. Clinton. That's all right.
    Mr. Roskam. All right.
    They were pushing back, but you overcame those objections. 
But then you had another big obstacle, didn't you, and that was 
the White House itself? There were senior voices within the 
White House that were opposed to military action: Vice 
President Biden, Department of Defense, Secretary Gates, the 
National Security Council, and so forth.
    But you persuaded President Obama to intervene militarily. 
Isn't that right?
    Mrs. Clinton. Well, Congressman, I think it's important to 
point out there were many in the State Department who believed 
it was very much in America's interest and in furtherance of 
our values to protect the Libyan people, to join with our 
European allies and our Arab partners.
    The Ambassador who had to be withdrawn from Libya because 
of direct threats to his physical safety but who knew Libya 
very well, Ambassador Cretz, was a strong advocate for doing 
what we could to assist the Europeans and the Arabs.
    I think it's fair to say there were concerns and there were 
varying opinions about what to do, how to do it, and the like.
    At the end of the day, this was the President's decision, 
and all of us fed in our views. I did not favor it until I had 
done, as I said, the due diligence, speaking with not just 
people within our government and within the governments of all 
of the other nations who were urging us to assist them but also 
meeting in person with the gentleman who had assumed a lead 
role in the Transitional National Council.
    So it is, of course, fair to say this was a difficult 
decision. I wouldn't sit here and say otherwise. And there were 
varying points of view about it. But at the end of the day, in 
large measure because of the strong appeals from our European 
allies, the Arab League passing a resolution urging that the 
United States and NATO join with them, those were unprecedented 
requests, and we did decide in recommending to the President 
that there was a way to do it.
    The President, I think, very clearly had a limited 
instruction about how to proceed. And the first planes that 
flew were French planes. And I think what the United States 
provided was some of our unique capacity, but the bulk of the 
work militarily was done by Europeans and Arabs.
    Mr. Roskam. Well, I think you are underselling yourself. 
You got the State Department on board. You convinced the 
President. You overcame the objections of Vice President Biden 
and Secretary of Defense Gates, the National Security Council.
    And you had another obstacle then, and that was the United 
Nations. And you were able to persuade the Russians, of all 
things, to abstain. And had you not been successful in arguing 
that abstention, the Security Council Resolution 1973 wouldn't 
have passed because the Russians had a veto.
    So you overcame that obstacle, as well. Isn't that right?
    Mrs. Clinton. Well, Congressman, it is right that, after 
doing my due diligence and reviewing the various options and 
the potential consequences of pursuing each of them, I was in 
favor of the United States joining with our European allies and 
our Arab partners. And I also was in favor of obtaining U.N. 
Security Council support, because I thought that would provide 
greater legitimacy.
    In that, of course, our Ambassador to the U.N. was very 
uninfluential and successful in making the case to her 
colleagues. But this was at the behest of and the direction of 
the President once he was presented with the varying arguments.
    And, you know----
    Mr. Roskam. And you presented the argument----
    Mrs. Clinton [continuing]. Congressman, I have been in a 
number of Situation Room discussions. I remember very well the 
very intense conversation over whether or not to launch the 
Navy SEALs against the compound we thought in Abbottabad that 
might house bin Laden. There was a split in the advisors around 
the President. Eventually the President makes the decision.
    I supported doing what we could to support our European and 
Arab partners in their effort on a humanitarian basis, a 
strategic basis, to prevent Qadhafi from launching and carrying 
out mass massacres.
    Mr. Roskam. There was another obstacle that you overcame, 
and that was the Arabs themselves. Jake Sullivan sent you an 
email, and he said this: ``I think you should call. It will be 
a painful ten minutes, but you will be the one who delivered 
Arab support.'' And that's a Jake Sullivan email of March 17 to 
you asking you to call the Secretary General of the Arab 
League.
    So, to put this in totality, you were able to overcome 
opposition within the State Department, you were able to 
persuade the President, you were able to persuade the United 
Nations and the international community, you made the call to 
the Arabs and brought them home. You saw it, you drove it, you 
articulated it, and you persuaded people.
    Did I get that wrong?
    Mrs. Clinton. Well, Congressman, I was the Secretary of 
State. My job was to conduct the diplomacy. And the diplomacy 
consisted of a long series of meetings and phone calls, both 
here in our country and abroad, to take the measure of what 
people were saying and whether they meant it.
    We had heard sometimes before from countries saying, 
``Well, the United States should go do this.'' And when we say, 
``Well, what will you do in support of us?'', there was not 
much coming forth. This time, if they wanted us to support them 
in what they saw as an action vital to their respective 
national security interests, I wanted to be sure that they were 
going to bear the bulk of the load.
    And, in fact, they did. What the United States did, as I've 
said, was use our unique capacities. As I recall, if you want 
it in monetary terms, slightly over a billion dollars, or less 
than what we spend in Iraq in one day, is what the United 
States committed in support of our allies.
    You know, we ask our----
    Mr. Roskam. Reclaiming my time----
    Mrs. Clinton [continuing]. Allies to do a lot for us, 
Congressman----
    Mr. Roskam. My time is expiring. Let me reclaim my time.
    Mrs. Clinton. They had asked for us to help them.
    Mr. Roskam. Let me reclaim my time because it's expiring.
    Actually, you summed it up best when you emailed your 
senior staff and you said of this interchange, you said, ``It's 
good to remind ourselves and the rest of the world that this 
couldn't have happened without us.'' And you were right, 
Secretary Clinton. Our Libya policy couldn't have happened 
without you because you were its chief architect.
    And I said we're going to go back to Admiral Mullen's 
warning about using military for regime change. And he said, 
``Long term, things weren't going to turn out very well.'' And 
he was right. After your plan, things in Libya today are a 
disaster.
    I yield back.
    Mrs. Clinton. Well, we'll have more time, I'm sure, to talk 
about this, because that's not a view that I will ascribe to.
    Chairman Gowdy. I thank the gentleman from Illinois and 
recognize the gentleman from Maryland.
    Mr. Cummings. Thank you very much.
    Madam Secretary, again, I want to thank you for being here.
    I want to start with the number one question that 
Republicans claim has not been answered in the eight previous 
investigations. Yesterday, the chairman wrote an op-ed, and he 
said this is his top unanswered question about Benghazi. And it 
is, ``why our people in Libya and Benghazi made so many 
requests for additional security personnel and equipment and 
why those requests were denied.'' I will give you a chance to 
answer that in a minute.
    Secretary Clinton, as you know, this exact question has 
been asked many times and answered many times.
    Let's start with the Accountability Review Board. Now, a 
moment ago, you talked about Admiral Mullen, but you also 
appointed another very distinguished gentleman, Ambassador 
Pickering. And, of course, Admiral Mullen served under 
Republican administrations. And Ambassador Pickering, who I 
have a phenomenal amount of respect for, served 40 years, as 
you know, as part of our diplomatic corps. He served under 
George H.W. Bush, and he also served as U.N. Ambassador under 
Reagan.
    Now, I am just wondering--let me go back to that question, 
why our people in Libya and Benghazi made so many requests?
    And then I want you to comment. There seems to be an 
implication that the ARB, the Accountability Review Board, was 
not independent. And I think the chairman said they were 
handpicked by you. Of course, that is done by law.
    But would you comment on those two things, please?
    Mrs. Clinton. Yes. I would be happy to.
    You know, as I said in my opening statement, I take 
responsibility for what happened in Benghazi. I felt a 
responsibility for all 70,000 people working at the State 
Department and USAID. I take that very seriously.
    As I said with respect to security requests in Benghazi 
back when I testified in January of 2013, those requests and 
issues related to security were rightly handled by the security 
professionals in the Department. I did not see them, I did not 
approve them, I did not deny them.
    Ambassador Pickering and Admiral Mullen make this case very 
clearly in their testimony before your committee and in their 
public comments. These issues would not ordinarily come before 
the Secretary of State, and they did not in this case.
    As Secretary, I was committed to taking aggressive measures 
to ensure our personnel and facilities were as safe as 
possible. And, certainly, when the nonpartisan, critical report 
from the Accountability Review Board came forward, I took it 
very seriously. And that's why I embraced all of their 
recommendations and created a new position within the 
Diplomatic Security Bureau specifically to evaluate high-risk 
posts.
    I think it's important also to mention, Congressman, that 
the Diplomatic Security professionals who were reviewing these 
requests, along with those who are serving in war zones and 
hotspots around the world, have great expertise and experience 
in keeping people safe. If you go on codels, they are the ones 
who plan your trip to keep you safe. They certainly did that 
for me. But, most importantly, that's what they do every day 
for everybody who serves our country as a diplomat or a 
development professional. And I was not going to second-guess 
them. I was not going to substitute my judgment, which is not 
based on experience that they have in keeping people safe, for 
theirs.
    And the changes that were recommended by the Accountability 
Review Board are ones that we thought made sense and began 
quickly to implement.
    Mr. Cummings. Now, the ARB, after conducting, Madam 
Secretary, more than 100 interviews, identified a specific 
employee at the State Department who denied these requests. It 
was Deputy Assistant Secretary of the Bureau of Diplomatic 
Security Charlene Lamb. And, again, she did come before the 
Oversight Committee. The ARB report was very critical of her. 
It was also critical of her two supervisors, Principal Deputy 
Assistant Secretary and the Assistant Secretary for Diplomatic 
Security.
    The Oversight Committee found the same answer as the ARB. 
It found that this official denied these requests, and it found 
no evidence that you approved or denied them. The problem is 
that Republicans just keep asking the same question over and 
over again and pretend they don't know the answer. In 2013, the 
Republican chairmen of five House committees issued a report 
falsely accusing you personally of denying these requests in a 
cable over your signature. The next day--the next day--the 
chairman of the Oversight Committee, Darrell Issa, went on 
national television and accused you of the same thing.
    Can we play that clip, please?
    [Video shown.]
    Mr. Cummings. Do you remember that allegation, Madam 
Secretary?
    Mrs. Clinton. I do.
    Mr. Cummings. Well, when the Washington Post Fact Checker 
examined this claim, they gave it four Pinocchios. They called 
it a whopper. It turns out that the Republicans had a copy of 
that cable, but they didn't tell the American people that your 
so-called signature was just a stamp that appears on millions 
of cables from the State Department every single year. Is that 
right?
    Mrs. Clinton. That's correct.
    Mr. Cummings. Now, Madam Secretary, my goal has always been 
to gather facts and to defend the truth, the whole truth and 
nothing but the truth. Last year, I asked our staff to compile 
an asked-and-answered database, and this particular issue was 
answered thoroughly.
    On Monday, we put out another report, and this issue was 
addressed yet again. But the Republicans want to keep this 
attack going, so they are now trying to argue that we have new 
emails that raise new questions.
    The truth is that we have reviewed these emails, and they 
don't contradict our previous conclusions; they confirm them. 
They corroborate them. We've reviewed emails from Ambassador 
Stevens, and they show that he asked Charlene Lamb for more 
security. Nothing we have obtained, not the new interviews or 
the new emails, changes the basic facts we have known for three 
years.
    Secretary Clinton, let me ask one final question, and 
please take as much time as you want to answer this. There's no 
evidence to support the Republican claims that you personally 
rejected security requests. So some have argued that since you 
knew the danger was increasing in Libya, you should have been 
in there making detailed decisions about whether there should 
be five, seven, or even nine security officers at any given 
post. Madam Secretary, I know you have answered this over 
again. You might want to just elaborate, and just--I'll give 
you--I have a minute and seven seconds.
    Mrs. Clinton. Well, thank you, Congressman. I think there 
has been some confusion, and I welcome the opportunity to try 
to clarify it to the best of my ability. With respect, as you 
rightly point out, the claims that were made about the cables, 
I think you have explained the fact, which is that it's the 
longstanding tradition of the State Department for cables from 
around the world to be sent to and sent from the State 
Department under the signature, over the signature of the 
Secretary of State. It's a stamp. It's just part of the 
tradition. There are millions of them, as you point out. They 
are sorted through and directed to the appropriate personnel. 
Very few of them ever come to my attention. None of them with 
respect to security regarding Benghazi did.
    Then the other point, which I thank you for raising so that 
perhaps I can speak to this one as well, there is, of course, 
information that we were obtaining about the increasingly 
dangerous environment in Libya, across the country but in 
particular in eastern Libya. And we were aware of that, and we 
were certainly taking that into account.
    There was no actionable intelligence on September 11 or 
even before that date about any kind of planned attack on our 
compound in Benghazi. And there were a lot of debates, 
apparently, that went on within the security professionals 
about what to provide because they did have to prioritize. The 
Accountability Review Board pointed that out. The State 
Department has historically and certainly before this terrible 
incident not had the amount of money that we thought would be 
necessary to do what was required to protect everyone, so of 
course there had to be priorities. And that was something that 
the security professionals dealt with. I think that both 
Admiral Mullen and Ambassador Pickering made it very clear that 
they thought that the high-threat posts should move to a higher 
level of scrutiny, and we had immediately moved to do that.
    Mr. Cummings. Thank you.
    Chairman Gowdy. I thank the gentleman.
    The chair would now recognize the gentlelady from Indiana, 
Mrs. Brooks.
    Mrs. Brooks. Good morning, Secretary Clinton.
    Mrs. Clinton. Morning.
    Mrs. Brooks. Thank you for being here today.
    And drawing on what you just said, that very few, but no 
requests for Benghazi came to your attention, I'd like to show 
you something. This pile represents the emails that you sent or 
received about Libya in 2011, from February through December of 
2011. This pile represents the emails you sent or received from 
early 2012 until the day of the attack. There are 795 emails in 
this pile. We've counted them. There are 67 emails in this pile 
in 2012. And I'm troubled by what I see here, and so my 
questions relate to these piles.
    In this pile in 2011, I see daily updates, sometimes hourly 
updates, from your staff about Benghazi and Chris Stevens. When 
I look at this pile in 2012, I only see a handful of emails to 
you from your senior staff about Benghazi. And I have several 
questions for you about this disparity because we know from 
talking to your senior advisors that they knew--and many of 
them are here today seated behind you--they knew to send you 
important information, issues that were of importance to you. 
And I can only conclude by your own records that there was a 
lack of interest in Libya in 2012.
    So let's first focus, though, on this pile and what was 
happening in Libya in 2011. We have an Ambassador to Libya, 
Ambassador Cretz, but you've told us that--and you told us in 
your opening you hand-picked Chris Stevens to be your Special 
Representative in Benghazi, and you sent him there. And by your 
own emails--most provided last February, a few provided just a 
few weeks ago--they show that in March of 2011, so we're in 
March of 2011, you had Chris Stevens join you in Paris, where 
you were meeting with the leader of the Libyan revolution. And 
after Paris, that is when, as you talked about, Chris Stevens 
went into Benghazi, I believe on April 5 of 2011, on that Greek 
cargo ship.
    How long was he expected to stay? What were Chris Stevens' 
orders from you about Libya and about Benghazi specifically?
    Mrs. Clinton. Chris Stevens was asked to go to Benghazi to 
do reconnaissance to try to figure out who were the leaders of 
the insurgency who were based in Benghazi, what their goals 
were, what they understood would happen if they were 
successful. It was, as I said, the hard-nosed 21st century 
diplomacy that is rooted in the old-fashioned necessary work of 
building relationships and gathering information.
    Mrs. Brooks. How long was he anticipated to stay in 
Benghazi? Do you recall?
    Mrs. Clinton. There were--it was open ended. We were, in 
discussing it with him, unsure as to how productive it would 
be, whether it would be appropriate for him to stay for a long 
time or a short time. That was very much going to depend upon 
Chris' own assessment. We knew we were sending someone who 
understood the area, who understood the language, who 
understood a lot of the personalities because of the historical 
study that he used to love to do, and we were going to be 
guided by what he decided.
    Mrs. Brooks. I'd like to draw your attention to an email. 
It's an email found at tab 1. It's an Ops Center email that was 
forwarded to you from Huma Abedin on Sunday, March 27, that 
says at the bottom of the email: ``so the current game plan is 
for Mr. Stevens to move no later Wednesday from Malta to 
Benghazi.'' But the bottom of the email says the goal of this 
one-day trip is for him to lay the groundwork for a stay of up 
to 30 days.
    So just to refresh that recollection, I believe initially 
the goal was to go in for 30 days. Were you personally briefed 
on his security plan prior to him going into Libya, because----
    Mrs. Clinton. Yes.
    Mrs. Brooks [continuing]. At that time, if I'm not 
mistaken--I'm sorry to interrupt--Qadhafi's forces were still 
battling the rebels. Correct?
    Mrs. Clinton. That--that--that's right.
    Mrs. Brooks. And so what were--were you personally briefed 
before you sent Mr. Stevens into Benghazi?
    Mrs. Clinton. I was personally told by the officials who 
were in the State Department who were immediately above Chris, 
who were making the plans for him to go in, that it was going 
to be expeditionary diplomacy. It was going to require him to 
make a lot of judgments on the ground about what he could 
accomplish and including where it would be safe for him to be 
and how long for him to stay. And I think the initial decision 
was, you know, up to 30 days and reassess, but it could have 
been ten days, it could have been 60 days, depending upon what 
he found and what he reported back to us.
    Mrs. Brooks. And possibly what was determined about the 
danger of Benghazi.
    Who were those officials, Secretary Clinton?
    Mrs. Clinton. Well, there were a number of officials who 
were working----
    Mrs. Brooks. That were advising you on the security 
specifically.
    Mrs. Clinton. Well, with respect to the security, this was 
a particular concern of the Assistant Secretary for the bureau 
in which Chris worked, and----
    Mrs. Brooks. And I'm sorry. What was that person's name?
    Mrs. Clinton. Assistant Secretary Jeff Feltman.
    Mrs. Brooks. Thank you.
    Mrs. Clinton. And it was also a concern of the Assistant 
Secretary for Diplomatic Security as well as other officials 
within the State Department. And I think it's fair to say, 
Congresswoman, this was, we all knew, a risky undertaking. And 
it was something that was, as I said in my opening statement, 
more reminiscent of the way diplomacy was practiced back in the 
19th century because we didn't have the internet; we didn't 
have instantaneous communications. You would send diplomats and 
envoys into places and not hear from them for maybe months. 
This was obviously not of that kind, but it was not that 
different in degree from what we have done before. And it was a 
risky undertaking and one which Chris volunteered for and was 
anxious to undertake.
    Mrs. Brooks. And it was so risky, I'd like to pull up 
another email from the Ops Center that was forwarded to you 
from Ms. Abedin on Sunday, April 10. So he had been there about 
five days, and it indicates that the situation in Ajdabiya had 
worsened to the point where Stevens is considering departing 
from Benghazi. This is within five days of him going in. Were 
you aware of that concern within the first five days that he 
had gone in----
    Mrs. Clinton. Yes.
    Mrs. Brooks [continuing]. And did anyone share that with 
you----
    Mrs. Clinton. Yes.
    Mrs. Brooks [continuing]. And who did you share that with 
you?
    Mrs. Clinton. We were aware because we were really counting 
on Chris to guide us and give us the information from the 
ground. We had no other sources. You know, there was no 
American outpost. There was no, you know, American military 
presence. Eventually, other Americans representing different 
agencies were able to get into Benghazi and begin to do the 
same work, but they, of course, couldn't do that work overtly, 
which is why we wanted a diplomat who could be publicly meeting 
with people to try to get the best assessment. But it was 
always going to be a constant risk, and we knew that.
    Mrs. Brooks. And so let me go back to the risk in 2011 
because there was a lot of communication, again, once again 
from your senior staff, from the State Department to you or 
from you in 2011. And, in fact, that is when Qadhafi fell. He 
fell in 2011. But then when we go to 2012, Libya, Benghazi, 
Chris Stevens, the staff there, they seem to fall off your 
radar in 2012, and the situation is getting much worse in 2012. 
It was getting much worse.
    And let me just share for you, in your records that we have 
reviewed, there is not one email to you or from you in 2012 
when an explosive device went off at our compound in April. 
There's not a single email in your records about that explosive 
device.
    So my question is: this was a very important mission in 
2011. You sent Chris Stevens there, but yet when our compound 
is attacked in 2012, what kind of culture was created in the 
State Department that your folks couldn't tell you in an email 
about a bomb in April of 2012?
    Mrs. Clinton. Well, Congresswoman, I did not conduct most 
of the business that I did on behalf of our country on email. I 
conducted it in meetings. I read massive amounts of memos, a 
great deal of classified information. I made a lot of secure 
phone calls. I was in and out of the White House all the time. 
There were a lot of things that happened that I was aware of 
and that I was reacting to. If you were to be in my office in 
the State Department, I didn't have a computer. I did not do 
the vast majority of my work on email. And I bet there's a lot 
of Sid Blumenthal's emails in there from 2011 too.
    Mrs. Brooks. Well, we'll go into that later.
    Mrs. Clinton. And so I think that there were--I don't want 
you to have a mistaken impression about what I did and how I 
did it. Most of my work was not done on emails with my closest 
aides, with the officials in the State Department, officials in 
the rest of the government, as well as the White House, and 
people around the world.
    Mrs. Brooks. And thank you for sharing that because I'm 
sure that it's not all done on emails, Madam Secretary, and 
there are meetings, and there are discussions. And so then when 
our compound took a second attack on June 6, when a bomb blew a 
wall through the compound then, no emails, no emails at all, 
but I am interested in knowing who were you meeting with, who 
were you huddling with, how were you informed about those 
things, because there is nothing in the emails that talks about 
two significant attacks on our compounds in 2012?
    Mrs. Clinton. I was meeting----
    Mrs. Brooks. There is a lot of information in 2011 about 
issues in security posture and yet nothing in 2012.
    Mrs. Clinton. Well, I'd be happy to explain. Every morning 
when I arrived at the State Department, usually between 8:00 
and 8:30, I had a personal one-on-one briefing from the 
representative of the Central Intelligence Agency, who shared 
with me the highest level of classified information that I was 
to be aware of on a daily basis. I then had a meeting with the 
top officials of the State Department every day that I was in 
town. That's where a lot of information, including threats and 
attacks on our facilities, was shared. I also had a weekly 
meeting every Monday with all of the officials, the Assistant 
Secretaries and others, so that I could be brought up-to-date 
on any issue that they were concerned about. During the day, I 
received hundreds of pages of memos, many of them classified, 
some of them so top secret that they were brought into my 
office in a locked briefcase that I had to read and immediately 
return to the courier. And I was constantly at the White House 
in the Situation Room meeting with the National Security 
Advisor and others. I would also be meeting with officials in 
the State Department, foreign officials and others.
    So there was a lot going on during every day. I did not 
email during the day, and--except on rare occasions when I was 
able to. But I didn't conduct the business that I did primarily 
on email. That is not how I gathered information, assessed 
information, asked the hard questions of the people that I 
worked with.
    Mrs. Brooks. It appears that leaving Benghazi, with respect 
to all of that danger, leaving Benghazi was not an option in 
2012.
    And I yield back.
    Chairman Gowdy. The gentlelady----
    Mrs. Clinton. Well, if I could just quickly respond. There 
was never a recommendation from any intelligence official in 
our government, from any official in the State Department, or 
from any other person with knowledge of our presence in 
Benghazi to shut down Benghazi, even after the two attacks that 
the compound suffered. And perhaps, you know, you would wonder 
why, but I can tell you that it was thought that the mission in 
Benghazi, in conjunction with the CIA mission, was vital to our 
national interests.
    Chairman Gowdy. The gentlelady from Indiana yields back.
    The chair will now briefly recognize Mr. Cummings and then 
Ms. Duckworth.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I just want to clarify, when I was asking Secretary Clinton 
a question a moment ago, I mentioned an email that had gone 
from Ambassador Chris Stevens to Deputy Secretary Lamb. What I 
meant to say was a cable, and I just wanted to make sure the 
record was clear.
    Chairman Gowdy. The record will reflect that.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Secretary Clinton, I'm pleased that you finally have the 
opportunity to be here.
    Before I start my line of questioning, I just want to 
clarify with regard to the April, June 2012 incidents, I 
believe that the procedure that the State Department had for 
these types of incidents was to actually hold what are called 
Emergency Action Committee hearings on the ground immediately. 
And, in fact, there were at least five on the record for June 
alone on the ground in both Tripoli and Benghazi. And that is 
the correct procedure for handling such instances. Is that not 
correct?
    Mrs. Clinton. That's correct.
    Ms. Duckworth. Thank you.
    Secretary Clinton, my focus and my job on this committee is 
to make sure that we never put brave Americans, like Ambassador 
Stevens, Sean Smith, Tyrone Woods, and Glen Doherty, ever on 
the ground again anywhere in the world without the protection 
that they so rightly deserve. Having flown combat missions 
myself and in some dangerous places, I understand the 
dedication of our men and women who choose to serve this 
country overseas.
    I have a special affinity for the diplomatic corps because 
these are folks who go in without the benefit of weapons, 
without the benefit of military might, armed only with 
America's values, diplomatic words and a handshake to forward 
our Nation's interests globally. So I am absolutely determined 
to make sure that we safeguard, in the name of our heroic dead, 
our men and women in the diplomatic corps wherever they are 
around the world.
    So the bottom line for me--I'm a very mission-driven 
person. The bottom line for me is, with respect to examining 
what went wrong in Benghazi, clear: let's learn from those 
mistakes, and let's figure out what we need to do to fix them.
    I've only been in Congress not quite 3 years, almost 3 
years. And in this time, I've actually served on two other 
committees in addition to this one that looked at the Benghazi 
attacks, both Armed Services and Oversight and Government 
Reform, so I've had a chance to really look at all of these 
documents. One of the things that I saw--and I'd like to 
discuss this with you--is that the Department of State and the 
Department of Defense at the time seem to have not had the most 
ideal cooperation when it came to threat or security analysis. 
I do know, however, that over the past decade, they've 
established a tradition of working together on the ground in 
dangerous regions that has increased over time.
    However, as a member of the Armed Services Committee, which 
also looked at the Benghazi attacks, I'm concerned that the 
interagency cooperation between State and DOD was not 
sufficient in the weeks and months leading up to the September 
11, 2012, attacks. For example, the joint contingency planning 
and training exercises, if we had conducted any joint 
interagency planning and training exercises, this may have 
actually helped State and DOD to identify and fix existing 
vulnerabilities in the temporary mission facility in Benghazi.
    Moreover, regular communications between AFRICOM, which is 
the DOD command, and the Special Mission Benghazi could have 
facilitated the prepositioning of military assets in a region 
where there were very real questions over the host country's 
ability to protect our diplomatic personnel.
    Secretary Clinton, within the weeks of the terrorist 
attacks in Benghazi happening, following that, I understand you 
partnered with the Chairman of the Joint Chiefs of Staff to 
establish and deploy five Interagency Security Assessment Teams 
to assess our security posture and needs at at least the 19 
high-threat posts in 13 different countries. In fact, Deputy 
Secretary Nides testified before the House Foreign Affairs 
Committee in December of 2012 that the State Department and DOD 
ISAT initiative created a roadmap for addressing emerging 
security challenges.
    Why did you partner with the Department of Defense to 
conduct such a high-priority review, and was it effective in 
addressing the shortfalls in Benghazi and applying it for other 
locations?
    Mrs. Clinton. Congressman, thank--Congresswoman, thank you 
very much, and thanks for your service and particularly your 
knowledge about these issues arising from your own military 
service and the service on the committees here in the House.
    It's very challenging to get military assets into countries 
that don't want them there. And, in fact, that has been a 
constant issue that we have worked between the State Department 
and the Department of Defense. The Libyans made it very clear 
from the very beginning they did not want any American military 
or any foreign military at all in their country. And what I 
concluded is that we needed to have these assessments because 
even if we couldn't post our own military in the country, we 
needed to have a faster reaction.
    Now, I certainly agree 100 percent with the findings of the 
Armed Services Committee here in the House and other 
investigations. Our military did everything they could. They 
turned over every rock. They tried to deploy as best they could 
to try to get to Benghazi. It was beyond the geographic range. 
They didn't have assets nearby because we don't have a lot of 
installations and military personnel that are in that immediate 
region.
    So following what happened in Benghazi, the Chairman of the 
Joint Chiefs, General Dempsey, and I agreed to send out mixed 
teams of our diplomatic security and their top security experts 
from the Defense Department to get a better idea of the 19 
high-threat posts. And that's exactly what we did. And it gave 
us some guidance to try to have better planning ahead of time.
    I know Admiral Mullen testified that it would be beyond the 
scope of our military to be able to provide immediate reaction 
to 270 posts, but that's why we tried to narrow down.
    And, of course, we do get help from our military in war 
zones. The military has been incredibly supportive of our 
Embassy in Kabul and our Embassy in Baghdad, but we have a lot 
of hot spots now and very dangerous places that are not in 
military conflict areas where we have American military 
presence, so we wanted to figure out how we could get more 
quickly a fast reaction team to try to help prevent what 
happened in Benghazi.
    Ms. Duckworth. Thank you. So this ISAT process with the 
joint teams of DOD and State that goes out and initially looked 
at the 19 posts, that's great that they come out--back with a 
report. It's kind of like, you know, the seven reports for 
this, and now we have another committee. We can keep having 
committees to look into Benghazi, but we never act on them. It 
doesn't help our men and women on the ground, and that's what 
I'm focused on.
    So what I want to know is with these ISATs, so they came 
back with their recommendations to you. Have they been 
resourced? Are they institutionalized? What has been done with 
this process so that it's not a snapshot in time in reaction to 
the Benghazi attack? And I want to make sure that, you know, at 
the very least, we are continuing the cooperation, or at least 
there's some sort of institutionalization of the review process 
to make sure that if it's not those 19 posts, if the shift now 
is there's 20 posts or some other posts. What has been done to 
make sure it's institutionalized?
    Mrs. Clinton. Well, that was one of the changes that I 
instituted before I left, and I'm confident that Secretary 
Kerry and his counterpart, Secretary Carter, at the Defense 
Department, are continuing that because I think it was very 
useful. Certainly it was useful for our security professionals 
and our diplomats to be partnered in that way with the Defense 
Department.
    You know, historically the only presence at some of our 
facilities has been Marines. And as you know well, Marines were 
there not for the purpose of personnel protection; they were 
there to destroy classified material and equipment.
    And so part of the challenge that we have faced in some of 
these hot-spot, dangerous areas is, how will we get more of a 
presence? And after Benghazi, we were able to get Marines 
deployed to Tripoli. So this is a constant effort between the 
State Department and the Defense Department, but it's my strong 
belief that the ISAT process has been and should be 
institutionalized, and we just keep learning from it.
    Ms. Duckworth. I'd like to touch on the quadrennial 
reviews. Again, coming from Armed Services, even as a young 
platoon leader out in, you know, a platoon, we got and read the 
Defense Quadrennial Review, which is a review that happens on a 
periodic basis that gives the individual soldier an idea of 
what the Defense Department is trying to do. And I understand 
you initiated something similar----
    Mrs. Clinton. Right.
    Ms. Duckworth [continuing]. In the State Department. And 
this goes to--there has been discussion already about the 
culture at the State Department, especially when it comes to 
security. I find that the Department of Defense Quadrennial 
Review is really good at instilling culture throughout the 
Department.
    Can you talk a little bit about how and why you decided to 
do the review for the State Department? Was it useful? Is it 
useful? Is it getting out there? Is it a waste of time, and we 
shouldn't be wasting money on it, and we should be doing 
something else?
    Mrs. Clinton. Well, I hope it's not the latter. I learned 
about the Quadrennial Defense Review serving on the Armed 
Services Committee in the Senate during my time there.
    I agree with you completely, Congresswoman. It's a very 
successful roadmap as to where we should be going, and I'm 
impressed that as a platoon leader, it was something that you 
took into account.
    So when I came to the State Department, there had never 
been anything like this done; there was no roadmap. And the 
State Department and USAID would come up and fight for the 
money that they could get out of Congress, no matter who was in 
charge of the Congress, every single year. It's 1 percent of 
the entire budget, and it was very difficult to explain 
effectively what it is we were trying to achieve, so I did 
institute the first ever Quadrennial Diplomacy and Development 
Review.
    And one of the key questions that we were addressing is, 
what is this balance between risk and reward when it comes to 
our diplomats and our development professionals? Because the 
first thing I heard when I got to the State Department was a 
litany of complaints from a lot of our most experienced 
diplomats that they were being hamstrung, that the security 
requirements were so intense that they were basically unable to 
do their jobs. And, of course, then from the security 
professionals, who were all part of this, what we call the 
QDDR, they were saying: We don't want you to go beyond the 
fence. We can't protect you in all of these dangerous 
circumstances.
    How you balance that--and it is a constant balancing of 
risk and reward in terms of what we hope our diplomats and 
development professionals can do. So it's been done twice now. 
Secretary Kerry in his tenure has done the second QDDR. And I 
hope it becomes as important and as much of a roadmap as the 
QDR has for our Defense Department and our military services.
    Ms. Duckworth. Thank you.
    I'm out of time, Mr. Chairman.
    Chairman Gowdy. I thank the gentlelady from Illinois.
    The chair would now recognize the gentlelady from Alabama, 
Mrs. Roby.
    Mrs. Roby. Good morning.
    Mrs. Clinton. Good morning.
    Mrs. Roby. Secretary Clinton, my colleagues have focused on 
your relationship with the Ambassador, Chris Stevens, and why 
you sent him into Benghazi in 2011 as part of your broader 
Libya initiative, but it's not so clear from everything that 
we've reviewed that you had a vision in Benghazi going forward 
into 2012 and beyond. It appears that there was confusion and 
uncertainty within your own Department about Libya. And, quite 
frankly, Secretary Clinton, it appears that you were a large 
cause of that uncertainty.
    And we've seen all the day-to-day updates and concern early 
in 2011. And I heard what you said to my colleague, Mrs. 
Brooks. And I'll get to that in a minute. But showing that 
Libya and, for that matter, Benghazi, belonged to you in 2011, 
it was yours, so to speak. And from your own records that we 
have, we saw a drop in your interest in Libya and Benghazi in 
2012.
    Not only do the records show your drop in interest in 
Benghazi, it was even noticed by your own staff. I want to 
point this out to--I say this because I want to point you to an 
email in early February 2012 between two staffers at your Libya 
desk that says you didn't know whether we still even had a 
presence in Benghazi. Let's not use my words. Let's use theirs. 
This can be found at tab 31. The email says--and it's dated 
February 9, 2012. One writes to the other about an encounter 
that she had with you, quote: ``Also, the Secretary asked last 
week if we still have a presence in Benghazi. I think she would 
be upset to hear that yes, we do, but because we don't have 
enough security, they are on lockdown,'' end quote.
    And I say that this is very troubling to me because it 
raises several issues that I'd like to ask you about. I'm 
struck by the first part, ``The Secretary asked last week if we 
still have a presence in Benghazi.'' Now, you pointed out to 
Mrs. Brooks in her last line of questioning based upon the 
email stacks here that you engaged in a lot of conversations 
and briefings, so I'm assuming that this conversation with this 
member of your staff took place in one of those briefings, but 
then she sent this email asking about this.
    So how can this be that two of your staffers are emailing 
about whether or not you even knew that we had a presence in 
Benghazi in 2012, with all your interest in Libya in 2011, 
including your trip in October of 2011, and that months later, 
we come to find out that you didn't even know if we had a 
presence there?
    Mrs. Clinton. Well, I can't comment on what has been 
reported. Of course, I knew we had a presence in Benghazi. I 
knew that we were evaluating what that presence should be, how 
long it should continue, and I knew exactly what we were doing 
in Libya.
    And I think it's important since you--you have some very 
legitimate questions about what we were doing. You know, the 
United States played a major role in the first election that 
the Libyan people had in 51 years. It was a successful election 
by every count, and they voted for moderates. They voted for 
the kind of people they wanted to govern them. We had a very 
successful effort that the United States supported, getting rid 
of Qadhafi's remaining chemical weapons, which we led and 
supported the United Nations and others in being able to do.
    We were combating the proliferation of weapons. That's one 
of the reasons why there was a CIA presence in Benghazi because 
we were trying to figure out how to get those weapons out of 
the wrong hands and get them collected in a way and destroyed, 
and, in fact, we began reducing those heavy weapons stocks.
    We were, you know, working on providing transition 
assistance to the Libyans. I met with the Libyans. I telephoned 
with the Libyans. I saw the Libyans all during this period. And 
it was hard because a lot of them knew what they wanted, but 
they didn't know how to get from where they were to that goal. 
And we did an enormous amount of work. My two deputies, Tom 
Nides and Bill Burns, went to Libya. Other officials in the 
State Department went to Libya. So there was a constant 
continuing effort that I led to try to see what we could do to 
help.
    Now, one of the problems we faced is that the Libyans did 
not really feel that they could welcome a peacekeeping mission, 
they couldn't welcome foreign troops to their soil. That made 
it really difficult. And it----
    Mrs. Roby. Secretary----
    Mrs. Clinton [continuing]. Didn't have to be American 
troops. It could have been troops from anywhere in the world 
under a U.N. mandate that might have helped them begin to 
secure their country.
    Mrs. Roby. Secretary Clinton, if I may, I hear what you're 
saying, but this email says something very, very different.
    Mrs. Clinton. Well, I can't speak to that. I can just tell 
you what I was doing, and I----
    Mrs. Roby. Sure. But these----
    Mrs. Clinton [continuing]. Was doing a lot.
    Mrs. Roby. This was your staff, and I----
    Mrs. Clinton. Well, who----
    Mrs. Roby. How can they wonder----
    Mrs. Clinton. What were the----
    Mrs. Roby [continuing]. If they had this conversation with 
you, why they would make it up, but I wanted to move on.
    This email, you know, makes me wonder about the vision for 
Benghazi because they're asking if you--they're saying that you 
asked if we still had a presence, but if you--you know, we look 
at the second part of the email, ``and I think she would be 
upset to hear yes, we do''----
    Mrs. Clinton. I----
    Mrs. Roby. This----
    Mrs. Clinton. You know, Congresswoman, I'm sorry. I have 
no--no recollection of or no knowledge of--of course.
    Mrs. Roby. Well, please turn to tab 31----
    Mrs. Clinton. Well, I----
    Mrs. Roby [continuing]. Because it's right there.
    Mrs. Clinton. I trust that you have read it, but I also 
tell you that we had a presence in Benghazi. We had members of 
the administration and Congress visiting Benghazi, so, of 
course, I knew we had a presence in Benghazi. I can't speak to 
what someone either heard or misheard, but I think what's 
important, and I understand the underlying point of your 
question, is, what were we doing about----
    Mrs. Roby. Right. And I've heard----
    Mrs. Clinton [continuing]. Libya after Qadhafi fell, and 
that's what I'm trying to explain to you about----
    Mrs. Roby. Yes, ma'am.
    Mrs. Clinton [continuing]. What we were doing.
    Mrs. Roby. I want to get to the second part of the email 
that suggests that we were in lockdown, that you would have 
been upset to know yes. I've heard the first part of your 
answer. But that we were in lockdown, and you've said on 
numerous occasions, including in your opening statement on 
point number one, you know, America must lead and we must 
represent in dangerous places, ``They can't do their jobs for 
us in bunkers.'' And essentially what we know is that there 
weren't the required number of security on the ground in order 
for an individual to even move about the country to provide you 
with what you have reiterated on numerous occasions as being 
very important at that time, which is political reporting.
    Mrs. Clinton. Well, could you tell me who is--who are the 
names on this email that you're talking about?
    Mrs. Roby. Sure, I can. Turn to tab 31. You have a book in 
front of you. It is Alyce Abdalla and--I'm going to pronounce 
it wrong--Evyenia Sidereas? Is that correct?
    Mrs. Clinton. They were not on my staff. I'm not in any 
way, you know, contradicting what they think they heard or what 
they heard somebody say, but the people that I----
    Mrs. Roby. Can you tell me who they were if they were not 
on your staff?
    Mrs. Clinton. They were not on my--they were--they--they 
were in the State Department along with thousands of other 
people. They were not part of the Secretary's staff.
    But I get what you're saying, Congresswoman, and I want to 
focus on this because I think it's a fair and important 
question. The facility in Benghazi was a temporary facility. 
There had been no decision made as to whether or not it would 
be permanent. It was not even a consulate. You know, our 
Embassy was in Tripoli. Obviously, much of the work that we 
were doing was going through the Embassy. There was a very 
vigorous discussion on the part of people who were responsible 
for making a recommendation about Benghazi as to what form of 
consulate, what form of facility it should be. Chris Stevens 
believed that it should be a formal consulate, but that was 
something that had to be worked out, and there had not yet been 
a decision at the time that the attack took place. So it was 
not a permanent facility, and, you know, there were a number of 
questions that people were asking about whether it could or 
should be.
    Mrs. Roby. I want to drill down on the security issue, but 
I also want to say it's frustrating for us here on this panel 
asking these questions to hear you in your opening statement 
talk about the responsibility you took for all 70,000-plus 
employees, yet I read you an email that is a conversation 
between two of those employees, and it seems as though you're 
just kind of brushing it off as----
    Mrs. Clinton. No. I----
    Mrs. Roby [continuing]. Not having any knowledge.
    Mrs. Clinton. I'm just saying I have no recollection of it, 
and it doesn't correspond with the facts of what we were doing 
on a regular basis.
    Mrs. Roby. Well, we talked for just a minute about the 
security. I've got a few seconds left. In 2011, during the 
revolution, then Envoy Stevens had ten agents with him on the 
ground in Benghazi. And then we know, in 2012, where the 
security situation had deteriorated even further, there were 
only three agents assigned to Benghazi. Again, can't even move 
anybody off of the facility to do the necessary political 
reporting.
    And my question is, you know, why did you not acknowledge, 
because of your interest in 2011, the importance of having 
those security officers there to do what was so important to 
you, which was the political reporting? Then in 2011, ten; and 
when the Ambassador was there, three; and he brought two of his 
own the night of the attack, which would meet the requisite 
five; but there was really only three there at any given time. 
So if you could address that again. I'm a little short on time.
    Mrs. Clinton. Well, he did have five with him on September 
11, and he----
    Mrs. Roby. Well, he brought two, right? He brought two----
    Mrs. Clinton. Well----
    Mrs. Roby [continuing]. With him. There were three there--
--
    Mrs. Clinton. Right. But----
    Mrs. Roby [continuing]. And there was supposed to be five 
there.
    Mrs. Clinton. But the point was they were personal 
security, so they were there to secure him. So, yes, he did 
bring two, and when he got there, he had five.
    Mrs. Roby. Can you address the discrepancy?
    Mrs. Clinton. The day before, on September 10, he went into 
Benghazi, he went to a luncheon with leading civic leaders, 
business leaders in Benghazi. So he felt very comfortable. It 
was his decision. Ambassadors do not have to seek permission 
from the State Department to travel around the country that 
they are assigned to. He decided to go to Benghazi. By taking 
two security officers with him and having three there, he had 
the requisite five that had been the subject of discussion 
between the Embassy and the State Department security 
professionals.
    I'm not going to in any way suggest that he or the Embassy 
got everything they requested. We know that they didn't, from 
the Accountability Review Board, from investigations that were 
done by the Congress. We know that there were a lot of 
discussions about what was needed, particularly in Benghazi, 
and that the day that he died, he had five security officers.
    A lot of security professionals who have reviewed this 
matter, even those who are critical that the State Department 
did not do enough, have said that the kind of attack that took 
place would have been very difficult to repel. That's what we 
have to learn from, Congresswoman. You know, there are many 
lessons going back to Beirut, going back to Tehran and the 
takeover of our embassy, and going all the way through these 
years. And sometimes we learn lessons and we actually act and 
we do the best we can, and there's a perfect terrible example 
of that with respect to what happened in Benghazi.
    Mrs. Roby. Certainly. My time has expired. And we'll 
certainly never know what would have--what the outcome would 
have been if there had been more agents that night.
    I yield back.
    Mrs. Clinton. Well, that's not what the professionals, 
that's not what the experts in security have concluded. If you 
read the Accountability Review Board----
    Mrs. Roby. I have read it, Secretary Clinton, and it says 
that security was grossly inadequate.
    Mrs. Clinton. Well, it said that there were deficiencies 
within two bureaus in the State Department, which we have moved 
to correct, and it also pointed out that the Diplomatic 
Security officers who were there acted heroically. There was 
not one single question about what they did. And they were 
overrun, and it was unfortunate that the agreement we had with 
the CIA annex, and when those brave men showed up, that it was 
also not enough.
    Mrs. Roby. Certainly. And we'll discuss this more.
    I have to yield back.
    Chairman Gowdy. The gentlelady's time has expired.
    The chair will now recognize the gentleman from Washington.
    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for being here.
    Just to clarify, you knew we had a presence?
    Mrs. Clinton. Of course, I knew. I knew, Congressman, of 
course.
    Mr. Smith. And then going back to an earlier question, you 
were also aware of those two attacks on our compounds, even 
though you didn't email about it?
    Mrs. Clinton. Yes, I was aware.
    Mr. Smith. And that, I think, you know, sort of points out, 
I mean, after 17 months and $4.7 million, as the ranking member 
pointed out in his opening statements, and then as we've seen 
today, this committee is simply not doing its job. And I don't 
really think it should have been formed in the first place, but 
what we've heard here is, well, first of all, an obsession with 
email.
    The idea that two fairly junior level staffers might not 
have gotten something wrong in what they heard or the 
information in an email might in fact not be accurate are 
certainly not things that should be news to anybody, but it is 
the obsession with the emails that takes us off of what should 
have been the task of this committee.
    I also find it interesting that Mrs. Roby's final comments 
were to quote the ARB report.
    Mrs. Clinton. Right.
    Mr. Smith. And, yes, the ARB report, I think, was very 
good. I think we absolutely had to have it. And I think it was 
appropriate for the committees and Congress to do the 
investigations that they did, but all of that begs the question 
as to why we've spent the $4.7 million that we have spent on 
this.
    And even in the chairman's opening remarks, it was 
primarily a defense of the committee's existence, not any new 
information, not here's what we in those 17 months and $4.7 
million have figured out that is new and different. There's 
nothing. In fact, we've heard nothing, even in today's hearing, 
not a single solitary thing that hasn't already been discussed 
repeatedly. So we've learned absolutely nothing.
    And, yes, we've uncovered a trove of new information. In 
this age, there--I don't think there's ever an end to the 
emails. We could probably go on for another two years, and we'd 
find more.
    But the question is, have we found anything substantively 
that tells us something different about what happened in 
Benghazi? And the answer to that question is no.
    And, look, I didn't think this committee should have been 
formed in the first place, but if it was going to be formed, 
the least we could do would be to actually focus on the four 
brave Americans who were killed, why they were killed, and 
focus on Benghazi. And we have not.
    I mean, Mr. Roskam's questions I found to be the most 
interesting. Basically, I don't know, it was like he was 
running for President. He wanted to debate you on overall Libya 
policy as to why we got in there in the first place. And that's 
debatable, and I think you will argue that quite well. But 
that's not about the attack on Benghazi. That's not about what 
we could have done in Benghazi to better protect them.
    So, again, I think we've seen that this committee is 
focused on you. And I'm, you know, the ranking member of the 
Armed Services Committee. I don't see the Department of Defense 
here. I don't see the CIA here. There were many, many other 
agencies involved in this, and yet yours has been the one that 
they have obsessively focused on. And I, I think that's a shame 
for a whole lot of reasons, but for one thing, this committee, 
as it's been in the news the last several weeks, has been yet 
one more step in denigrating this institution. And I happen to 
think this institution needs more support, not less, so I wish 
we would stop doing that. And you mentioned Beirut, and that 
was the first thought that occurred to me when this happened, 
was a Democratic Congress at the time did a fair and quick 
investigation of what was an unspeakable tragedy, two separate 
suicide bombings 4 months apart. And there was clearly 
inadequate security, but the focus there was not on 
partisanship, not on embarrassing the Reagan administration, 
but on actually figuring out what happened and how we can 
better protect Americans.
    Now, I want to talk just--and ask questions about what I 
think is the central issue, and that is, how do we have that 
presence in the world that you described in what is an 
increasingly dangerous world? Because as I've traveled to 
Pakistan and Afghanistan and Yemen and other places, I am 
consistently amazed by the willingness of our diplomatic corps 
to put their lives at risk. And I wonder, how do you balance 
that very difficult decision because, frankly, what I've heard 
more often from that diplomatic corps is that they chafe at the 
restrictions. I mean, I remember vividly being in Peshawar, 
which is, you know--I mean, I don't like to ride from the 
airport to the Embassy, which was 10 minutes, and we were there 
for, I don't know, a few hours and then out. You know, the 
State Department personnel, they lived there and went out 
amongst the community.
    How do you try and strike that balance of, you know, being 
present and at the same time meeting the security obligations? 
And then, most importantly, who drives that decision because it 
seems to me in most instances, it is driven by the diplomatic 
corps there? If they take risks, it's because they have decided 
to do it. They're there. They know the security situation 
certainly better than the Secretary and better than most 
everybody else. But what is the proper way to strike that 
balance going forward to protect our personnel and still 
fulfill their mission?
    Mrs. Clinton. Congressman, I think that is the most 
important question, and I would certainly welcome congressional 
discussion and debate about this because it's what we tried to 
do, going back to Congresswoman Duckworth's question, what we 
tried to begin to do in the Quadrennial Diplomacy and 
Development Review, the first one that was ever done, because 
that's exactly what we were facing.
    You know, we have had diplomats and development 
professionals in war zones now for a number of years. We've had 
them in places that are incredibly unstable and dangerous 
because of ongoing conflicts. It is, I think, the bias of the 
diplomacy corps that they be there because that's what they 
signed up for, and they know that if America is not 
represented, then we leave a vacuum, and we lose our eyes and 
our ears about what people are thinking and doing.
    It is certainly the hardest part of the job in many of our 
agencies and departments today, and it was for me in the State 
Department. That's why I relied on the security professionals 
because by the time I got there in 2009, the Diplomatic 
Security professionals had been taking care of American 
diplomats in Iraq, in Afghanistan, in Pakistan, for years, and 
they had learned a lot of lessons, and they were forced to make 
tough decisions all the time.
    You mentioned Peshawar, one of clearly the high-threat 
posts that the United States maintains a presence in, but when 
you think that since 2001, we've had 100 of our facilities 
attacked. If we were to shut them all down, if we were to pull 
out from all of them, we would be blinding ourselves. So it's a 
constant balancing act: what are the risks, and what are the 
rewards for opening, maintaining, and/or closing a site? I 
don't know that there's any hard and fast rule that we can 
adopt. We just have to get better at making that assessment, 
Congressman.
    And your question really goes to the heart of it. When you 
were a Member of Congress in Peshawar, you were guarded by our 
Diplomatic Security professionals. They had to assess: Was it 
safe enough for a member of Congress to come? How do we get him 
from the airport to the Embassy? It won't surprise you to hear 
we've had attacks there, as in so many other places around the 
world. And that is a heavy responsibility. And the Diplomatic 
Security professionals get it right 999 times out of 1,000. And 
it's deeply distressing to them when anything goes wrong. We 
have lost non-Americans with some of these attacks on 
facilities. We've lost our locally employed staff. They never 
want to see any successful attack, so they have to be--they 
have to be right 100 percent of the time. The terrorists only 
have to be right once. And, you know, that's why this is really 
at the core of what I tried to do before even I got the 
Accountability Review Board, going back to the QDDR to come up 
with a better way of trying to make those assessments.
    Mr. Smith. Madam Secretary, if I may, just two final 
points. I mean, so the bottom line is Benghazi on 9/11/2012 was 
not the only dangerous place in the world where our security 
personnel were----
    Mrs. Clinton. Right.
    Mr. Smith [continuing]. And where these difficult decisions 
had to be made.
    Mrs. Clinton. Right.
    Mr. Smith. And the other point I want to make before my 
time expires, now, this was in 2012, so we were only a couple 
years into this, but Secretary of Defense Ash Carter just I 
think yesterday wrote an editorial in the Wall Street Journal 
about the impact of five years of budget uncertainty on the 
DOD's ability to function. I mean, for five years, we have gone 
through CR's, threatened government shutdowns, one actual 
government shutdown, and constant budget uncertainty.
    Now, my area is the Department of Defense. I know how it's 
impacted them. They basically from one week to the next barely 
know what they can spend money on. Now, one of the criticisms 
is there should have been more security, but if you don't have 
a budget, if you don't have an appropriations bill, how does 
that complicate your job as Secretary in trying to figure out 
what money you can spend?
    Mrs. Clinton. Well, it makes it very difficult, 
Congressman. And this is a subject that we talked about all the 
time. How do you plan? How do you know--you know, you have so 
many Diplomatic Security officers in so many dangerous places. 
How do you know what you're going to have to be able to deploy? 
And where are you going to have to make the choices? That's why 
the prioritization, which shouldn't have to be, in my view, the 
responsibility of the officials in the State Department or the 
Defense Department to try to guess what makes the most sense. 
We should have a much more orderly process for our budget.
    And I will say, again, as Secretary of State, the kind of 
dysfunction and failure to make decisions that we have been 
living with in our government hurts us. It hurts us in the 
obvious ways, like where you're going to deploy forces if 
you're in DOD, or where we're going to send security if you're 
in the Department of State, but it hurts us, as the great 
country that we are, being viewed from abroad as unable to 
handle our own business, and so it has a lot of consequences. 
And it's something that I wish that we could get over, and have 
our arguments about policy, have our arguments about substance, 
but get back to regular order where we have the greatest nation 
in the world with a budget that then they can plan against as 
opposed to the uncertainty that has stalked us now for so long.
    Mr. Smith. Thank you, Madam Secretary. So the bottom line 
is, Congress needs to do its job.
    Mrs. Clinton. Right.
    Mr. Smith. That would be helpful.
    Mrs. Clinton. I agree with that.
    Chairman Gowdy. The gentleman yields back. And I'll be 
happy to get a copy of my opening statement for the gentleman 
from Washington so he can refresh his recollection on all of 
the things our committee found that your previous committee 
missed.
    And with that, I'll go to the gentleman from Georgia, Mr. 
Westmoreland.
    Mr. Westmoreland. Thank you.
    Madam Secretary, I talk a little slower than everybody 
else, so----
    Mrs. Clinton. I lived in Arkansas a long time. I don't need 
an interpreter, Congressman.
    Mr. Westmoreland. Yeah, I know that. So some of the 
questions I'm asking, you can just get us a yes-or-no answer--
--
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland [continuing]. That would be great, but I 
do want you to give us a full answer.
    But Mr. Smith from Washington mentioned that there was no 
new facts brought out in some of these interviews, and I wanted 
to say that I think he was at one interview for one hour. I 
have been at a bunch of those, and there is a lot of new facts 
that has come out.
    One of the things that he said, it doesn't--that you knew 
about these two incidents that have been mentioned previously. 
It is not a matter if you knew about them. It's a matter of 
what you did about them. And to us, the answer to that is 
nothing.
    Now, you say you were briefed by the CIA every morning that 
you were in Washington. Is that correct?
    Mrs. Clinton. That's correct.
    Mr. Westmoreland. Did they ever mention to you--Assistant 
Acting Director Morell wrote in his book that there were 
``scores of intelligence pieces describing in detail how the 
situation in Libya was becoming more and more dangerous.''
    Did you ever read any of these pieces?
    Mrs. Clinton. Yes. As I previously stated, we were 
certainly aware that the situation across Libya was becoming 
more dangerous and that there were particular concerns about 
eastern Libya.
    Mr. Westmoreland. Did you read the piece that was ``Libya: 
Al Qaeda Establishing Sanctuary''?
    Mrs. Clinton. I'm aware that that was certainly among the 
information provided to me.
    Mr. Westmoreland. There was another particular piece that 
was talked about after the IED attack that AFRICOM wrote. ``Al 
Qaeda Expands in Libya.'' Were you familiar with that?
    Mrs. Clinton. I can't speak to specific pieces, 
Congressman, but I was well aware of the concerns we all had 
about the setting up of jihadist training camps and other 
activities in Libya, particularly in eastern Libya.
    Mr. Westmoreland. You were briefed, and I think the CIA 
between January and September of 2012 had over 4,500 pages of 
intelligence. Were you aware of how many pages of intelligence? 
And I know you had a specific division, I guess, of the State 
Department under you that was called Intelligence and Research.
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland. Did they keep you up to speed on all of 
these 400 cables or different things that they were getting? 
Did they keep you up to speed on that, that you were aware of 
them?
    Mrs. Clinton. Congressman, I can't speak to specific 
reports, but I can certainly agree with you that I was briefed 
and aware of the increasingly dangerous upsurge in militant 
activity in Libya.
    Mr. Westmoreland. And so what did you do to make sure that 
our men and women over there were protected, knowing how much 
the threat had grown, especially in Benghazi, because a lot of 
people say that really in the summer of 2012, the security in 
Benghazi was worse than it was during the revolution?
    Mrs. Clinton. Well, Congressman, with respect to not only 
the specific incidents that you referenced earlier, but the 
overall concerns about Benghazi, I think I have stated 
previously there was never any recommendation by anyone, the 
intelligence community, the Defense Department, the State 
Department officials responsible for Libya, to leave Benghazi, 
even after the two incidents that you mentioned, because in 
part, as I responded to Congressman Smith, we had so many 
attacks on facilities that, as I said, went back to 2001, that 
certainly also happened in other parts of the world while I was 
there. Each was evaluated, and there was not a recommendation.
    Furthermore, there was not even on the morning of September 
11, while Chris Stevens and Sean Smith were at the compound, 
Chris had spoken with intelligence experts, there was no 
credible, actionable threat known to our intelligence 
community----
    Mr. Westmoreland. Yes, ma'am.
    Mrs. Clinton [continuing]. Against our compound.
    Mr. Westmoreland. Reclaiming my time. You said that the 
Ambassador Cretz was pulled out of Tripoli because of threats 
on his life.
    Mrs. Clinton. There were threats from people associated 
with Qadhafi after the publication of cables he had written 
that were made public by WikiLeaks.
    Mr. Westmoreland. And you say you were aware of the two 
attacks at the mission facility in Benghazi?
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland. Mr. Morell in his book states that there 
was 20 attacks on that facility. Are you familiar with the 
other 18?
    Mrs. Clinton. There were two that we thought rose to the 
level of being serious. And----
    Mr. Westmoreland. Were you familiar with the other 18?
    Mrs. Clinton. I'm not aware of 18 others. And I would point 
out, and I'm sure that former Deputy Director Morell made this 
point when he was testifying, the CIA stayed in Libya. The CIA 
had a much bigger presence than the State Department despite 
the overall decline in stability. Some might argue, actually 
because of the overall decline in stability, it was thought to 
be even more important for the CIA to stay there. And they also 
did not believe that their facility would be the subject of a 
deadly attack either, because I think sometimes----
    Mr. Westmoreland. Ma'am----
    Mrs. Clinton [continuing]. Sometimes the discussion gets 
pulled together when really we had Chris and Sean dying at the 
State Department compound, which we are discussing, and we had 
our other two deaths of Tyrone Woods and Glen Doherty at the 
CIA Annex.
    Mr. Westmoreland. Reclaiming my time for just a minute, and 
I do appreciate that, but if you talked to the CIA contractors 
that were at the Annex and you asked them how they were armed 
and equipped, and then if you would, or could talk to the 
Diplomatic Security agents that were at the facility, I think 
you will see that there was a big, big difference in the 
equipment that they had to protect themselves.
    But you knew of the two what you call major incidents, but 
you don't recollect the other 18 that Mr. Morell says happened. 
How many instances would it have taken you to say, ``Hey, we 
need to look at the security over there''? Would it have been 
three major instances; 30 instances; 40 instances; 50 
instances? How many instances would you have been made aware of 
that would have made you say, ``Hey, I don't care what anybody 
else says. We are going to protect our people. Chris Stevens is 
a good friend of mine. We are going to look after him.'' How 
many would it have taken?
    Mrs. Clinton. Well, Congressman, of course, I made it 
abundantly clear that we had to do everything we could to 
protect our people. What I did not and do not believe any 
Secretary should do was to substitute my judgment from 
thousands of miles away for the judgment of the security 
professionals who made the decisions about what kind of 
security would be provided. And----
    Mr. Westmoreland. Ma'am----
    Mrs. Clinton. I know that that sounds somewhat hard to 
understand, but, you know, we have a process and the experts 
who I have the greatest confidence in and who had been through 
so many difficult positions because practically all of them had 
rotated through Afghanistan, Pakistan, Iraq, Yemen, other 
places, they were the ones making the assessment. No one ever 
came to me and said, ``We should shut down our compound in 
Benghazi.''
    Mr. Westmoreland. Ma'am, I'm not saying shut it down. I'm 
saying protect it.
    Mrs. Clinton. Well----
    Mr. Westmoreland. I'm not saying shut it down. I'm just 
saying protect it.
    Mrs. Clinton. Right.
    Mr. Westmoreland. And when you say security professionals, 
I'm not trying to be disparaging with anybody, but I don't know 
who those folks were, but it's just my little----
    Mrs. Clinton. Well, they were people who risked their lives 
to try to save----
    Mr. Westmoreland. It's my little personal opinion they 
weren't being professional when it came to protecting people.
    But let me say this. You said that the mission that you 
gave Ambassador Stevens was to go in and to investigate the 
situation.
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland. Now, if you are going to investigate a 
situation, it would seem to me like you would have to get out 
into the country to investigate that. And I don't know if 
you're aware of it or not, but there were not even enough 
Diplomatic Security for him to leave the compound without 
asking the CIA operatives to assist them. Were you aware of 
that?
    Mrs. Clinton. Well, we had an agreement with the CIA to 
help supplement security and to come to the aid. It was a--it 
was a mutual agreement.
    Mr. Westmoreland. Was that a written agreement?
    Mrs. Clinton. No, it was not a written agreement. But we 
are posted with the CIA in many places in the country--I mean, 
in the world--and it's important to have a good working 
relationship, and we did. And, unfortunately, despite all of 
the weapons and despite the fortification, two CIA contractors 
died at the CIA Annex that night.
    Mr. Westmoreland. Just to follow up on one thing about 
Ambassador Stevens. You got a lot of emails from Sidney 
Blumenthal, and you say that Mr. Blumenthal was a friend of 
yours.
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland. And he had your personal email address?
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland. You say Chris Stevens was a friend of 
yours. He asked numerous times for extra protection. Now, if I 
had been Mr. Stevens, and I think anybody out there, anybody 
watching this would agree, if I had been Mr. Stevens and I had 
a relationship with you and I had requested 20 or more times 
for additional security to protect not only my life, but the 
people that were there with me, I would have gotten in touch 
with you some way. I would have let you know that I was in 
danger and that the situation had deteriorated to a point I 
needed you to do something.
    Did he have your personal email?
    Mrs. Clinton. Congressman, I do not believe that he had my 
personal email. He had the email and he had the direct line to 
everybody that he'd worked with for years. He had been posted--
--
    Mr. Westmoreland. But not yours.
    Mrs. Clinton [continuing]. With officials in the State 
Department. They had gone through difficult, challenging, 
dangerous assignments together. He was in constant contact with 
people.
    Yes, he and the people working for him asked for more 
security. Some of those requests were approved, others were 
not. We are obviously looking to learn what more we could do 
because it was not only about Benghazi, it was also about the 
Embassy in Tripoli.
    And I think it's fair to say that, you know, Chris asked 
for what he and his people requested because he thought that it 
would be helpful, but he never said to anybody in the State 
Department, ``You know what? We just can't keep doing this. We 
just can't--we can't stay there.''
    He was in constant contact with, you know, people on my 
staff, other officials in the State Department. And, you know, 
I did have an opportunity to talk with him and about the 
substance of the policy. But with respect to security, he took 
those requests where they belonged. He took them to the 
security professionals.
    And I have to add, Congressman, the Diplomatic Security 
professionals are among the best in the world. I would put them 
up against anybody. And I just cannot allow any comment to be 
in the record in any way criticizing or disparaging them. They 
have kept Americans safe in two wars and in a lot of other 
really terrible situations over the last many years. I trusted 
them with my life. You trust them with yours when you are on 
codels. They deserve better, and they deserve all the support 
that the Congress can give them because they're doing a really 
hard job very well.
    Mr. Westmoreland. Well, ma'am, all I can say is that they 
missed something here and we lost four Americans.
    Chairman Gowdy. The gentleman's time has expired.
    The chair will now recognize the gentleman from Kansas, Mr. 
Pompeo.
    Mr. Pompeo. Madam Secretary, you referred to the QDDR a 
couple times as being important to Diplomatic Security. Is that 
correct?
    Mrs. Clinton. It provoked a discussion, Congressman, about 
balancing of risk.
    Mr. Pompeo. Madam Secretary, I have had a chance to read 
that. I wanted to only read the executive summary that ran 25 
pages, but it didn't have a word about Diplomatic Security in 
those entire 25 pages of the executive summary, not one word, 
Madam Secretary. And then I read the remaining pages, amounted 
to 270-plus. Do you know how many pages of those 270 had to do 
with Diplomatic Security?
    Mrs. Clinton. It was about the balancing of risk and 
reward, which was not only----
    Mr. Pompeo. Madam Secretary----
    Mrs. Clinton [continuing]. Not only about Diplomatic 
Security specifically, but about the larger question of our 
mission around the world.
    Mr. Pompeo. Madam Secretary, there was no balance. There 
was two pages out of 270 pages. You talked about a lot of 
things in there. You talked about a lot of improvements. It 
didn't have anything to do with Diplomatic Security in any 
material way in that report.
    You talked about being disappointed too. I've heard you use 
that several times. You were disappointed. You read the ARB. 
Why didn't you fire someone? In Kansas, Madam Secretary, I get 
asked constantly, why has no one been held accountable? How 
come not a single person lost a single paycheck connected to 
the fact that we had the first ambassador killed since 1979? 
How come no one has been held accountable to date?
    Mrs. Clinton. Well, Congressman, the Accountability Review 
Board pointed out several people working in the State 
Department who they thought had not carried out their 
responsibilities adequately, but they said that they could not 
find a breach of duty.
    Mr. Pompeo. Yes, ma'am----
    Mrs. Clinton. And the personnel rules and the laws that 
govern those decisions were followed very carefully.
    Mr. Pompeo. Yes, ma'am. I'm not asking what the ARB did. 
I'm asking what you did.
    Mrs. Clinton. I followed the law, Congressman. That was 
my--that was my responsibility.
    Mr. Pompeo. Madam Secretary, you're telling me that you had 
no authority to take anyone's paycheck, to cause anyone to be 
fired. You're telling me you were legally prohibited from doing 
that. Is that your position here this morning?
    Mrs. Clinton. It is my position that in the absence of 
finding dereliction or breach of duty there could not be 
immediate action taken, but there was a process that was 
immediately instituted and which led to decisions being made.
    Mr. Pompeo. Yes, ma'am. The decision was to put these at 
full back pay and keep them on as employees. That was the 
decision that was made as a result of the processes that you 
put in place. I will tell you, the folks in Kansas don't think 
that is accountability.
    I want to do some math with you. Can I get the first chart, 
please? Do you know how many security requests there were in 
the first quarter of 2012?
    Mrs. Clinton. For everyone or for Benghazi?
    Mr. Pompeo. I'm sorry. Yes, ma'am. Related to Benghazi and 
Libya. Do you know how many there were?
    Mrs. Clinton. No, I do not know.
    Mr. Pompeo. Ma'am, there were just over a hundred plus. In 
the second quarter, do you know how many there were?
    Mrs. Clinton. No, I do not.
    Mr. Pompeo. Ma'am, there were 172-ish, might have been 171 
or 173.
    How many were there in July and August and then in that 
week and few days before the attacks? Do you know?
    Mrs. Clinton. There were a number of them. I know that.
    Mr. Pompeo. Yes, ma'am, 83 by our count.
    Mrs. Clinton. Uh-huh.
    Mr. Pompeo. That's over 600 requests. You've testified here 
this morning that you had none of those reach your desk. Is 
that correct also?
    Mrs. Clinton. That's correct.
    Mr. Pompeo. Madam Secretary, Mr. Blumenthal wrote you 150 
emails. It appears from the testimony--or the materials that we 
have read that all of those reached your desk. Can you tell us 
why security requests from your professionals, the men that you 
just testified, and with which I agree are incredibly 
professional, incredibly capable people, trained in the art of 
keeping us all safe, none of those made it to you, but a man 
who was a friend of yours, who had never been to Libya, didn't 
know much about it, at least that's his testimony, didn't know 
much about it, every one of those reports that he sent on to 
you that had to do with situations on the ground in Libya, 
those made it to your desk, you asked for more of them, you 
read them, you corresponded with him, and yet the folks that 
worked for you didn't have the same courtesy?
    Mrs. Clinton. Well, Congressman, as you are aware, he's a 
friend of mine. He sent me information he thought might be of 
interest. Some of it was. Some of it wasn't. Some of it I 
forwarded to be followed up on. The professionals and experts 
who reviewed it found some of it useful, some of it not.
    Mr. Pompeo. Madam Secretary----
    Mrs. Clinton. He held no official position in the 
government and he was not at all my adviser on Libya. He was a 
friend who sent me information that he thought might be in some 
way helpful.
    Mr. Pompeo. Madam Secretary, I have lots of friends that 
send me things. I have never had somebody send me a couple of 
pieces of intelligence with the level of detail that Mr. 
Blumenthal sent me every week. That's a special friend.
    Mrs. Clinton. Well, it was information that had been shared 
with him that he forwarded on. And as someone who got the vast 
majority of the information that I acted on from official 
channels, I read a lot of articles that brought new ideas to my 
attention. And occasionally people, including him and others, 
would give me ideas. They all went into the same process to be 
evaluated.
    Mr. Pompeo. Yes, ma'am. I will tell you that the record 
that we received today does not reflect that. It simply 
doesn't. We have read the emails. We have read everything that 
we could get our hands on. It's taken us a long time to get it. 
But I will tell you, you just described all of this other 
information that you relied upon, and it doesn't comport with 
the record that this committee has been able to establish 
today.
    And I want you to take a look at this chart to the left. 
You will see the increasing number of requests, over 600. I 
think data matters. The pictures are worth a lot. You see the 
increase in the requests, and then the bottom line is the 
increase in security. And you'll note that the slope of those 
two lines is very different.
    Can you account for why that is, why we have increasing 
requests and yet no increase in security?
    Mrs. Clinton. Well, Congressman, I can only tell you that I 
know a number of requests were fulfilled and some were not. But 
from my perspective, again, these were handled by the people 
that were assigned the task of evaluating them. And, you know, 
I think it's important to, again, reiterate that although there 
were problems and deficiencies discovered by the Accountability 
Review Board, the general approach to have security 
professionals handle security requests, I think still stands.
    Mr. Pompeo. Yes, ma'am. I wish you'd have listened to those 
security professionals. You described Mr. Stevens as having the 
best knowledge of Libya of anyone, your words this morning, and 
yet when he asked for increased security he didn't get it.
    Second chart, please.
    This chart does the same thing. I just talked to you about 
requests for additional assistance. This chart goes through, I 
won't go through the numbers in detail, we've talked about them 
a bit, but it shows the increasing number of security incidents 
at the facility, your facility, the State Department facility 
in Benghazi, Libya. And then, again, it shows the increase in 
security being nonexistent.
    I assume your answer is the same with respect to the fact 
that we have increasing security incidents, but no 
corresponding increase in the amount of security?
    Mrs. Clinton. Congressman, I just have to respectfully 
disagree. Many security requests were fulfilled. We'd be 
happy----
    Mr. Pompeo. Well, ma'am----
    Mrs. Clinton [continuing]. To get that information for the 
record. So I can't really tell what it is you're putting on 
that poster----
    Mr. Pompeo. Yeah.
    Mrs. Clinton [continuing]. But I know that a number of the 
security requests were fulfilled for Benghazi.
    Mr. Pompeo. Ma'am, what it shows is that the number of 
Diplomatic Security agents at the beginning of 2012 and those 
that were there the day of the murder of four Americans is no 
different.
    Mrs. Clinton. Congressman, the decision, as I recall, was 
that the post, namely, Embassy Tripoli on behalf of Benghazi, 
requested five Diplomatic Security personnel and they did have 
that on the day that Chris Stevens was in Benghazi. 
Unfortunately, that proved insufficient in the face of the kind 
of attack that they were facing.
    Mr. Pompeo. Put the next poster up, please.
    Madam Secretary, you're not likely to know who these two 
folks are, do you?
    Mrs. Clinton. I do not.
    Mr. Pompeo. The one on the left is Muhammad al-Zahawi. He 
was the head of Ansar al-Sharia, a jihadist group based in 
Benghazi. The man on your left is Wissam bin Hamid. Were you 
aware that your folks in Benghazi, Libya, met with that man on 
the--within 48 hours before the attack?
    Mrs. Clinton. I know nothing about any meeting with him.
    Mr. Pompeo. On September 11, on the day that he was killed, 
Ambassador Stevens sent a cable to the State Department talking 
about his meeting with Mr. bin Hamid. Are you aware of that 
cable?
    Mrs. Clinton. No, I'm not.
    Mr. Pompeo. He said in his cable, he said, ``They,'' 
referring to Mr. Wissam bin Hamid, ``They wanted an 
introductory meeting. They were here, they asked us what we 
needed to bring security to Benghazi.'' So your officials were 
meeting with this man on the ground in Benghazi, Libya, 
discussing security two days before that. But in August of that 
same year, the United States Government had said that this very 
man was, ``a young rebel leader who allegedly fought in Iraq 
under the flag of Al Qaeda.''
    Were you aware that our folks were either wittingly or 
unwittingly meeting with Al Qaeda on the ground in Benghazi, 
Libya, just hours before the attack?
    Mrs. Clinton. I know nothing about this, Congressman.
    Mr. Pompeo. I think that's deeply disturbing. I think the 
fact that your team was meeting with----
    Mrs. Clinton. I'm sorry, which team is this you are talking 
about?
    Mr. Pompeo. Yeah, it would have been--we don't know exactly 
who----
    Mrs. Clinton. Well, it would be helpful----
    Mr. Pompeo. It would have been one of the--one of your 
State Department employees, Madam Secretary. I don't know which 
one. Perhaps you could enlighten us or we can get the records 
we need to do so.
    Mrs. Clinton. Well----
    Mr. Pompeo. To date we have not been able to learn that.
    Mrs. Clinton. Well, since we didn't have an ongoing 
significant presence of State Department personnel in Benghazi, 
I don't know to whom you are referring.
    Mr. Pompeo. Mr. Chairman, I'll yield back the balance of my 
time.
    Chairman Gowdy. The gentleman from Kansas yields.
    The chair will now recognize the gentlelady from 
California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for coming again to answer 
our questions.
    We know that over the last 17 months there have been a 
number of allegations that have been made with respect to you, 
and when the facts and the testimony and the record don't 
support that, we seem to move on to the next, you know, new 
allegation.
    One of the more recent ones is that Republicans are 
claiming that because you received emails from Sidney 
Blumenthal, that he was your primary source for intelligence. 
Now, Chairman Gowdy claimed that Mr. Blumenthal was, and I'm 
going to quote him here, ``Secretary Clinton's primary adviser 
on Libya because nearly half of all the emails sent to and from 
Secretary Clinton regarding Benghazi and Libya prior to the 
Benghazi terrorist attacks involved Sidney Blumenthal.'' He 
also claimed that Mr. Blumenthal was, and I'm quoting again, 
``one of the folks providing her the largest volume of 
information about Libya.''
    Secretary Clinton, was Sidney Blumenthal your primary 
policy adviser or your primary intelligence officer?
    Mrs. Clinton. No, of course not.
    Ms. Sanchez. Was he the primary source of information that 
you were receiving on Libya?
    Mrs. Clinton. No, absolutely not.
    Ms. Sanchez. Can you tell us then who were you receiving 
information from and in what form? Because there has been a 
particular emphasis on email communication----
    Mrs. Clinton. Right.
    Ms. Sanchez [continuing]. And email communication only.
    Mrs. Clinton. Well, as I testified earlier, I did not 
primarily conduct business on email with officials in our 
government. And I think the emails that have been produced thus 
far demonstrate that as well.
    As I said, I got intelligence briefings from the 
intelligence community. I had a very experienced group of 
senior diplomats who knew quite a bit about Libya. Deputy 
Secretary Bill Burns had been our nation's top diplomat who 
actually had negotiated with Qadhafi. Prior to the entering in 
by the United States to support our European allies and Arab 
partners, I sent a team to meet with representatives of Qadhafi 
to see if there were some way that he would back down and back 
off of his increasingly hysterical threats against his own 
people. We had people like the Ambassador that I referenced 
earlier, who had served in Libya and had had the occasion to 
observe and to meet with Qadhafi.
    So we had a very large group of American diplomats, 
intelligence officers, and some private citizens who were 
experts in Libya who were available to our government, and we 
took advantage of every person we could with expertise to guide 
our decisionmaking.
    Ms. Sanchez. So would it be fair to say that you received 
information from Ambassador Stevens?
    Mrs. Clinton. Yes.
    Ms. Sanchez. The Assistant Secretary for Near Eastern 
Affairs?
    Mrs. Clinton. Yes.
    Ms. Sanchez. The Director of Policy Planning, Jacob 
Sullivan?
    Mrs. Clinton. Yes.
    Ms. Sanchez. The National Security Council?
    Mrs. Clinton. Yes.
    Ms. Sanchez. The intelligence community?
    Mrs. Clinton. Yes.
    Ms. Sanchez. The Defense Department?
    Mrs. Clinton. Yes.
    Ms. Sanchez. This weekend one of our colleagues on this 
panel, Mr. Pompeo, went on ``Meet the Press,'' and I wonder if 
we could cue up the video. He had this exchange. Can we please 
play the video clip?
    [Video shown.]
    Ms. Sanchez. That clip, for me, just defies all logic. And 
I think Andrea Mitchell correctly called him out on something 
that was a falsehood.
    Secretary Clinton, what did you think when you heard that 
clip?
    Mrs. Clinton. Well, that it was factually untrue. And I 
think your questioning and what I have stated today is a much 
clearer and more factual description of how we gathered 
information to make our decisions regarding Libya.
    Ms. Sanchez. With your answer that you believe it to be 
factually incorrect, I just want to add that The Washington 
Post fact checker immediately awarded that claim four 
Pinocchios, which is the worst rating possible, and I'm going 
to quote The Post on what they said about that quote.
    ``Looking at her private emails is just part of the picture 
and it ignores the vast amount of information, much of it 
classified, that is available to the Secretary of State.''
    Secretary Clinton, would you agree with that statement from 
The Washington Post?
    Mrs. Clinton. Yes, I would.
    Ms. Sanchez. Okay. So it seems to me, you know, there have 
been allegations that the work that this committee has done has 
been political in nature and that much of the facts have 
already been decided before all of the evidence is in, 
including your testimony here today. When I see clips like 
that, it sort of supports the theory that this panel is not 
really interested in investigating what happened just prior to 
the evening of and immediately in the aftermath of September 
11, 2012, but that, in fact, there is another motive behind 
that.
    We have you here, and so while you are here I want to make 
the most of your time and allow you to sort of debunk many of 
the myths that have been generated over the last 17 months, 
most of which have no factual basis for those being said.
    One is that you seemingly were disengaged the evening of 
September 11, 2012. For example, Mike Huckabee accused you, as 
Mr. Cummings said, of ``ignoring the warning calls from dying 
Americans in Benghazi.'' And Senator Rand Paul stated that 
``Benghazi was a 3 a.m. phone call that you never picked up.'' 
And Senator Lindsey Graham tweeted, ``Where the hell were you 
on the night of the Benghazi attack?''
    Those appear to be based on the testimony of witnesses and 
the documentation that we have obtained in this committee and 
other previous committees. They seem to run counter to the 
truth, because the testimony we have received states pretty 
much that you were deeply engaged the night of the attacks.
    So can you describe for us what the initial hours of that 
night were like for you and how you learned about the attacks 
and what your initial thoughts and actions were?
    Mrs. Clinton. Well, Congresswoman, I learned about attacks 
from a State Department official rushing into my office shortly 
after or around 4 o'clock to tell me that our compound in 
Benghazi had been attacked. We immediately summoned all of the 
top officials in the State Department for them to begin 
reaching out. The most important quick call was to try to reach 
Chris himself. That was not possible. Then to have the 
Diplomatic Security people try to reach their agents. That was 
not possible. They were, obviously, defending themselves along 
with the Ambassador and Sean Smith.
    We reached the second in command in Tripoli. He had heard 
shortly before we reached him from Chris Stevens telling him 
that they were under attack. We began to reach out to everyone 
we could possibly think who could help with this terrible 
incident. During the course of the, you know, following hours, 
obviously, I spoke to the White House. I spoke to CIA Director 
Petraeus. I spoke to the Libyan officials, because I hoped that 
there were some way that they could gather up and deploy those 
who had been part of the insurgency to defend our compound. I 
had conference calls with our team in Tripoli. I was on a, 
what's called a SVTC, a, you know, video conference with 
officials who had operational responsibilities in the Defense 
Department, in the CIA, at the National Security Council.
    It was just a swirl and whirl of constant effort to try to 
figure out what we could do, and it was deeply--it was deeply 
distressing when we heard that the efforts by our CIA 
colleagues were not successful, that they had had to evacuate 
the security officers, our Diplomatic Security officers, that 
they had recovered Sean Smith's body. And they could not find 
the Ambassador. We didn't know whether he had escaped and was 
still alive or not.
    Ms. Sanchez. If I may, because my time is running short, I 
just want to point out that you spoke with folks on the ground, 
you spoke with folks in the White House, the CIA, the Libyan 
President of the General National Congress.
    Now, interestingly enough, former Director of the CIA David 
Petraeus has not been before this committee and has not spoken 
with this committee, but he did testify before the House 
Intelligence Committee in 2012, and he said that you personally 
called him and asked him for help that night.
    And I just want to end on this quote. ``When Secretary 
Clinton called me later that afternoon to indicate that 
Ambassador Stevens was missing and asked for help, I directed 
our folks to ensure that we were doing everything possible. And 
that is, of course, what they were doing that night.'' Is that 
correct?
    Mrs. Clinton. That is. And also the Defense Department was 
doing everything it could possibly do. We had a plane bringing 
additional security from Tripoli to Benghazi. There was an 
enormous amount of activity. Everyone, it was all hands on 
deck, everyone jumped in to try to figure out what they could 
do. The attack on the compound was very fast.
    Ms. Sanchez. So would it be safe to say that you were fully 
engaged that evening?
    Mrs. Clinton. That is certainly safe to say, Congresswoman.
    Ms. Sanchez. Thank you. And I yield back.
    Chairman Gowdy. The gentlelady from California yields back.
    The chair will now recognize the gentleman from Ohio, Mr. 
Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    You just gave a long answer, Madam Secretary, to Ms. 
Sanchez about what you heard that night, what you were doing, 
but nowhere in there did you mention a video. You didn't 
mention a video because there was never a video-inspired 
protest in Benghazi. There was in Cairo, but not in Benghazi. 
Victoria Nuland, your spokesperson at the State Department, 
hours after the attack said this: ``Benghazi has been attacked 
by militants in Cairo. Police have removed demonstrators.''
    Benghazi, you got weapons and explosions. Cairo, you got 
spray paint and rocks. One hour before the attack in Benghazi, 
Chris Stevens walks a diplomat to the front gate. The 
Ambassador didn't report a demonstration. He didn't report it 
because it never happened. An eyewitness in the Command Center 
that night on the ground said no protests, no demonstration. 
Two intelligence reports that day: No protests, no 
demonstration.
    The attack starts at 3:42 eastern time, ends at 
approximately 11:40 p.m. that night. At 4:06, an ops alert goes 
out across the State Department. It says this: ``Mission under 
attack. Armed men. Shots fired. Explosions heard.'' No mention 
of a video, no mention of a protest, no mention of a 
demonstration.
    But the best evidence is Greg Hicks, the number two guy in 
Libya, the guy who worked side by side with Ambassador Stevens. 
He was asked, if there had been a protest, would the Ambassador 
have reported it? Mr. Hicks' response: ``Absolutely. For there 
to have been a demonstration on Chris Stevens' front door and 
him not to have reported it is unbelievable,'' Mr. Hicks said. 
He said, ``Secondly, if it had been reported, he would have 
been out the back door within minutes, and there was a back 
gate.''
    Everything points to a terrorist attack. We just heard from 
Mr. Pompeo about the long history of terrorist incidents, 
terrorist violence in the country. And yet, five days later, 
Susan Rice goes on five TV shows and she says this: ``Benghazi 
was a spontaneous reaction as a consequence of a video,'' a 
statement we all know is false.
    But don't take my word for it. Here is what others have 
said. ``Rice was off the reservation, off the reservation on 
five networks. White House worried about the politics.''
    Republicans didn't make those statements. They were made by 
the people who worked for you in the Near Eastern Affairs 
Bureau, the actual experts on Libya in the State Department.
    So if there is no evidence for a video-inspired protest, 
then where did the false narrative start? It started with you, 
Madam Secretary. At 10:08 on the night of the attack you 
released this statement: ``Some have sought to justify the 
vicious behavior as a response to inflammatory material posted 
on the Internet.''
    At 10:08, with no evidence, at 10:08, before the attack is 
over, at 10:08, when Tyrone Woods and Glen Doherty are still on 
the roof of the Annex fighting for their lives, the official 
statement of the State Department blames a video. Why?
    Mrs. Clinton. During the day on September 11, as you did 
mention, Congressman, there was a very large protest against 
our Embassy in Cairo. Protesters breached the walls. They tore 
down the American flag. And it was of grave concern to us 
because the inflammatory video had been shown on Egyptian 
television, which has a broader reach than just inside Egypt.
    And if you look at what I said, I referred to the video 
that night in a very specific way. I said, ``Some have sought 
to justify the attack because of the video.'' I used those 
words deliberately, not to ascribe a motive to every attacker, 
but as a warning to those across the region that there was no 
justification for further attacks.
    And, in fact, during the course of that week we had many 
attacks that were all about the video. We had people breaching 
the walls of our Embassies in Tunis and Khartoum. We had 
people, thankfully not Americans, dying at protests.
    Mr. Jordan. Secretary Clinton----
    Mrs. Clinton. But that's what was going on, Congressman.
    Mr. Jordan. Secretary Clinton, I appreciate most of the 
attacks were after the attack on the facility in Benghazi. You 
mentioned Cairo. It was interesting what else Ms. Nuland said 
that day. She said, ``If pressed by the press, if there is a 
connection between Cairo and Benghazi,'' she said this, ``There 
is no connection between the two.''
    So here is what troubles me. Your experts knew the truth. 
Your spokesperson knew the truth. Greg Hicks knew the truth. 
But what troubles me more is I think you knew the truth.
    I want to show you a few things here. You're looking at an 
email you sent to your family. Here is what you said at 11 
o'clock that night, approximately one hour after you told the 
American people of the video, you say to your family, ``Two 
officers were killed today in Benghazi by an Al Qaeda-like 
group.'' You tell the American people one thing, you tell your 
family an entirely different story.
    Also, on the night of the attack, you had a call with the 
President of Libya. Here is what you said to him: ``Ansar al-
Sharia is claiming responsibility.'' It's interesting, Mr. 
Khattala, one of the guys arrested and charged, actually 
belonged to that group.
    And finally, and most significantly, the next day, within 
24 hours, you had a conversation with the Egyptian Prime 
Minister. You told him this: ``We know the attack in Libya had 
nothing to do with the film. It was a planned attack, not a 
protest.''
    Let me read that one more time. ``We know,'' not we think, 
not it might be, ``We know the attack in Libya had nothing to 
do with the film. It was a planned attack, not a protest.'' 
State Department experts knew the truth. You knew the truth. 
But that's not what the American people got.
    And, again, the American people want to know why. Why 
didn't you tell the American people exactly what you told the 
Egyptian Prime Minister?
    Mrs. Clinton. Well, I think if you look at the statement 
that I made, I clearly said that it was an attack. And I also 
said that there were some who tried to justify it on the 
basis----
    Mr. Jordan. Secretary Clinton----
    Mrs. Clinton [continuing]. On the basis of the video, 
Congressman. And I think----
    Mr. Jordan. But real quick. Calling it an attack is like 
calling the sky is blue. Of course, it was an attack.
    Mrs. Clinton. Well, it hardly----
    Mr. Jordan. We want to know the truth. The statement you 
sent out was a statement on Benghazi, and you say, ``vicious 
behavior as a response to inflammatory material on the 
Internet.'' If that's not pointing as a motive being a video, I 
don't know what is. And that's certainly how the American 
people thought.
    Mrs. Clinton. Well, Congressman, there was a lot of 
conflicting information that we were trying to make sense of. 
The situation was very fluid. It was fast moving.
    There was also a claim of responsibility by Ansar al-
Sharia. And when I talked to the Egyptian Prime Minister, I 
said that this was a claim of responsibility by Ansar al-
Sharia, by a group that was affiliated or at least wanted to be 
affiliated with Al Qaeda.
    Sometime after that, the next day, early the next morning 
after that, on the 12th or 13th, they retracted their claim of 
responsibility.
    Mr. Jordan. Madam Secretary----
    Mrs. Clinton. And I think if you look at what all of us 
were trying to do, and we were in a position, Congressman, of 
trying to make sense of a lot of incoming information and 
watched the way the intelligence community tried to make sense 
of it.
    Mr. Jordan. Madam Secretary, there was not conflicting----
    Mrs. Clinton. So all I can say is, nobody----
    Mr. Jordan [continuing]. There was not conflicting 
information the day of the attack, because your press secretary 
said, ``If pressed, there is no connection between Cairo and 
Benghazi.'' It was clear. You're the ones who muddied it up, 
not the information.
    Mrs. Clinton. Well, there's no connection----
    Mr. Jordan. Here's what I think--here's what I think's 
going on. Here's what I think's going on. Let me show you one 
more slide. Again, this is from Victoria Nuland, your press 
person. She says to Jake Sullivan and Philippe Reines, subject 
line reads this: ``Romney statement on Libya. Email says this 
is what Ben was talking about.'' I assume Ben is the now 
somewhat famous Ben Rhodes, author of the talking points memo. 
This email is at 10:35, 27 minutes after your 10:08 statement, 
27 minutes after you've told everyone it's a video. While 
Americans are still fighting because the attack's still going 
on, your top people are talking politics.
    Seems to me that night you had three options, Secretary. 
You could tell the truth like you did with your family, like 
you did with the Libyan President, like you did with the 
Egyptian Prime Minister, tell them it was a terrorist attack. 
You could say, ``You know what? We're not quite sure. Don't 
really know for sure.'' I don't think the evidence is there. I 
think it's all in the first one. But you could have done that.
    But you picked a third option. You picked the video 
narrative. You picked the one with no evidence. And you did it 
because Libya was supposed to be, as Mr. Roskam pointed out, 
this great success story for the Obama White House and the 
Clinton State Department. And a key campaign theme that year 
was GM's alive, bin Laden's dead, Al Qaeda's on the run. And 
now you have a terrorist attack, and it's a terrorist attack in 
Libya, and it's just 56 days before an election.
    You can live with the protest about a video. That won't 
hurt you. But a terrorist attack will. So you can't be square 
with the American people. You can tell your family it's a 
terrorist attack, but not the American people. You can tell the 
President of Libya it's a terrorist attack, but not the 
American people. And you can tell the Egyptian Prime Minister 
it's a terrorist attack, but you can't tell your own people the 
truth.
    Madam Secretary, Americans can live with the fact that good 
people sometimes give their lives for this country. They don't 
like it. They mourn for those families. They pray for those 
families. But they can live with it. But what they can't take, 
what they can't live with is when their government is not 
square with them.
    Mr. Chairman, I yield back.
    Chairman Gowdy. Madam Secretary, you're welcome to answer 
the question if you would like to.
    Mrs. Clinton. Well, I wrote a whole chapter about this in 
my book ``Hard Choices.'' I'd be glad to send it to you, 
Congressman, because I think the insinuations that you are 
making do a grave disservice to the hard work that people in 
the State Department, the intelligence community, the Defense 
Department, the White House did during the course of some very 
confusing and difficult days.
    There is no doubt in my mind that we did the best we could 
with the information that we had at the time. And if you'd 
actually go back and read what I said that night----
    Mr. Jordan. I have.
    Mrs. Clinton [continuing]. I was very careful in saying 
that some have sought to justify--in fact, the man that has 
been arrested as one of the ring leaders of what happened in 
Benghazi, Ahmed Abu Khattala, is reported to have said it was 
the video that motivated him.
    None of us can speak to the individual motivations of those 
terrorists who overran our compound and who attacked our CIA 
Annex. There were probably a number of different motivations. I 
think the intelligence community, which took the lead on trying 
to sort this out, as they should have, went through a series of 
interpretations and analysis. And we were all guided by that. 
We were not making up the intelligence. We were trying to get 
it, make sense of it, and then to share it.
    When I was speaking to the Egyptian Prime Minister, or in 
the other two examples you showed, we had been told by Ansar 
al-Sharia that they took credit for it. It wasn't until about 
24 more hours later that they retracted taking credit for it.
    Mr. Jordan. Secretary Clinton----
    Mrs. Clinton. We also knew, Congressman, because my 
responsibility was for what was happening throughout the 
region. I needed to be talking about the video because I needed 
to be putting other governments and other people on notice that 
we were not going to let them get away with attacking us as 
they did in Tunis, as they did in Khartoum. And in Tunis, there 
were thousands of demonstrators who were there only because of 
the video, breaching the walls of our Embassy, burning down the 
American school. I was calling everybody in the Tunisian 
Government I could get, and finally President Marzouki sent his 
presidential guard to break it up.
    There was example after example. That's what I was trying 
to do during those very desperate and difficult hours.
    Mr. Jordan. Secretary Clinton--if I could, Mr. Chairman--
Secretary Clinton, you said my insinuation. I'm not insinuating 
anything. I'm reading what you said, plain language. ``We know 
the attack in Libya had nothing to do with the film.'' That's 
as plain as it can get. That's vastly different than ``vicious 
behavior justified by Internet material.'' Why didn't you just 
speak plain to the American people?
    Mrs. Clinton. I did. If you look at my statement as opposed 
to what I was saying to the Egyptian Prime Minister, I did 
state clearly and I said it again in more detail the next 
morning, as did the President.
    I'm sorry that it doesn't fit your narrative, Congressman. 
I can only tell you what the facts were. And the facts, as the 
Democratic members have pointed out in their most recent 
collection of them, support this process that was going on 
where the intelligence community was pulling together 
information.
    And it's very much harder to do it these days than it used 
to be because you have to monitor social media, for goodness 
sakes. That's where the Ansar al-Sharia claim was placed.
    I think the intelligence community did the best job they 
could, and we all did our best job to try to figure out what 
was going on and then to convey that to the American people.
    Chairman Gowdy. The gentleman's time has expired.
    The chair will now recognize the gentleman from California, 
Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Madam Secretary, we are almost at the end of the first 
round of questions. I'll have an opportunity, then I think the 
chairman will before we have a break just to let you know where 
we are in the scheme of things.
    So I want to take a moment to think about what we've 
covered in this first round, in particular a comment on where 
this began with the chairman's statement. The chairman said at 
the outset of the hearing that the American people were 
entitled to the truth--the truth about what happened in 
Benghazi, the truth about the security there, the truth about 
what happened after the attack.
    The implication of this, of course, is that the American 
people don't know the truth, that this is the first 
investigation we've ever had. The reality is, we've had eight 
investigations. We've gone through this endlessly.
    And if you just look at the documentary record, we have the 
ARB report. We have the report of the Armed Services Committee 
led by Republican Buck McKeon, which debunked the stand-down 
order allegation. We have the report of the Committee on 
Government Reform. We have the report of the Senate Homeland 
Security Committee. We have the report of the House Foreign 
Affairs Committee. We have the GOP Conference's own report. We 
have the report of the Intelligence Committee, on which I 
serve.
    Now, bear in mind, these aren't with their accompanying 
exhibits or the classified stuff, because it would be up 
through the ceiling if I included them.
    This is the report of our committee. This is what $4.7 
million dollars of taxpayer money buy you. This is what 17 
months of investigation have shown.
    Now, the chairman said, and he is a very good lawyer, and a 
good former prosecutor, we have a lot of former prosecutors 
here on the panel, he gave you a great recitation of the number 
of witnesses and the number of documents. There are too many 
good prosecutors on this panel not to know that when a lawyer 
describes the metrics of the success of an investigation by the 
sheer number of people they have talked to, or the volume of 
documents, but says nothing about the substance of what they 
have learned, that there is a problem.
    And the reality is that after 17 months we have nothing new 
to tell the families. We have nothing new to tell the American 
people. We have discovered nothing that alters the core 
conclusions of the eight investigations that went on before.
    Now, my colleagues have been saying quite often this week 
with amazing regularity that this is a fact-centric 
investigation, and I agree. So I'd like to talk about some of 
the facts which are centric to this investigation, because 
while the American people are entitled to the truth about 
Benghazi, they are also entitled to the truth about our 
committee.
    Fact: What gave rise to your appearance here today was many 
months ago a group called the Stop Hillary PAC, which aired an 
offensive ad during the Democratic debate showing the tombstone 
of Ambassador Stevens, among other things, delivered 264,000 
signatures demanding that you appear before us.
    Fact: It was the next day the majority approached us to 
have you come before this committee.
    Fact: After The New York Times issued its story in March, 
this committee canceled all other hearings except for the 
hearing with a witness named Clinton.
    Fact: We abandoned our plans to bring in the Secretary of 
Defense and the head of the CIA.
    Fact: We haven't had a single hearing from the Department 
of Defense, with the Department of Defense in 17 months.
    Fact: Of the 70,000 pages of documents obtained by the 
Select Committee, the only documents the chairman has chosen to 
release publicly are your emails with Sidney Blumenthal.
    Fact: Of the 32 press releases that have been issued since 
March of this year, 27 of them are about you or the State 
Department and five are about everything else.
    Fact: As recently as last week, the chairman issued a 13-
page letter which alleges that you risked the lives of people 
by sending an email that contained the name of a classified CIA 
source.
    Fact: The CIA told us there was nothing in that email that 
was classified, nor was the name of that person, who is well 
known to many.
    The chairman has said that this will be the final, 
definitive report. One thing I think we can tell already: There 
will be nothing final about this report. Whenever we finish, if 
ever we finish, the problem we have had as a committee is we 
don't know what we are looking for. But there won't be a final 
conclusion, there won't be anything definitive about the work 
of this committee, because unlike the Accountability Review 
Board that operated in a nonpartisan way, it's unlikely the 
majority here will even consult with us on what their final 
report looks like.
    Those who want to believe the worst will believe the worst. 
Those that want to believe that this is a partisan exercise 
will believe it. As I said from the very beginning of this 
investigation, the only way this committee will add any value 
to what's gone on before is if we can find a way to work 
together and reach a common conclusion.
    But it is plain that is not their object. The chairman 
might say ignore the words of our Republican leadership and 
ignore the words of our Republican Members, ignore the words of 
our own GOP investigator, judge us by our actions. But it is 
the actions of this committee that are the most damning of all 
because they have been singularly focused on you.
    Let me ask you briefly, because I want to expand on just 
the--what I think is really the core theory here. I want to 
give you a chance to respond to it.
    You know, as a prosecutor, we are taught that every case 
should have a core theory and all the evidence and the 
witnesses go back to that core theory. And I have wrestled as I 
have listened to my colleagues today, as I have over the 17 
months, what is the core theory of their case? What are they 
trying to convey? And I have to say it is confusing.
    I think the core theory is this: That you deliberately 
interfered with security in Benghazi and that resulted in 
people dying. I think that is the case they want to make. And 
notwithstanding how many investigations we have had that have 
found absolutely no merit to that, that is the impression they 
wish to give.
    Well, I have to say, I'm a little confused today because my 
colleague pointed to an email suggesting that you weren't aware 
that we had a presence in Benghazi. So if you weren't aware we 
had a presence, I don't know how you could have interfered with 
the security there. But, nonetheless, I do think that's what 
they're aiming at.
    I know the Ambassador was someone you helped pick. I know 
the Ambassador was a friend of yours. And I wonder if you would 
like to comment on what it is like to be the subject of an 
allegation that you deliberately interfered with security that 
cost the life of a friend.
    Mrs. Clinton. Well, Congressman, it's a very personally 
painful accusation. It has been rejected and disproven by 
nonpartisan, dispassionate investigators. But, nevertheless, 
having it continued to be bandied around is deeply distressing 
to me.
    You know, I would imagine I've thought more about what 
happened than all of you put together. I've lost more sleep 
than all of you put together. I have been racking my brain 
about what more could have been done or should have been done.
    And so when I took responsibility, I took it as a challenge 
and an obligation to make sure before I left the State 
Department that what we could learn, as I'm sure my 
predecessors did after Beirut and after Nairobi and Dar es 
Salaam and after all of the other attacks on our facilities, 
I'm sure all of them, Republican and Democrat alike, especially 
where there was loss of American life, said, Okay, what must we 
do better? How do we protect the men and women that we send 
without weapons, without support from the military into some of 
the most dangerous places in the world?
    And so I will continue to speak out and do everything I can 
from whatever position I'm in to honor the memory of those we 
lost and to work as hard as I know to try to create more 
understanding and cooperation between the State Department, our 
diplomats, our development professionals from USAID, and the 
Congress so that the Congress is a partner with us, as was the 
case in previous times. I would like us to get back to those 
times, Congressman, whereas I think one of you said, Beirut, we 
lost far more Americans not once but twice within a year. There 
was no partisan effort. People rose above politics. A 
Democratic Congress worked with a Republican administration to 
say, What do we need to learn? Out of that came the legislation 
for the Accountability Review Board.
    Similarly, after we lost more Americans in the bombings in 
East Africa, again, Republicans and Democrats worked together, 
said, What do we need to do better?
    So I'm--I'm an optimist, Congressman, I'm hoping that that 
will be the outcome of this and every other effort so that we 
really do honor not only those we lost, but all of those who 
right as we speak are serving in dangerous places representing 
the values and the interests of the American people.
    Mr. Schiff. Thank you, Madam Secretary.
    Chairman Gowdy. The gentleman from California yields back.
    I'm going to address a couple of things that he said and 
then recognize myself. Because he invoked the family members of 
the four, Madam Secretary, and partially this will be for your 
benefit also, but I want to specifically address the family 
members that are here.
    There is no theory of the prosecution, Mr. Schiff, because 
there is no prosecution. There is a very big difference between 
a prosecution where you already have reached a conclusion and 
you're just trying to prove it to people.
    This is an investigation, which is why it's so sad that 
nowhere in that stack that you just put up there were the 
emails of Secretary Clinton, the emails of the Ambassador, 
50,000--50,000 pages worth of documents, eyewitnesses. That's 
the real tragedy.
    To the family and the friends, when you're told that there 
have been seven previous investigations and an ARB, you should 
immediately ask, Why did you miss so many witnesses? Why did 
you miss so many documents?
    This is not a prosecution, Mr. Schiff. You and I are both 
familiar with them. I've reached no conclusions, and I would 
advise you to not reach any conclusions either until we reach 
the end. There are 20 more witnesses. So I'll agree not to 
reach any conclusions if you'll do the same.
    With that, Madam Secretary, regardless of where he ranked 
in the order of advisers, it is undisputed that a significant 
number of your emails were to or from a Sidney Blumenthal. Now, 
he did not work for the State Department. He didn't work for 
the U.S. Government at all. He wanted to work for the State 
Department, but the White House said no to him.
    Do you recall who specifically at the White House rejected 
Sidney Blumenthal?
    Mrs. Clinton. No, I do not.
    Chairman Gowdy. After he was turned down for a job at the 
State Department by the White House, he went to work where?
    Mrs. Clinton. I think he had a number of consulting 
contracts with different entities.
    Chairman Gowdy. Well, if he had a number of them, do you 
recall any of them?
    Mrs. Clinton. I know that he did some work for my husband.
    Chairman Gowdy. Well, he worked for the Clinton Foundation.
    Mrs. Clinton. That's correct.
    Chairman Gowdy. He worked for Media Matters.
    Mrs. Clinton. I'm sure he did.
    Chairman Gowdy. He worked for Correct the Record.
    Mrs. Clinton. I'm sure he did.
    Chairman Gowdy. When you were asked about Sidney 
Blumenthal, you said he was an old friend----
    Mrs. Clinton. Uh-huh.
    Chairman Gowdy [continuing]. Who sent you unsolicited 
emails, which you passed on in some instances because you 
wanted to hear from people outside what you called ``the 
bubble.''
    We will ignore for a second whether or not Sidney 
Blumenthal is outside the bubble, but I do want to ask you 
about a couple of those other comments. Because what you left 
out was that he was an old friend who knew absolutely nothing 
about Libya, was critical of President Obama and others that 
you worked with, loved to send you political and image advice, 
had business interests in Libya, which he not only alerted you 
to but solicited your help for. And you often forwarded his 
emails but usually only after you redacted out any identifiers 
so nobody knew where the information was coming from.
    What does the word ``unsolicited'' mean to you?
    Mrs. Clinton. It means that I did not ask him to send me 
the information that he sent me. And as I have previously 
stated, some of it I found interesting, some of it I did not. 
Some of it I forwarded, some of it I did not.
    I did not know anything about any business interests. I 
thought that, just as I said previously, newspaper articles, 
journalists, of which he is one, a former journalist, had some 
interesting insights. And so, you know, we took them on board 
and evaluated them, and some were helpful and others were not.
    Chairman Gowdy. We are going to get to all the points you 
just made, but I want to start with your public comment that 
these emails were unsolicited.
    You wrote to him, ``Another keeper. Thanks. And please keep 
them coming.''
    ``Greetings from Kabul, and thanks for keeping this stuff 
coming.''
    ``Any other info about it?''
    ``What are you hearing now?''
    ``Got it. We'll follow up tomorrow.''
    ``Anything else to convey?'' Now, that one is interesting, 
because that was the very email where Mr. Blumenthal was asking 
you to intervene on behalf of a business deal that he was 
pursuing in Libya.
    What did you mean by ``What are you hearing now?''
    Mrs. Clinton. I have no idea, Congressman. They started out 
unsolicited. And, as I said, some were of interest; I passed 
them on. And some were not.
    Chairman Gowdy. Well----
    Mrs. Clinton. And so he continued to provide me information 
that was made available to him.
    Chairman Gowdy. I don't want to parse words, and I don't 
want to be hyper-technical, because it is not a huge point, but 
it is an important point. You didn't say they started off 
unsolicited.
    Mrs. Clinton. Well, they did----
    Chairman Gowdy. You said they were--you said they were 
unsolicited.
    Mrs. Clinton. Well, they were unsolicited. But, obviously, 
I did respond to some of them.
    Chairman Gowdy. Well----
    Mrs. Clinton. And I'm sure that encouraged him.
    Chairman Gowdy. ``Anything else to convey?''
    ``What are you hearing now?''
    ``I'm going to Paris tomorrow night and will meet with TNC 
leaders, so this and additional info useful.''
    ``Still don't have electricity or BlackBerry coverage post-
Irene, so I've had to resort to my new iPad. Let me know if you 
receive this.'' We'll talk about the new iPad in a little bit.
    Here's another one: ``This report is, in part, a response 
to your questions.'' That's an email from him to you. ``This 
report is, in part, a response to your questions. There will be 
further information in the next day.''
    If you are the one asking him for information, how does 
that square with the definition of ``unsolicited''?
    Mrs. Clinton. I said it began that way, Mr. Chairman.
    And I will add that both Chris Stevens and Gene Cretz found 
some of the information interesting, far more than I could 
because they knew some of the characters who were being 
mentioned. And they were the ones, the kind of persons with the 
expertise that I asked to evaluate to see whether there was any 
useful information.
    Chairman Gowdy. We are going to get to that in a second.
    Now, before you give Mr. Blumenthal too much credit, you 
agree, he didn't write a single one of those cables or memos he 
sent you?
    Mrs. Clinton. I'm sorry, what?
    Chairman Gowdy. He didn't write a single one of those 
cables or memos.
    Mrs. Clinton. I don't know who wrote them. He's the one who 
sent them to me.
    Chairman Gowdy. Would you be surprised to know not a single 
one of those was from him?
    Mrs. Clinton. I don't know where he got the information 
that he was sending----
    Chairman Gowdy. Did you ask?
    Mrs. Clinton [continuing]. To me. What?
    Chairman Gowdy. Did you ask? ``You're sending me very 
specific, detailed intelligence. What is your source?'' That 
seems to me like a pretty good question.
    Mrs. Clinton. Well, I did learn later that he was talking 
to or sharing information from former American intelligence 
officials.
    Chairman Gowdy. By the name of?
    Who wrote those cables?
    Mrs. Clinton. I don't recall. I don't know, Mr. Chairman.
    Chairman Gowdy. You had his information passed on to 
others, but at least on one occasion you ask Ms. Abedin, ``Can 
you print without any identifiers?'' Why would you want his 
name removed?
    Mrs. Clinton. Because I thought it would be more important 
to just look at the substance and to make a determination as to 
whether or not there was anything to it.
    Chairman Gowdy. Well, don't people have a right to know the 
source of the information so they can determine credibility?
    Mrs. Clinton. But he wasn't, as you just said, the source 
of the information. That was----
    Chairman Gowdy. But you didn't know that, Madam Secretary, 
and that's what you just said.
    Mrs. Clinton. No. No, Mr. Chairman. I said that I knew that 
he didn't have the sources to provide that information. I knew 
he was getting it from somewhere else, whether they--he knew a 
lot of journalists. He knew others in Washington. It could've 
been a variety of people.
    Chairman Gowdy. Well, if you are going to determine 
credibility, don't you want to know the source?
    Mrs. Clinton. Well, it wasn't credibility so much as trying 
to follow the threads that were mentioned about individuals. 
And as I've already stated, some of it was useful, and some of 
it was not.
    Chairman Gowdy. Well, did the President know that Mr. 
Blumenthal was advising you?
    Mrs. Clinton. He wasn't advising me. And, you know, Mr. 
Chairman----
    Chairman Gowdy. Did he know that he was your most prolific 
emailer that we have found on the subjects of Libya and 
Benghazi?
    Mrs. Clinton. That's because I didn't do most of my work 
about Libya----
    Chairman Gowdy. That's fair.
    Mrs. Clinton [continuing]. On email.
    Chairman Gowdy. I am not challenging that, Madam Secretary. 
I am not challenging that. All I am telling you is the 
documents show he was your most prolific emailer on Libya and 
Benghazi.
    And my question to you is, did the President, the same 
White House that said you can't handle him--can't hire him, did 
he know that he was advising you?
    Mrs. Clinton. He was not advising me. And I have no reason 
to have ever mentioned that or know that the President knew 
that.
    Chairman Gowdy. All right.
    I want to draw your attention to an email about Libya from 
Mr. Blumenthal to you, dated April 2011, and it will be exhibit 
67. And this is informative. ``Should we pass on''--and then in 
parentheticals--``(unidentified) to the White House?''


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    If you were going to pass something on to the White House, 
why would you take off the identifiers?
    Mrs. Clinton. Because it was important to evaluate the 
information. And from a lot of the intelligence that I have 
certainly reviewed over the years, you often don't have the 
source of the intelligence. You look at the intelligence, and 
you try to determine whether or not it is credible, whether it 
can be followed up on.
    Chairman Gowdy. Well, I am going to accept the fact that 
you and I come from different backgrounds, because I can tell 
you that an unsourced comment could never be uttered in any 
courtroom. You have to ask----
    Mrs. Clinton. Well, we're not talking about courtrooms, Mr. 
Chairman. We're talking about intelligence, and----
    Chairman Gowdy. No, we're talking about credibility----
    Mrs. Clinton. Well----
    Chairman Gowdy [continuing]. And the ability to assess who 
a source is and whether or not that source has ever been to 
Libya, knows anything about Libya, or has business interests in 
Libya, all of which would be important if you were going to 
determine the credibility, which I think is why you probably 
took his information off of what you sent to the White House.
    But here is another possible explanation that may give us a 
sense of why, maybe, the White House didn't want you to hire 
him in the first place.
    In one email, he wrote this about the President's Secretary 
of Defense: ``I infer Gates' problem is losing an internal 
debate. Tyler''--and, by the way, ``Tyler'' is Tyler 
Drumheller, that is who actually authored the cables that you 
got from Mr. Blumenthal. ``Tyler knows him well and says he's a 
mean, vicious, little''--I am not going to say the word, but he 
did. This is an email from Blumenthal to you about the 
President's Secretary of Defense.
    And here is another one about the President's National 
Security Advisor: ``Frankly, Tom Donilon's babbling rhetoric 
about narratives on the phone briefing of reporters on March 
the 10th has inspired derision among serious foreign policy 
analysts both here and abroad.''
    And here is another one from what you say is your old 
friend Sidney Blumenthal. This is a quote from him: ``I would 
say Obama''--and, by the way, he left the ``President'' part 
out. ``I would say Obama appears to be intent on seizing defeat 
from the jaws of victory. He and his political cronies in the 
White House and Chicago are, to say the least, unenthusiastic 
about regime change in Libya. Obama's lukewarm and self-
contradicting statements have produced what is, at least for 
the moment, operational paralysis.''
    I think that may give us a better understanding of why the 
White House may have told you you cannot hire him.
    Blumenthal could not get hired by our government, didn't 
pass any background check at all, had no role with our 
government, had never been to Libya, had no expertise in Libya, 
was critical of the President and others that you worked with, 
shared polling data with you on the intervention in Libya, gave 
you political advice on how to take credit for Libya, all the 
while working for the Clinton Foundation and some pseudo news 
entities.
    And, Madam Secretary, he had unfettered access to you. And 
he used that access, at least on one occasion, to ask you to 
intervene on behalf of a business venture. Do you recall that?
    Mrs. Clinton. You know, Mr. Chairman, if you don't have any 
friends who say unkind things privately, I congratulate you. 
But, from my perspective, I don't----
    Chairman Gowdy. I would like to think I would correct them.
    Mrs. Clinton. I don't know what this line of questioning 
does to help us get to the bottom of the deaths of four 
Americans----
    Chairman Gowdy. I will be happy to----
    Mrs. Clinton [continuing]. And help us do better. But----
    Chairman Gowdy. I will be happy to help you understand 
that, Madam Secretary.
    Mrs. Clinton. But I want to reiterate what I said to 
Congresswoman Sanchez. These were originally unsolicited. You 
have just said that perhaps the main, if not the exclusive, 
author was a former intelligence agent for our country who rose 
to the highest levels of the CIA and who was given credit for 
being one of the very few who pointed out that the intelligence 
used by the Bush administration to go to war in Iraq was wrong.
    So I think that, you know, the sharing of information from 
an old friend that I did not take at face value, that I sent on 
to those who were experts is something that, you know, makes 
sense. But it was certainly not in any way the primary source 
of or the predominant understanding that we had of what was 
going on in Libya and what we needed to be doing.
    Chairman Gowdy. Well, Madam Secretary, I am out of time, 
and we will pick this back up the next round. But I will go 
ahead and let you know ahead of time why it is relevant. It is 
relevant because our Ambassador was asked to read and respond 
to Sidney Blumenthal's drivel. It was sent to him to read and 
react to, in some instances on the very same day he was asking 
for security.
    So I think it is eminently fair to ask why Sidney 
Blumenthal had unfettered access to you, Madam Secretary, with 
whatever he wanted to talk about, and there is not a single, 
solitary email to or from you, to or from Ambassador Stevens. I 
think that is fair, and we will take that up after the break.
    Mr. Cummings. Would the gentleman yield? Would the 
gentleman yield?
    Chairman Gowdy. Sure.
    Mr. Cummings. Thank you.
    Mr. Chairman, you have made several inaccurate statements 
over the past month as you have tried to defend against 
multiple Republican admissions that the select committee has 
been wasting millions of tax dollars to damage Secretary 
Clinton's bid for President.
    On Sunday, you made another inaccurate statement during 
your appearance on ``Face the Nation,'' and it is being taken 
up here, and this is the relevance. Here is what you said, 
``There are other folks who may have equities in her emails, 
and there may be other entities who are evaluating her emails. 
But my interest in them is solely making sure that I get 
everything I'm entitled to so that I can do my job. The rest of 
it--classification, Clinton Foundation, you name it--I have 
zero interest in, which is why you haven't seen me send a 
subpoena related to it or interview a single person other than 
Bryan Pagliano, because I need to know that the record is 
complete.''
    And I am going back to the truth, the whole truth, and 
nothing but the truth.
    Chairman Gowdy. I am waiting----
    Mr. Cummings. Mr. Chairman, let me finish.
    Chairman Gowdy. I am waiting on you. I have been very 
patient.
    Mr. Cummings. I am coming. Just wait.
    Chairman Gowdy. I am waiting on the inaccurate statement.
    Mr. Cummings. All right. I am getting there. I am getting 
there.
    Mr. Chairman----
    Chairman Gowdy. Well, we have to take a break.
    Mr. Cummings. Well, it is not going to take long. You took 
up four minutes over, so let me have three.
    Chairman Gowdy. I have let everybody go over, including 
you, Mr. Cummings.
    Mr. Cummings. Thank you very much.
    You issued a subpoena to Sidney Blumenthal on May 19, 2015, 
compelling him to appear for a deposition on June 16, 2015. You 
issued this subpoena unilaterally without giving the select 
committee members the opportunity to debate or vote on it. You 
sent two armed marshals to serve the subpoena on Mr. 
Blumenthal's wife and their home without having ever sent him a 
request to participate voluntarily, which he would have done.
    Then, Mr. Chairman, you personally attended Mr. 
Blumenthal's deposition, you personally asked him about the 
Clinton Foundation, and you personally directed your staff to 
ask questions about Clinton, the Clinton Foundation, which they 
did more than 50 times.
    Now, these facts directly contradict the statements you 
made on national television----
    Chairman Gowdy. No, sir. With all due respect, they do not.
    We just heard email after email after email about Libya and 
Benghazi that Sidney Blumenthal sent to the Secretary of State. 
I don't care if he sent it by Morse code, carrier pigeon, smoke 
signals. The fact that he happened to send it by email is 
irrelevant. What is relevant is that he was sending information 
to the Secretary of State. That is what is relevant.
    Now, with respect to the subpoena, if he had bothered to 
answer the telephone calls of our committee, he wouldn't have 
needed a subpoena.
    Mr. Cummings. Well, would the gentleman yield?
    Chairman Gowdy. I will be happy to, but you need to make 
sure the entire record is correct, Mr. Cummings.
    Mr. Cummings. Yes, and that is exactly what I want to do.
    Chairman Gowdy. Well, then go ahead.
    Mr. Cummings. I move that we put into the record the entire 
transcript of Sidney Blumenthal. If we are going to release the 
emails, let's do the transcript. That way, the world can see 
it.
    Mr. Schiff. I second that motion.
    Chairman Gowdy. Well, we didn't----
    Mr. Cummings. The motion has been seconded.
    Chairman Gowdy. Well, we are not going to take that up at a 
hearing. We will take that up----
    Mr. Cummings. Mr. Chairman, I have consulted with the 
parliamentarians, and they have informed us that we have a 
right to a recorded vote on that motion.
    You know, you asked for----
    Chairman Gowdy. Well, I will tell you what. Let's do this.
    Mr. Cummings [continuing]. The truth, the whole truth, and 
nothing but the truth? Well, that is what we want to have. Let 
the world see it.
    Chairman Gowdy. Why is it that you only want Mr. 
Blumenthal's transcript released? Why don't you want the 
survivors'----
    Mr. Cummings. I would like to have all of them released.
    Chairman Gowdy. The survivors? Even their names? Do you 
want that?
    Mr. Cummings. Let me tell you something.
    Chairman Gowdy. Do you want that released?
    Mr. Cummings. No, but let me tell you something. Right 
now----
    Chairman Gowdy. The only one you have asked for is Sidney 
Blumenthal. That is the only one you have asked for. That and 
Ms. Mills.
    Ms. Sanchez. Cheryl Mills.
    Mr. Cummings. That is not true.
    Chairman Gowdy. That is two out of 54.
    Ms. Sanchez. Mr. Chairman, I ask for a recorded vote.
    Chairman Gowdy. Now, if you want to ask for some fact 
witnesses----
    Mr. Cummings. I ask for a recorded vote on the Blumenthal--
you said from the beginning, ``We want the truth, the whole 
truth, and nothing but the truth.'' Why don't we just put that 
entire transcript out there and let the world see it? What do 
you have to hide?
    Mr. Schiff. These are the only emails that you have 
released. In fairness to Mr. Blumenthal and to the American 
people, in the interest of a complete record, if you are going 
to release his emails, release his transcript where he has a 
chance to give the context of those emails.
    Chairman Gowdy. Well, you keep referring to the Blumenthal 
emails. I would hasten to remind both of you the only reason we 
have Blumenthal emails is because he emailed the Secretary of 
State. Those are her emails. That is why they were released. 
They are not Blumenthal's emails.
    And she wanted all of her emails released. She has been 
saying since March, ``I want the entire world to see my 
emails.'' Well, Sidney Blumenthal's emails are a part of that.
    So here is what I will do. I will be happy to talk to the 
parliamentarian, because the parliamentarian told me that your 
motion actually would not be in order for a hearing.
    But at the latest--we will take a vote. And the first week 
we are back, after this week, we will have a business meeting. 
We can take up Mr. Blumenthal's transcript, we can take up 
whatever other transcripts you want. And while we are there, we 
can also take up the 20-some-odd outstanding discovery requests 
that we have to different executive branch entities. Why don't 
we just take all of it up then?
    Mr. Schiff. Mr. Chairman, the allegations that have been 
made against him are refuted by his own testimony. In the 
interest of not having----
    Chairman Gowdy. That is your opinion, Adam.
    Mr. Schiff. Well, if you disagree, then release the 
transcripts. Why----
    Chairman Gowdy. What allegation, Adam?
    Mr. Schiff. Why conceal the transcripts? Even if the motion 
were not in order, you have the power to release them. You have 
the power to----
    Chairman Gowdy. I will tell you why. Because I am not going 
to release one transcript of someone who knows nothing about 
Libya, by his own admission, while people who risk their 
lives--you have no interest in their story getting out. You 
don't want the 18 DS agents. You don't want the CIA agents. The 
only transcripts you want released are Ms. Mills and Sidney 
Blumenthal.
    Mr. Schiff. Mr. Chairman, the only----
    Chairman Gowdy. So we will take all of this up in November.
    Mr. Schiff. The only person you were interested in asking 
about during your entire questioning was Sidney Blumenthal. If 
you are so interested in him, release the transcript. You 
selectively released his emails. They are the only witness you 
have done that for.
    So you are asking why are we only asking for his 
transcript? It is because----
    Chairman Gowdy. I am going to ask the gentleman from 
California----
    Mr. Schiff [continuing]. You released his emails.
    Chairman Gowdy [continuing]. To please do a better job of 
characterizing. These are not Sidney Blumenthal's emails. These 
are Secretary Clinton's emails.
    And I will tell you what. If you think you have heard about 
Sidney Blumenthal so far, wait till the next round.
    With that, we are adjourned.
    [Recess.]
    Chairman Gowdy. The committee will come back to order.
    Madam Secretary, with your indulgence, we will take up one 
little housekeeping matter.
    The question is on the motion of the gentleman to include 
the document in the record. The chair opposes the motion.
    Those in favor of the motion may signify so by saying aye.
    Those opposed, by no.
    Mr. Cummings. Roll call, Mr. Chairman.
    Ms. Sanchez. Mr. Chairman, I ask for a recorded vote.
    Chairman Gowdy. A recorded vote has been requested. The 
chairman's vote--what?
    Yeah, I am sorry. The secretary will call the roll.
    The Clerk. Mr. Westmoreland?
    Mr. Westmoreland. No.
    The Clerk. Mr. Westmoreland votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    The Clerk. Mr. Jordan votes no.
    Mr. Roskam?
    Mr. Roskam. No.
    The Clerk. Mr. Roskam votes no.
    Mr. Pompeo?
    Mr. Pompeo. No.
    The Clerk. Mr. Pompeo votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    The Clerk. Mrs. Roby votes no.
    Mrs. Brooks?
    Mrs. Brooks. No.
    The Clerk. Mrs. Brooks votes no.
    Mr. Cummings?
    Mr. Cummings. Yes.
    The Clerk. Mr. Cummings votes yes.
    Mr. Smith?
    Mr. Smith. Aye.
    The Clerk. Mr. Smith votes aye.
    Mr. Schiff?
    Mr. Schiff. Aye.
    The Clerk. Mr. Schiff votes aye.
    Ms. Sanchez?
    Ms. Sanchez. Aye.
    The Clerk. Ms. Sanchez votes aye.
    Ms. Duckworth?
    Ms. Duckworth. Aye.
    The Clerk. Ms. Duckworth votes aye.
    Chairman Gowdy. The clerk will report.
    The Clerk. And Mr. Gowdy?
    Chairman Gowdy. No.
    The Clerk. Mr. Gowdy votes no.
    Yeas, five; noes, eight.
    Chairman Gowdy. And the motion is not agreed to.
    Madam Secretary----
    The Clerk. My apologies, sir. It was seven.
    Chairman Gowdy. The motion is still not agreed to. Even 
South Carolina math can figure that out.
    Madam Secretary, before we broke, there was a question 
asked that I thought was a fair question, which is why was I 
talking about Mr. Blumenthal's emails. I do think that is a 
fair question. And I think it is an equally fair question to 
ask why you were reading Mr. Blumenthal's emails. I think both 
are fair.
    So I want to go to June of 2012, which is an interesting 
time period to look at. Charlene Lamb was an employee of the 
State Department, and she sent an email which you may be 
familiar with--it is at tab 56; I am not going to read it, but 
it is at tab 56--where she described Benghazi as a ``soft 
target,'' ``attacks on Americans,'' ``not staffed adequately.'' 
It is a very haunting email to read. It was actually 3 months 
to the day when our four fellow citizens were killed. And that 
is on June the 7th, 2012.
    Also on June the 7th of 2012, your deputy chief of staff, 
Mr. Jake Sullivan, is emailing Ambassador Stevens, asking the 
Ambassador to look at a memo Sidney Blumenthal sent you. And, 
in fact, Mr. Sullivan writes to the Ambassador, ``Chris, 
checking in with you on this report. Any reactions?''
    All right. That is on exactly the same day that, I believe, 
our Ambassador's papers were accepted in Libya. It is a day 
after an IED attack on our compound. And Chris Stevens is being 
asked to read and react to an email by Sidney Blumenthal from 
your deputy chief of staff.
    Now, this is what he is writing on the 7th. This is after 
he has been turned down on a request for more security. This is 
our Ambassador. ``Appreciate you giving this proposal 
consideration even if the conclusion was not favorable for us. 
We'd be interested in pursuing the other avenue you suggest, 
high-threat trained agents. Best, Chris.''
    So I have this contrast in my mind. An ambassador is newly 
in place. It is a day after an attack on our facility. Your 
deputy chief of staff is sending him an email from Sidney 
Blumenthal asking him to take time to read and react to it. And 
then, to the best of my recollection, that is forwarded to you.
    So help us understand how Sidney Blumenthal had that kind 
of access to you, Madam Secretary, but the Ambassador did not.
    Mrs. Clinton. Well, thank you, Mr. Chairman, because I 
think that your question does help to clarify matters.
    Chris Stevens emailed regularly with Jake Sullivan, one of 
my closest aides, in the State Department. He could have 
emailed to Mr. Sullivan, knowing that it would've been 
immediately responded to, on any issue that was of concern to 
him, and he did not raise issues about security on that day or 
other days.
    And I think it's important to recognize that when an 
ambassador is at post overseas, especially one as experienced a 
diplomat as Chris Stevens, he knows where to pull the levers, 
where to go for information, where to register concerns. And I 
think he did exactly as one might have expected. He dealt with 
security issues through dealing with the security 
professionals, who were the ones making the assessments. And I 
think that Ambassador Stevens understood completely that that's 
where the experts were and that's where anything he requested 
or anything he was questioning should be directed.
    Chairman Gowdy. Speaking of experts, who was Victoria 
Nuland?
    Mrs. Clinton. A very experienced diplomat. She served as 
our Ambassador to NATO, appointed by President George W. Bush. 
She served as one of the advisers, as a Foreign Service officer 
delegated to the White House for Vice President Cheney. She 
served as the spokesperson for the State Department during my 
tenure. And she is currently the Assistant Secretary for Europe 
under Secretary Kerry.
    Chairman Gowdy. She wrote this to the Ambassador on June 
the 13th, 2012. That is a week after the facility was attacked. 
It is only a handful of days after he was turned down on a 
request, specific request, for more security.
    ``Chris, I know you have your hands full, but we'd like 
your advice about public messaging on the spate of violence in 
Libya over the past 10 days.''
    So she is asking him for help with public messaging. Jake 
Sullivan--which is the other half of the question that I don't 
think we got to. I understand that Chris Stevens was a rule-
follower. I understand that. I've got no qualms.
    My question was actually not why Chris Stevens didn't 
contact you, but why did Jake Sullivan send Chris Stevens a 
Sidney Blumenthal email to read and react to on the day after 
the facility was attacked, the same day he was denied a request 
for more security, and instead of email traffic back and forth 
about security, it is read and react to a Blumenthal email?
    Mrs. Clinton. Well, I think any ambassador, if one were 
sitting before the committee, would say that they handled a lot 
of incoming information and requests. Some of it was about what 
was happening in country; some of it was about what was 
happening back in the United States.
    And Chris felt strongly that the United States needed to 
remain in and committed to Libya. So he was concerned that 
there might be a feeling on the part of some, either in the 
State Department or elsewhere in the government, that we 
shouldn't be in Libya. And he was adamantly in favor of us 
staying in Libya.
    So part of what the discussion with him and Jake Sullivan 
and others was, you know, how do we best convey what the stakes 
the United States has in staying involved in Libya would be. 
And I thought that was, you know, very much in keeping with 
both his assessment and his experience.
    Chairman Gowdy. Well, I appreciate your perspective, Madam 
Secretary. Let me share with you my perspective.
    And if you need to take time to read a note, I am happy to 
pause.
    Mrs. Clinton. No. I'm just being reminded, which I think is 
important, that--you know, remember, Chris spent the vast 
majority of his time in Tripoli, not in Benghazi. So a lot of 
what he was looking at is how you deal with not only those in 
authority positions in Libya who were based in Tripoli at that 
time but also representatives of other governments and the 
like.
    And I think it is fair to say that anytime you're trying to 
figure out what's the best argument to make, especially if 
you're someone like Chris Stevens trying to put together and 
make the best argument about why the United States should 
remain committed to Libya and others as well, he's going to 
engage in conversations about that.
    Chairman Gowdy. Well, with respect, Madam Secretary, no 
matter what city he was in in Libya, having to stop and provide 
public messaging advice to your press shop and having to read 
and respond to an email sent by Sidney Blumenthal--it doesn't 
matter what town you are in. He needed security help. He didn't 
need help messaging the violence. He needed help actually with 
the violence.
    Mrs. Clinton. Well----
    Chairman Gowdy. You have said several times this morning 
that you had people and processes in place. And I want to ask 
you about an email that was sent to you by another one of your 
aides, Ms. Huma Abedin. That would be exhibit No. 70 in your 
folder.
    She emailed you that the Libyan people needed medicine, 
gasoline, diesel, and milk. Do you know how long it took you to 
respond to that email?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Clinton. Well, I responded to it very quickly.
    Chairman Gowdy. Yeah, four minutes.
    My question, and I think it is a fair one, is: The Libyan 
people had their needs responded to directly by you in four 
minutes, and there is no record of our security folks ever even 
making it to your inbox. So if you had people and processes in 
place for security, did you not also have people and processes 
in place for medicine, gasoline, diesel, milk?
    Mrs. Clinton. You know, Mr. Chairman, I've said it before, 
and I will say it again. I'll say it as many times as is 
necessary to respond.
    Chris Stevens communicated regularly with the members of my 
staff. He did not raise security with the members of my staff. 
I communicated with him about certain issues. He did not raise 
security with me. He raised security with the security 
professionals.
    Now, I know that's not the answer you want to hear, because 
it's being asked in many different ways by committee members, 
but those are the facts, Mr. Chairman.
    Chairman Gowdy. No, I----
    Mrs. Clinton. Ambassadors in the field are engaged in many 
different tasks. They are basically our chief representative of 
the President of the United States, so they deal with 
everything from, you know, foreign aid to security to dealing 
with the personal requests for visas that come from people in 
the country they are assigned to.
    And Chris Stevens had regular contact with members of my 
staff, and he did not raise security issues.
    Now, some of it may have been because, despite what was 
implied earlier, there was a good back-and-forth about 
security. And many of the requests that came from Embassy 
Tripoli, both for Tripoli and for Benghazi, were acted on 
affirmatively. Others were not.
    That is what an ambassador, especially a diplomat as 
experienced as Chris Stevens, would expect, that it would be 
unlikely to be able to get every one of your requests 
immediately answered positively.
    So, yes, he had regular contact with my aides; he did not 
raise security with me. And the security questions and requests 
were handled by the security professionals.
    Chairman Gowdy. Madam Secretary, with all due respect, 
those are two separate issues. Who Chris Stevens had access to 
is one issue. Who had access to you and for what is another 
issue.
    Because you have said you had people and processes in 
place. You also have people and processes in place for people 
who want to send you meaningless political advice. You also 
have people and processes in place for people who want to 
inquire about milk and diesel fuel and gasoline. You also have 
people and processes in place for people who want to provide 
insults towards folks you work with in the administration.
    All of that made it directly into your inbox, Madam 
Secretary. That is my question. My question is, how did you 
decide when to invoke people and process and who just got to 
come straight to you? Because it looked like certain things got 
straight to your inbox, and the requests for more security did 
not.
    And while you are answering that, I want to inform and 
instruct why I am asking it. You have mentioned the ARB on a 
number of occasions again today. This was not the first ARB. We 
had one after Kenya and Tanzania. And that ARB could not have 
been more specific: The Secretary of State should personally 
review the security situation of our embassy facilities. That 
ARB put the responsibility squarely on you.
    So, with respect to that previous ARB recommendation and, 
in contrast, what did make your inbox versus what did not, did 
you personally review our security situation, as the previous 
ARB required?
    Mrs. Clinton. Well, let me see if I can answer the many 
parts of your question, Mr. Chairman.
    Yes, personal email came to my personal account. Work-
related email did, as well. And I also relied on a number of my 
aides and staff members, as well as experienced Foreign Service 
officers and civil servants, who were similarly engaged in 
gathering information and sharing it.
    And, as I said and I will repeat, Chris Stevens 
communicated with a number of people that I worked with on a 
daily basis in the State Department. So far as I know, he did 
not raise any issue of security with any of those people. He 
raised it where he knew it would be properly addressed. If he 
had raised it with me, I would be here telling you he had. He 
did not.
    And so I think it's important to try to separate out the 
various elements of your question, Mr. Chairman, and I will do 
my best to continue to try to answer your questions.
    But I have said before and I will repeat again: Sid 
Blumenthal was not my adviser, official or unofficial, about 
Libya. He was not involved in any of the meetings, 
conversations, other efforts to obtain information in order to 
act on it.
    On occasion, I did forward what he sent me to make sure 
that it was in the mix so, if it was useful, it could be put to 
use. And I believe in response to the email you pointed out 
originally from Ambassador Stevens, he actually said it rang 
true and it was worth looking into.
    So I think it's important that we separate out the fact 
that Mr. Blumenthal was not my adviser. He was not an official 
of the United States Government. He was not passing on official 
information. He, like a number of my friends, would hand me a 
newspaper article, would buttonhole me at a reception and say, 
what about this, or what about that, were trying to be helpful. 
Some of it was. A lot of it wasn't.
    Chairman Gowdy. The chair will now recognize the gentlelady 
from California, Ms. Sanchez.
    Ms. Sanchez. Thank you.
    Secretary Clinton, I listened very carefully when Chairman 
Gowdy was questioning you in the first round of questioning. I 
have to say I was kind of surprised.
    We waited more than a year to finally get you up here to 
testify. We spent almost $5 million, and we interviewed about 
54 witnesses. And when the chairman finally got his chance to 
question you, he asked you over--he quibbled, actually, over 
the definition of the word ``unsolicited.''
    As if that wasn't bad enough, then he doubled down on this 
idea that Sidney Blumenthal was your primary adviser on Libya, 
a claim that we heard The Washington Post awarded four 
Pinocchios.
    He said on Sunday on national television that he had zero 
interest in the Clinton Foundation and other topics, but then 
he just spent his full time, the full questioning time in the 
first round, asking you about the Clinton Foundation, Media 
Matters, and other topics that don't really have anything to do 
with the attacks that occurred in Benghazi.
    And my own sense of incredulity was, really? Really? Is 
this why we have asked you to come? To testify about that?
    The overwhelming sense that I get from the Republican side 
of the aisle is they seem to be arguing somehow that Sidney 
Blumenthal had access to you while Ambassador Stevens did not. 
Do you think that that is an accurate statement?
    Mrs. Clinton. Of course not, Congresswoman. You know, you 
didn't need my email address to get my attention.
    In fact, most of the work I did, as I said this morning, 
had nothing to do with my emails. It had to do with the kind of 
meetings and materials that were provided to me through those 
who were responsible for making decisions on a whole range of 
issues.
    And, as I just told the chairman, if Ambassador Stevens had 
grave concerns that he wanted raised with me, he certainly knew 
how to do that.
    Ms. Sanchez. He could speak to your office or your staff--
    Mrs. Clinton. Absolutely.
    Ms. Sanchez [continuing]. Or you directly on the telephone?
    Mrs. Clinton. Absolutely.
    Ms. Sanchez. Did he ever ask you for your personal email 
address and you turned him down, you shot him down----
    Mrs. Clinton. No. He did not.
    Ms. Sanchez [continuing]. Said, ``You can't email me''?
    Mrs. Clinton. Huh-uh. Huh-uh.
    Ms. Sanchez. The other thing that I am hearing from the 
other side of the aisle is they are arguing that, you know, 
security was, you know, sort of decomposing in eastern Libya 
and that no security improvements were ever made to the 
Benghazi outpost.
    That is not a true statement, is it?
    Mrs. Clinton. No, it is not.
    Ms. Sanchez. In fact, there were many security enhancements 
that were asked for that were actually made, although there 
were other requests that were made that were not fulfilled. Is 
that correct?
    Mrs. Clinton. That's correct.
    Ms. Sanchez. Okay.
    The other line of questioning that sort of surprises me is 
that, over the course of this investigation, Republicans have 
repeatedly asked why the U.S. was still in Benghazi on the 
night of the attacks.
    During the select committee's first hearing, which was more 
than a year ago, the chairman posed the following question: 
``We know the risk of being in Benghazi. Can you tell us what 
our policy was in Libya that overcame those risks? In other 
words, why were we there?''
    And the Accountability Review Board had already answered 
that question. It explained that Benghazi was the largest city 
and historical power center in eastern Libya. It further went 
on to say, ``Although the rebel-led Transitional National 
Council declared that Tripoli would continue to be the capital 
of post-Qadhafi Libya, many of the influential players in the 
TNC remained based in Benghazi.''
    And the ARB went on to explain that Ambassador Stevens 
advocated for a U.S. presence in Benghazi, and his status as 
the leading U.S. Government advocate on Libya policy and his 
expertise on Benghazi, in particular, caused Washington to give 
unusual deference to his judgments.
    Secretary Clinton, do you agree? Was Ambassador Stevens a 
leading expert on Libya policy? And did you also give his 
opinions a lot of weight and respect?
    Mrs. Clinton. Yes, I did, Congresswoman.
    Ms. Sanchez. And do you recall Ambassador Stevens 
advocating from the ground up for continued U.S. presence 
specifically in Benghazi?
    Mrs. Clinton. Yes, he did.
    Ms. Sanchez. In fact, Ambassador Stevens' emails, many of 
which this committee has had for more than a year, confirm what 
you just stated.
    Mr. Chairman, I would ask unanimous consent to enter this 
document into the record. And it is being passed out to the 
members of the committee.
    Chairman Gowdy. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
    
    Ms. Sanchez. Secretary Clinton, I understand this email is 
not one that you have seen before, as it was not addressed or 
sent to you. Is that correct?
    Mrs. Clinton. That's correct.
    Ms. Sanchez. In the email before you, then-Special Envoy 
Stevens wrote this proposal for continued presence in Benghazi 
at Embassy Tripoli, as Embassy Tripoli was reopened following 
the fall of Qadhafi. He suggested two potential models. Option 
A was a slimmed-down compound, and option B was a virtual 
presence with zero full-time State Department staff in 
Benghazi.
    Special Envoy Stevens sent this email to Gene Cretz, then 
the Ambassador to Libya; his deputy chief of mission; and the 
Director of the Office of Maghreb Affairs. At the time, these 
career diplomats had a combined 83 years of Foreign Service 
experience.
    Would the recommendation of this team be given a fair 
amount of weight within the Department?
    Mrs. Clinton. Yes, it would.
    Ms. Sanchez. And is that the way that it should work, that 
the views of experienced diplomats should count in 
decisionmaking?
    Mrs. Clinton. They certainly did to me, and I think that 
should be the practice.
    Ms. Sanchez. In the same email, Special Envoy Stevens 
states, ``But my personal recommendation would be option A,'' 
which was the option for a slimmed-down compound. He then notes 
a few of his key rationales for wanting to stay.
    In an earlier September 6, 2011, email advocating for a 
continued Benghazi presence, Special Envoy Stevens provided 
more reasons, including the opportunity to, ``monitor political 
trends and public sentiment regarding the new Libya. The 
revolution began in eastern Libya, and the view of these 2 
million inhabitants will certainly influence events going 
forward.''
    Secretary Clinton, do you agree with Ambassador Stevens' 
view that there were important reasons to have a presence in 
Benghazi despite the risks?
    Mrs. Clinton. Yes, I do.
    Ms. Sanchez. Other documents show that Ambassador Stevens 
continued to advocate for a continued U.S. presence once he 
became Ambassador to Libya. In fact, at the end of August, just 
two weeks before the attacks, he was working on a proposal for 
a permanent presence.
    As that proposal explained, ``A permanent branch office in 
Benghazi to provide a permanent platform to protect U.S. 
national security interests in the region and to promote a 
stronger, healthier, and more vibrant bilateral relationship 
with the new free and democratic Libya.''
    While Ambassador Stevens took seriously the significant 
security incidents in Benghazi that occurred in June, he never 
decided that the risk outweighed the benefit, and he never 
recommended closing the post in Benghazi. He worked with his 
counterparts to try to manage that risk as best they could.
    In its report, the Benghazi Accountability Review Board 
found, ``The total elimination of risk is a nonstarter for U.S. 
diplomacy given the need for the U.S. Government to be present 
in places where stability and security are often most 
profoundly lacking and host-government support is sometimes 
minimal to nonexistent.''
    Secretary Clinton, this is such a difficult issue, the 
balancing of interests. From your perspective as a former 
Senator and Secretary of State, how do you best ensure that we 
are striking the right balance going forward?
    Mrs. Clinton. Well, Congresswoman, thank you for that 
question, because I do think that's what we should be talking 
about. And several of you have posed similar questions.
    I think you do start with the best expert and experienced 
advice that you can get from across our government. And, as you 
rightly point out, Chris Stevens never recommended that we 
close Benghazi. He advocated for keeping Benghazi open and, as 
you rightly refer to this email, for a particular configuration 
that would fulfill the needs of our country being represented 
there.
    Obviously, you have to constantly do this balancing act 
that I referred to earlier today. And most times we get it 
right. In fact, the vast majority of times we get it right.
    With Benghazi, the CIA did not have any plans to close 
their facility. The opinion of those with the greatest 
understanding of our mission, our diplomatic mission, in 
Benghazi was exactly the same, that we should not close down, 
we should not leave Benghazi.
    And it's, you know, obviously something that you have to be 
constantly evaluating in all of these difficult, unstable spots 
around the world.
    But I appreciate your bringing to the committee's 
attention, you know, the strong opinion of the man who knew the 
most and was on the ground and who understood what we were 
trying to achieve in Benghazi, Ambassador Stevens.
    Ms. Sanchez. And was it your understanding that he 
certainly understood the risk of being there?
    Mrs. Clinton. He definitely understood the risks. Yes.
    Ms. Sanchez. Thank you.
    I yield back.
    Chairman Gowdy. The gentlelady yields back.
    The chair will now recognize the gentlelady from Indiana, 
Mrs. Brooks.
    Mrs. Brooks. Secretary Clinton, I would like to ask you a 
bit about your decisionmaking and the discussions you had as it 
related to how long the Benghazi mission itself was going to 
last.
    I am putting up a map just because most of us really don't 
know much about Libya, don't know much about the geography of 
Libya. And as we have talked about these various communities, I 
don't think most people really realized.
    So I want to share with you that we know from my last round 
that Chris Stevens went into Benghazi in April of 2011, and I 
want to talk to you about what happened the rest of that year. 
And just because there was a lot going on, I thought it would 
be helpful to have this map.
    So, by mid-July, our government formally recognized the TNC 
as the official Government of Libya, replacing the Qadhafi 
regime. And TNC was based in Benghazi at that time. And then, 
in August, after the Qadhafi government fell, Qadhafi went over 
into--he left Tripoli, where Qadhafi had been headquartered, 
and he went into hiding in Sirte.
    Now, once that happened, the TNC moved their Benghazi 
headquarters over to Tripoli. And then, in September, we 
reopened our embassy in Tripoli, and Ambassador Cretz 
returned--he had been evacuated previously--and Chris Stevens 
stayed in Benghazi.
    Does that sound like an accurate summary of the summer of 
2011?
    Mrs. Clinton. It does sound accurate, except I'm not sure 
exactly the duration of Ambassador Stevens' presence in 
Benghazi during those months.
    Mrs. Brooks. Well, that leads to my next question. What was 
your plan for the mission in the fall of 2011 and going 
forward? What were the discussions you had, and who did you 
have those discussions with, about the mission of Benghazi 
going forward in 2011?
    Mrs. Clinton. Well, as you may have heard, Congresswoman, 
the email that Congresswoman Sanchez introduced into the record 
was from the fall of 2011, and there was quite a discussion 
going on between officials in the State Department, in the 
intelligence community, in both Washington and Libya, about the 
path forward.
    The Transitional National Council had been based in 
Benghazi, and there was a dispute even within the Libyans 
themselves as to whether they would split the government, 
whether the government would be located predominantly but not 
exclusively in Tripoli, or, as some were hoping, predominantly 
but not exclusively in Benghazi. So this was all a very live 
subject that was being debated, both in Libya and with respect 
to what our response would be in Washington.
    So we, at Chris Stevens' strong urging and that of other of 
our experienced diplomats, wanted to maintain a presence in 
Benghazi in some form. We reopened our embassy in Tripoli, 
which had been the historical, certainly, under Qadhafi.
    But this was a constant discussion about what we should do, 
when and where. And I think that's why this email from Chris 
Stevens about his recommendations is so informative.
    Mrs. Brooks. Well, and thank you, and I will get to that in 
just a moment. But I have to ask you, I assume that your chief 
of staff, Cheryl Mills, was intimately involved in these 
discussions with you and with your top staff. She is one of 
your staff, as you were referring to them. Is that right?
    Mrs. Clinton. Well, she covered a broad range of issues. 
I'm sure she was involved in some of the discussions, but she 
had many other responsibilities, so I can't say all of them.
    Mrs. Brooks. I would like to refer you to an update on 
Tripoli operations provided to Cheryl Mills on September 14. 
And at the top of that two-page memo, ``Assumptions for 
Benghazi in September were gradual winding down of operations 
over the next six months. Transition to Tripoli only by January 
2012. No consulate.'' ``No consulate'' meant no consulate in 
Benghazi. This was in September. Would that be fair and 
accurate?
    And were you in that briefing with Ms. Mills, or did she 
brief you about the fact that in September the game plan was to 
shut down Benghazi?
    Mrs. Clinton. Well, I think you have to look at that in 
context, Congresswoman. There was not an active plan for a 
consulate in Benghazi at any point during this period. That is 
not what the compound in Benghazi was. It was a temporary 
facility placed there to help us make a determination as to 
what we would need going forward in Benghazi. There was----
    Mrs. Brooks. And excuse me, Madam Secretary----
    Mrs. Clinton. There was a strong argument that Chris 
Stevens and others made that they hoped eventually there might 
be a consulate. But there was never an agreement to have a 
consulate.
    Mrs. Brooks. And, in fact, if it had been deemed a 
consulate, it would have had a different level of security, is 
that correct, than a temporary mission compound? Isn't that----
    Mrs. Clinton. Well, we have----
    Mrs. Brooks. Isn't that correct, that consulates have 
certain levels of security? There are standards, there are 
protocols. When it is a consulate, it gets a certain level of 
security.
    Mrs. Clinton. That is the hoped-for outcome. That is not 
what happens in the very beginning in many places, especially 
the hotspots and the conflict areas where a consulate is stood 
up.
    Mrs. Brooks. Can you talk with me about the decision, 
then--there is a briefing with respect to--after the closing, 
rather, of the consulate in Benghazi by January of 2012. We 
know it didn't close. It did not close.
    You went to Tripoli in October of 2011. Ambassador Cretz 
was still there. How about Chris Stevens? Did Chris Stevens 
come over from Benghazi to see you when you went for that big 
trip in October 2011?
    Mrs. Clinton. I don't recall. I don't recall if he did or 
not. This was about Ambassador Cretz, and Ambassador Cretz was 
the person that we were meeting with at that time.
    Mrs. Brooks. What was your purpose for meeting with 
Ambassador Cretz if Chris Stevens was your expert in Libya?
    Mrs. Clinton. Ambassador Cretz was an expert, as well. 
Ambassador Cretz was our ambassador. You remember, as I 
mentioned to you before, he had been our ambassador, and then 
because he reported very accurately about what he observed 
regarding Qadhafi and Qadhafi's henchmen, when WikiLeaks 
disclosed internal U.S. Government cables and Gene Cretz's 
cables were publicized, talking very critically about Qadhafi, 
he was then subjected to threats, and then we took him out. We 
did not close the embassy at that time.
    So he had returned to finish out his time, and we were in 
the process of moving him to another assignment and nominating 
Chris Stevens to replace him.
    Mrs. Brooks. But during that one trip to Libya, you didn't 
talk to Chris Stevens, best of your recollection, during that 
time.
    Mrs. Clinton. While I was in Libya, I don't recall that. Of 
course, we consulted with him with respect to planning the 
trip, as to who we would meet with, what we would ask for.
    We were trying very hard to get the people in positions of 
authority at that time in Libya to let us work with them on 
everything from border security to collecting weapons and 
trying to disarm the militias. We had a lot of business we were 
doing with them.
    Mrs. Brooks. So, going back to Ms. Sanchez's email with 
respect from John Stevens to Ms. Polaschik, it talks about 
option A, as you pointed out, slimming down the compound. And 
so he weighed in--in October, he was weighing in on whether or 
not the compound should stay open.
    But I would like to direct your attention to an email that 
is at tab 4, dated December 15 from Chris Stevens.
    And I might add for the record, we do not, still to this 
day, have all of Chris Stevens' emails. We received 1,300 more 
this week. We received most of them last week. We don't have 
the universe yet of Ambassador Stevens' emails.
    But he emailed to a reporting officer, who we know was in 
Benghazi still. He wrote, ``Interesting. Has security improved 
in Benghazi in recent weeks? Also curious what you guys decided 
to do regarding future of the compound.''
    He was in Washington, D.C., or back in the States during 
that time. And, in December, Ambassador Stevens, your soon-to-
be Ambassador, didn't know what was going to happen with the 
compound in Benghazi? How is that possible?
    Mrs. Clinton. Well, Congresswoman, one of the great 
attributes that Chris Stevens had was a really good sense of 
humor. And I just see him smiling as he's typing this, because 
it is clearly in response to the email down below talking about 
picking up a few, ``fire-sale items from the Brits.''
    Mrs. Brooks. Sure. Those fire-sale items, by the way, are 
barricades.
    Mrs. Clinton. That's right.
    Mrs. Brooks. They are additional----
    Mrs. Clinton. That's right.
    Mrs. Brooks [continuing]. Requests for security----
    Mrs. Clinton. That's right.
    Mrs. Brooks [continuing]. For the compound. That is what 
that fire sale was, because we weren't providing enough 
physical security for the compound. Isn't that right? So they 
are picking up a fire sale because other consulates are pulling 
out, other countries are pulling out.
    Mrs. Clinton. Well, I thought it showed----
    Mrs. Brooks. I don't think that is very funny.
    Mrs. Clinton [continuing]. Their entrepreneurial spirit, 
Congresswoman.
    Mrs. Brooks. Absolutely.
    Mrs. Clinton. And I applaud them for doing so.
    We did respond to a number of the security requests, the 
physical security requests. The posters that were up earlier 
this morning were only about the number of Diplomatic Security 
personnel. You're talking about physical barriers, physical 
additions to the compound. There were quite a few of those that 
were undertaken.
    Mrs. Brooks. But how is it that Mr. Stevens did not know in 
December whether or not the compound was going to remain open?
    Mrs. Clinton. Well----
    Mrs. Brooks. Or do you think that was a joke he was making?
    Mrs. Clinton. Well, I think that, if it were not an example 
of his sense of humor, it was also as part of the ongoing 
discussion about Mission Benghazi's future, which he went to 
great lengths to describe what he thought should be done. You 
know, a lot of it was trying to decide, could we afford it, 
could we maintain it, what did we need to have there.
    So, yes, there was an ongoing discussion. And I think he 
knew he was going to be in line to go to Tripoli, and he wanted 
to know exactly what the decision was going to be about the 
compound. He had weighed in not only in that email but in 
numerous discussions with his colleagues back at the State 
Department.
    Mrs. Brooks. And finally, Secretary Clinton, we know that 
the compound, the Benghazi Mission, was extended for yet 
another year. Because, that same month, your Benghazi point 
person here in Washington, Jeff Feltman, sent a memo wanting to 
extend Benghazi through 2012, and he sent it to Under Secretary 
Patrick Kennedy, who approved it--another high-level official 
who, by the way, for the record, State Department has given us 
none of Under Secretary Patrick Kennedy's emails yet. Same with 
Jeffrey Feltman. Very high-level officials within the State 
Department.
    Are you familiar with that memo, sent on December 27, 
entitled ``Future of Operations in Benghazi, Libya''? Are you 
familiar with that memo?
    Mrs. Clinton. Well----
    Mrs. Brooks. And if so, did Assistant Secretary Feltman 
discuss that memo with you at the time and discuss extending 
the mission in Benghazi in December of 2011?
    Mrs. Clinton. I'm familiar that there was an ongoing 
discussion about the future of the mission in Benghazi----
    Mrs. Brooks. A discussion between whom, ma'am? Who were 
the----
    Mrs. Clinton. Between all of the relevant officials in the 
State Department.
    Mrs. Brooks. Help me with understanding----
    Mrs. Clinton. Well, Jeff Feltman was one of them.
    Mrs. Brooks. Okay. Who else?
    Mrs. Clinton. Obviously, Chris Stevens was one of them. But 
there were many others who had information and expertise to add 
to it.
    And there was a recommendation that Benghazi be continued 
through 2012 as part of the continuing evaluation of whether or 
what we wanted to have on a more permanent basis in Benghazi.
    Mrs. Brooks. And do you recall, were you in those 
discussions? Were you specifically in those meetings? You have 
shared that you didn't do a lot by email, that you had more 
meetings and briefings. Were you in those meetings about 
extending Benghazi through the end of the year?
    Mrs. Clinton. There were certainly meetings in which I was 
advised about the process being undertaken as to determine 
whether Benghazi should be extended. So, yes, I was aware of 
the process that was ongoing, and I was kept up to date about 
it.
    Mrs. Brooks. And were there any minutes or any briefings--
--
    Chairman Gowdy. The gentlelady's time has expired.
    The chair would now recognize the gentleman from 
Washington, Mr. Smith.
    Mr. Smith. Yeah, I just want to clarify a couple of points.
    First of all, Ambassador Stevens had access to you, without 
question.
    Mrs. Clinton. Yes, he did.
    Mr. Smith. In fact, a former--I don't have the name in 
front of me, but an ambassador in Russia said that, you know, 
he always had access to you, always had constant communication 
with you, never had your email address.
    Mrs. Clinton. That's right.
    Mr. Smith. I would hope that ambassadors would have more 
direct and immediate lines of communication, and Ambassador 
Stevens certainly did, correct?
    Mrs. Clinton. Yes.
    Mr. Smith. And, also, did Ambassador Stevens ever advocate 
either leaving Libya or abandoning Benghazi?
    Mrs. Clinton. To the contrary, Congressman. He was a very 
strong advocate for staying in Libya, including in Benghazi.
    Mr. Smith. And I think, you know, what we have learned here 
is, well, nothing, frankly, that we didn't know already. The 
security situation in Libya was dangerous----
    Mrs. Clinton. Right.
    Mr. Smith [continuing]. Without question. Would you say 
that Ambassador Stevens was unaware of any aspect of that?
    Mrs. Clinton. No, I would not. I think he was very aware.
    Mr. Smith. So he knew the security situation in Libya quite 
well?
    Mrs. Clinton. That's right.
    Mr. Smith. And yet--and, again, I want to be clear on this. 
In his communications with you--and he had many, even if he 
didn't have your email address--did he ever say--you know, did 
he raise the security issue directly with you?
    Mrs. Clinton. No, he did not.
    Mr. Smith. And, you know, and then the question--you know, 
obviously, he chose to go to Benghazi. He, as you have 
described earlier, as, gosh, all across the world today, 
diplomats are weighing the risks and the benefits of a lot of 
dangerous places, and he had to do that.
    Mrs. Clinton. Yes.
    Mr. Smith. And he chose to go to Benghazi.
    Mrs. Clinton. He did. And, Congressman, ambassadors in the 
countries they are representing the United States in do not, as 
a practice, ask permission from the State Department to travel 
in the country where they are stationed.
    Mr. Smith. And as well they should not. They need to be in 
charge of their country.
    I'd also point out, on the question of emails and which 
ones you've received and haven't received. Unfortunately, the 
State Department, which has been spending an enormous amount of 
time producing documents for this committee, cannot produce 
thousands of emails at the drop of a hat. And the committee 
chose to prioritize all your emails, but also Ms. Abedin's 
emails, Cheryl Mills' emails, basically Sidney Blumenthal's 
emails to you; they chose to prioritize those emails over the 
others.
    So the State Department is trying to get this information. 
But it is a question of the priorities of the committee, which 
brings me to the last point I'll make, and I won't take the 
full 10 minutes here, you know. There are a lot of--a lot of 
accusations have been made back and forth about things that 
have been said that were or were not true. I think the one 
thing that was said in this hearing that is clearly the 
furthest thing from the truth is that this is not a 
prosecution. If you listen to the other side, this is 
unquestionably exactly that, a prosecution. I mean, I'd ask 
viewers to just go back and listen to Chairman Gowdy's 
questioning of you before the first break and tell me that 
that's not a prosecution.
    And I think, again, I don't know if shame, embarrassment, 
whatever word you wish to choose, it shouldn't be a 
prosecution. You know, we have the former Secretary of State 
here. We should be genuinely trying to inquire about how we can 
gather more information.
    Now, the only interesting facts that seem to be brought up 
are always referenced back to the ARB, which just points up the 
fact that the information that we need--and, again, I really 
want to emphasize, this was a serious, serious matter for the 
United States. A loss of four Americans is something we need to 
take incredibly seriously and investigate, and we did. And the 
information that we found out, as you pointed out, was not 
always flattering. And there was no question that mistakes were 
made. And we hopefully learned from them, but that was 
investigated, so what is the purpose of this committee?
    And, when you look at the emails they request, when you 
look at the questioning, the purpose of this committee is to 
prosecute you, and there'll be time enough for that in the next 
year, you know, and people will do it. We don't need to spend 
$4.7 million and 17 months to simply prosecute you. Look, the 
security situation was well-known in Libya. The security 
situation in Pakistan is well-known. I visited the Embassy in 
Yemen in 2009 about a month after someone had shot a rocket-
propelled grenade through the front door. The security 
situation there is incredibly serious, as well as it is in a 
whole lot of other places, and those are difficult decisions, 
but the effort here today seems to be that somehow you 
personally decided not to do your job in Libya. Okay? You were 
apparently the advocate of the policy in Libya. Apparently 
passionate about it. But not passionate enough to care about 
the security situation in Libya.
    And Chris Stevens, incredibly passionate about Libya, 
wanted to make that country work. Now, it has proven very, very 
difficult. Do we want to go back to Muammar Qadhafi in charge? 
I don't think so. And just--sorry, to make a policy point as 
long as I have a few minutes--you know, it's interesting to 
juxtapose Libya with Syria. Because just as many of my 
Republican colleagues are ripping apart the Obama 
administration and all of those involved for choosing to remove 
Qadhafi, they are ripping apart the Obama administration and 
all the current officials for choosing not to get involved in 
Syria.
    What that points up, frankly, is the difficulty of the job 
that you had. And I thank you for taking it. I'm not sure I 
would be so bold. It is a very, very dangerous world. Bad 
things are going to happen. And what we are witnessing today is 
if bad things happen, you will be dragged out over months and 
months and months in this partisan atmosphere. And that is 
very, very unfortunate. This needed to be investigated.
    I mean, you know, 9/11, we didn't investigate 9/11--you 
know, 9/11/2001, just to specify--with the length and depth 
that we have chose to investigate this.
    So, again, I come back to the central point of the central 
problem with this committee: it is a prosecution. It is a 
partisan exercise. It is not trying to investigate and find out 
the truth. And, again, we are now, do a little quick math here, 
five hours into it; count the break, maybe four hours into it. 
We have learned nothing substantively new about what happened 
in Benghazi. Very serious things happened. They were 
investigated. They were reported. Mistakes were made. They were 
reported. But this committee in all that time and effort has 
unearthed nothing. Instead, they want to prosecute you and, you 
know, rip apart your every word, your every email. Two staffers 
five levels down from you who said something bad about you? I 
mean, my goodness, I hope I don't ever have to undergo that 
kind of scrutiny. I would not survive it, and I don't think 
many would.
    So, you know, I hope in the hours that we have left to do 
this, that we will try to circle back to learning something 
new, to figuring out how we can best strike that balance that 
you described of being present in the world but also trying to 
keep our people safe. Throughout the history of the country--my 
aunt was actually a Foreign Service officer way back when--and 
we have lost many diplomats, and she tells me about it all the 
time. And, you know, it's a difficult balance. We need to get 
back to that. If we can learn something new about what happened 
in Benghazi, I think that might be helpful. But right now this 
committee is not doing a service to the four people who died or 
their families or to preventing any of these future incidents 
from happening.
    So I thank you for testifying. I thank you for your 
leadership and your willingness to do a very, very difficult 
job.
    Mr. Cummings. Will the gentleman yield?
    Mr. Smith. And, with that, I yield the remainder of my time 
to the ranking member, Mr. Cummings.
    Mr. Cummings. Madam Secretary, a few--maybe an hour so ago, 
we were talking about the Diplomatic Security folks on the 
night of the incident, and you looked like you--it appeared 
that you wanted to say a little bit more about that and what 
they--speaking of that, the incident. Would you like to 
elaborate?
    Mrs. Clinton. Well, thank you, Congressman.
    You know, I don't want anything that is said to me or about 
me to take away from the heroic efforts that the Diplomatic 
Security officers exhibited. The five men who were with Chris 
and Sean Smith risked their lives repeatedly and were 
themselves under grave threat. I wanted to point out that even 
when we try to get it right, which we do try, sometimes there 
are unintended consequences, and there is an example out of 
this tragedy.
    Coming out of previous assessments of attacks on 
facilities, we now have safe havens, safe rooms in facilities, 
particularly residences. The Diplomatic Security officers were 
able to get both Chris and Sean into that safe room. Of course, 
the idea behind the safe room, why security experts advocated 
for them, was to protect our civilians, our diplomats from 
attacks like the one that was occurring. The attackers used 
diesel fuel to set the compound on fire, and the safe room was 
anything but safe.
    I'm sure the committee members know that neither Chris 
Stevens nor Sean Smith died from injuries directly inflicted by 
the attackers. They both died of smoke inhalation. And one of 
the recommendations in this ARB report is that when we have 
safe havens, we need to have equipment that will enable people 
that are safe within them to withstand what happened in 
Benghazi.
    The lead Diplomatic Security officer who was with both the 
Ambassador and Sean Smith endeavored to lead them to safety 
through a wall of black smoke. He wanted to get them out of the 
compound interior up to the roof, where they could be out of 
the fire and also out of the attackers' assault. He himself 
nearly died of smoke inhalation. When he looked around to make 
sure that both Sean and Chris were with him, he couldn't find 
them. Rather than proceeding and saving himself, which would be 
a natural human instinct, he turned back into that black diesel 
smoke desperately trying to find Chris and Sean. He did find 
Sean, and Sean had succumbed to smoke inhalation, and the 
Diplomatic Security officer managed to take Sean out of the 
building. He could not find Chris Stevens.
    One of the horrors of the hours after the attack was our 
failure to be able to find where the Ambassador was. We hoped 
against hope that he had somehow gotten himself out of the 
compound and that he was alive somewhere, maybe in the back. 
And additional efforts by the Diplomatic Security officers and 
then eventually by the CIA reinforcements that arrived to find 
his body or to find him, hopefully, were unsuccessful, and they 
had to withdraw because of the continuing attack back to the 
CIA Annex before we knew what had happened to the Ambassador. 
We were desperate, and we were trying to call everybody we knew 
in Benghazi, in Libya, get additional help.
    What appears to have happened at some point later is that 
Libyans found Ambassador Stevens, and they carried him to the 
hospital in Benghazi, and Libyan doctors labored nearly two 
hours to try to resuscitate him.
    And I mention all of this because I want not just the 
committee members but any viewers in the public to understand 
that this was the fog of war, that the Diplomatic Security 
officers and then later the CIA officers responded with 
heroism, professionalism, as they had been trained to do.
    We thought things would be safe once they took refuge in 
the CIA Annex. And as we know, even though that was a highly 
fortified, much more secure facility than our diplomatic 
compound, and one that we had nothing to do with in the State 
Department, it turned out also to be a target for the 
militants, which is where the two CIA contractors, Mr. Woods 
and Mr. Doherty, died. But in looking at all of the 
information, the Accountability Review Board and particularly 
Admiral Mullen, who was focused on what happened, what the 
security personnel did that night, came out agreeing that they 
were heroic, and they did all they could do to try to save 
their colleagues' lives.
    Chairman Gowdy. The gentleman yields back.
    Madam Secretary, I appreciate you going through their 
heroism. I really do. It is moving to hear from. And, frankly, 
it infuriates me to hear folks to my left, who don't raise a 
single whisper about spending $50 million to train five ISIS 
fighters, but God forbid we spend one-tenth of that to give 
some answers to the family members sitting on the first row. So 
I appreciate you discussing their heroism while some of my 
colleagues discuss money.
    With that, Mr. Pompeo.
    Mr. Pompeo. I'd actually like to add to that. I think--you 
know, Mr. Smith gave a soliloquy. I think it was elegant, but 
more importantly, I think it was representative of the behavior 
of the Democrats on this panel. Since May of 2014, not one 
finger, not one question for a witness. They say they want to 
get to the truth, but the truth of the matter is they've spent 
most of their time today--anybody can rewind the tape and 
find--they've spent most of their time today attacking members 
of this committee and this process, and I regret that. I think 
that's a violation of their duty to the country and, most 
importantly, their duty to the families.
    I want to go back to a couple things that I talked to you 
about a bit before, Madam Secretary. So Ambassador Stevens 
didn't have your email? Is that correct? Your personal email.
    Mrs. Clinton. I'm sorry. What did you ask me?
    Mr. Pompeo. Ambassador Stevens did not have your personal 
email address. We've established that.
    Mrs. Clinton. Yes. That's right.
    Mr. Pompeo. Did he have your cell phone number?
    Mrs. Clinton. No, but he had the 24-hour number of the 
State operations----
    Mr. Pompeo. Did that----
    Mrs. Clinton [continuing]. In the State Department that can 
reach me 24/7.
    Mr. Pompeo. Yes, ma'am. Did he have your fax number?
    Mrs. Clinton. He had the fax number of the State 
Department.
    Mr. Pompeo. Did he have your home address?
    Mrs. Clinton. No. I don't think any ambassador has ever 
asked me for that.
    Mr. Pompeo. Did he ever stop by your house?
    Mrs. Clinton. No, he did not, Congressman.
    Mr. Pompeo. Mr. Blumenthal had each of those and did each 
of those things. This man upon whom provided you so much 
information on Libya had access to you in ways that were very 
different than the access that a very senior diplomat had to 
you and your person.
    I'd ask--I had a picture up here a bit ago of a man named 
Wissam bin Hamid. You said you didn't recognize who he was. 
Were you ever briefed that he was present at the compound the 
night that Ambassador Stevens was killed?
    Mrs. Clinton. We're trying to track down the basis of your 
question, Congressman. We have no information at this time.
    Mr. Pompeo. My question is a yes-or-no question. It's 
pretty simple.
    Mrs. Clinton. Well, I don't----
    Mr. Pompeo. Do you----
    Mrs. Clinton. I don't have any information that I can 
provide to you yes or no----
    Mr. Pompeo. So----
    Mrs. Clinton [continuing]. Because I know nothing about 
this----
    Mr. Pompeo. So the answer--the question----
    Mrs. Clinton [continuing]. Question.
    Mr. Pompeo [continuing]. Is were you briefed. And the 
answer is?
    Mrs. Clinton. We don't know anything about it, so how could 
I have been briefed about something we know nothing about.
    Mr. Pompeo. Great. Thank you.
    Are all ARBs created equal?
    Mrs. Clinton. Well, there have been 19, including the one 
that we impaneled after Benghazi. They've all been led by 
distinguished Americans. They've all been set up in accordance 
with the laws and rules that the Congress established when they 
created the legislation to establish ARBs, so I assume, in 
those respects, they are created equal.
    Mr. Pompeo. Yes, ma'am. You know, I'm asking--I asked a 
pretty simple--pretty simple yes-or-no question, I guess, and 
I'm happy to let you expand. I'm happy to bring breakfast in, 
but when we ask a yes-or-no question, it would sure be helpful 
if we could get to the answer. That's pretty--it wasn't a trick 
question at all.
    Are the recommendations of each ARB worthy of equal 
treatment?
    Mrs. Clinton. Well, they certainly are worthy of follow up 
by the Department, and I believe that they have been.
    Mr. Pompeo. There was an ARB--please, if you put up the 
poster, please. There was an ARB in 1998--you said this before 
in your testimony--200 folks were killed. Here's what its 
recommendation said. It said, ``special mission security 
posture that was inadequate for Benghazi and''--excuse me. This 
is from the most recent one. I wanted to know if you agree with 
this: special mission security posture that was inadequate for 
Benghazi and grossly inadequate to deal with the attack that 
took place. Do you agree with that statement from the current 
ARB?
    Mrs. Clinton. I accepted the recommendations of the----
    Mr. Pompeo. Well, my question----
    Mrs. Clinton [continuing]. Current ARB.
    Mr. Pompeo. Madam Secretary, my question is if you agree 
with it.
    Mrs. Clinton. I don't think that's a relevant question----
    Mr. Pompeo. The question----
    Mrs. Clinton [continuing]. Congressman. I think the 
question is I accepted their recommendations, and obviously, 
their recommendations were based on their very thorough 
investigation and analysis, so clearly I endorsed the entire 
Board's work.
    Mr. Pompeo. In January 2014, Senator Feinstein--a noted 
conservative--said, in her report, ``the incidents at the TMF 
and CIA were likely preventable,'' end of quote.
    Do you agree with that statement from Senator Feinstein's 
report?
    Mrs. Clinton. Well, I would like to think that anything of 
that magnitude and the loss of life could have in some way been 
preventable. I think that what the ARB recommended were steps 
to try to enhance our ability to prevent future attacks.
    Mr. Pompeo. Let's go back. I want to go back now. I have 
the right poster up. I apologize for that. In 1998, here's what 
the ARB said. It said, quote: ``The Secretary of State should 
personally review the security situation of embassy chanceries 
and other official premises, closing those which are highly 
vulnerable and threatened,'' end of quote.
    You've told us all day today that you don't think you 
should have been involved, and quoting again from the ARB, 
personally reviewing security. How do you square that?
    Mrs. Clinton. Well, there are a couple of important points 
to make about this, Congressman. First, I made a number of 
decisions to close embassy chanceries and other official 
premises based on security. I closed the Embassy in Tripoli. I 
had to evacuate all of the Americans out of Libya. We had to, 
you know, lease ferries that came from Malta. We closed 
embassies and other facilities when we had a strong consensus 
recommendation that it was necessary to do. So that is a 
statement of secretarial responsibility.
    Now, with respect to looking at every security request, how 
high should the wall be, whether there should be barricades 
placed on the east or the west side, that is handled by the 
security professionals.
    So, clearly, I closed embassies. I recommended that 
embassies and other facilities be closed. So I understand what 
that point is.
    Mr. Pompeo. Madam Secretary, this is a yes-or-no question. 
Do you think you complied with what the ARB in 1998 said and 
personally reviewed the security at Benghazi?
    Mrs. Clinton. Well, that's--that is not what my 
understanding of the 1998 ARB----
    Mr. Pompeo. Well, it's just words, Madam Secretary. They're 
right there.
    Mrs. Clinton. Well, and I just answered. I personally 
reviewed security situations of chanceries and other official 
facilities that were recommended, because they were highly 
vulnerable and threatened, to be closed, and we closed some. 
Some we were able to reopen, which is kind of part of the 
process.
    With respect to the 1998 ARB recommendations, by the time I 
became Secretary, having succeeded two Secretaries who served 
during very dangerous and threatening times, there was an 
assessment made that I certainly was briefed into that we had 
to look at how best to professionalize the security and the 
expert advice that we were receiving. That was exactly what I 
did, and I went further than that. I created a new position, a 
Deputy Secretary for Resources and Management. I also had 
recommended, after our ARB, the Deputy Assistant Secretary for 
High Threats.
    So this was a constant discussion about how to make us 
secure, but not whether or not the Secretary of State should 
decide on the height of the barricades. I think that's where we 
may not be fully understanding one another, Congressman.
    Mr. Pompeo. I think we----
    Mrs. Clinton. Of course----
    Mr. Pompeo. I think we understand each other perfectly.
    Mrs. Clinton [continuing]. Specific questions about closing 
embassy chanceries and other official premises that were 
vulnerable and threatened, of course, they came to me. I had to 
make the decision. Deciding whether the wall would be 10 feet, 
12 feet, whether there would be three security agents or five, 
that was the province, as it should have been, of the 
professionals.
    Mr. Pompeo. Madam Secretary, here's another one from the 
1998 ARB. Quote, ``First and foremost, the Secretary should 
take a personal and active role in carrying out the 
responsibility of ensuring the security for U.S. diplomatic 
personnel abroad.''
    Do you believe you complied with that requirement from the 
1998 ARB?
    Mrs. Clinton. Yes, I do. I believe that I had established a 
process and I--you know, I said earlier today, State Department 
and our security professionals have to be 100 percent right. 
And I think that, you know, what happened in Benghazi was a 
tragedy and something that, you know, we all want to prevent 
from ever happening again, but there were many, many 
situations, many security issues that we had to deal with 
during the four years that I was Secretary of State. And I did 
leave what I hope will be a very important additional position, 
namely the Deputy for High-Threat Posts, that now will focus 
solely on what are considered the highest threat places in the 
world for our personnel.
    Mr. Pompeo. Madam Secretary, I hope you can understand the 
difference between creating a Deputy Under Assistant Secretary 
and America's senior diplomat getting involved in personnel 
security. The amount of resources that can be moved, the speed 
with which they will move rested only in your hands.
    Mrs. Clinton. Well, I just----
    Mr. Pompeo. I'll let----
    Mrs. Clinton [continuing]. Respectfully disagree with that, 
Congressman. It's been my experience that you want to find 
people who are dedicated 100 percent to security. You don't 
want a Secretary or anyone dipping in and out, maybe making 
decisions based on factors other than what the professionals 
decide, at least that is my very strong opinion.
    Mr. Pompeo. Yes, ma'am. Leaders lead.
    I want to--I've just got a few seconds. In all of the 
materials that have been produced to us today, I have not yet 
found the document that was prepared at your request for post-
Qadhafi planning. Did you have such a document prepared prior 
to the time that Mr. Qadhafi was removed?
    Mrs. Clinton. We had a number of documents. We had a long 
list of areas that we were working on and the process for 
following up on those areas. I don't know if it was one 
document or a dozen documents, but we had a lot of work that 
was ongoing, both at the State Department and at USAID.
    Mr. Pompeo. And did you ask for those documents to be 
prepared? Do you know if you had a team working on that or if 
it was just something that was happening of its own accord?
    Mrs. Clinton. We had a number of people who were working on 
that. There were--as I said, I sent both of my deputies out to 
Libya to meet with the Libyans. You know, we can do all the 
planning we want in Washington, but it's very important to ask 
the Libyans both what they want and what they expect from us, 
and so we had an ongoing dialogue that lasted over many months.
    Mr. Pompeo. Yes, ma'am. I agree with that. We'll get a 
chance to talk about that in a bit.
    I yield back.
    Chairman Gowdy. The gentleman yields back.
    The chair will now recognize the gentlelady from Illinois, 
Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Secretary Clinton, I apologize. My line of questioning will 
probably be a little bit boring because I'm going to get into 
some details that actually have to deal with security and how 
we can better safeguard America's diplomats now and onwards. 
You know, I have to say that the ARB conducted by Admiral 
Mullen, a man of great military pedigree and long service to 
this Nation, quite honorable, brave service, as well as 
Ambassador Pickering, I thought, was well conducted and well 
thought out. And, in fact, don't just take my word for it, I'm 
a pretty low ranking member of the House, but Buck McKeon, the 
former Republican chairman, long-time Republican chairman of 
the House Armed Services Committee also, you know--never once 
in our committee hearing did I hear him malign the work that 
was done in that ARB as we in our committee also looked into 
what happened.
    So I want to look at some of the findings from that ARB and 
I want specifically to examine the failures of the Blue 
Mountain Libya security guards and the February 13th militia on 
that exact day, September 11, 2012. My understanding is, in 
Benghazi, neither the host country's militia forces nor the 
State Department's private local guards were capable of 
defending our personnel. These poorly trained forces either did 
not show up; they retreated in the face of danger; or simply 
lacked the necessary tools to fight back effectively.
    I want to learn the lessons from Benghazi and hold everyone 
accountable, not just the State Department but every agency 
involved as well as Congress ourselves and this committee 
itself, for implementing significant comprehensive reforms that 
will prevent future tragedies.
    So, you know, looking at the work that I've done on the 
Armed Services Committee and on Oversight and Government 
Reform, I've been consistently concerned with the cost and 
consequences of federal contract mismanagement, which costs the 
American taxpayers a lot of dollars. So I want to look at the 
State Department's policy for awarding local guard contracts, 
using a very inflexible contract vehicle known as the Lowest 
Price Technically Acceptable, or LPTA, vehicle. I think that 
should have raised red flags here in Congress. When life and 
limb are at risk, such as when buying body armor for our troops 
overseas or barriers for our embassies, I don't know that 
Lowest Price Technically Acceptable is the right vehicle.
    So can you discuss a little bit why it is that the State 
Department appears to have awarded local guard contracts in 
Libya using this contracting method?
    Mrs. Clinton. Congresswoman, I think that's another very 
important question. I think the State Department, like much of 
the rest of the government, often feels under pressure to go to 
the lowest price, whether or not that lowest price is the best 
contract.
    And we had a lot of challenges, not just in Libya but in 
many places around the world, trying to work to find the right 
contractors to provide static security for a lot of our posts 
and facilities, to find more kinetic contractors who could be 
the frontline of defense since we, as we discussed earlier, 
were stationed in so many places where there were not American 
military that could be called and quickly respond. So I would 
like very much, and perhaps there could be a working group with 
Armed Services and Foreign Affairs and others to look to see 
whether we couldn't get a little more flexibility into this 
decisionmaking because the February 17th militia was viewed by 
the CIA, which had vetted it, as well as by our diplomats as a 
reliable source for kinetic support. Sometimes it worked, and 
sometimes it didn't. And the static support proved to be not 
very useful at all on that night.
    So I think you're really raising an important issue about 
how to get more flexibility into the contracting because we're 
not going to be able to bring American military forces to every 
place where we are in a high-threat post, either because the 
military can't afford to do that for us or because the host 
country won't invite us in.
    And the other problem, as you pointed out, is that if the 
host country doesn't have any real resources, it's hard to know 
how much they can produce. That night, I was calling the 
president of Libya and demanding that he find any friendly 
militia, any friendly anybody, to show up and to support us. 
When our reinforcements, the security reinforcements from 
Tripoli landed, a militia showed up and in fact kept them there 
until they had a big enough group to accompany them to the CIA 
Annex.
    So it's a very unpredictable and even erratic process, and 
it starts with, in many instances, the lowest price, and I 
don't think that's always the best way to get a contract for 
security.
    Ms. Duckworth. I happen to agree with you. And I think 
actually the LPTA requirement that I'm talking about that 
actually sets very inflexible standards for specifically the 
Department of State is actually a law passed by Congress in 
1990. So when you talk about maybe some sort of a working 
group, Congress needs to do our part and maybe amend a 35-year-
old law that actually forced the State Department to go with 
the lowest price.
    Secretary Clinton, can you address what actions Congress 
can take to fix problems that have to do with host country 
instituted stringent policies given the use of private security 
guards? My understanding is that the country of Libya, the host 
nation in this case, did not allow your security contractors to 
carry firearms, the Blue Mountain guards. I think the Blue 
Mountain guards were not allowed to carry firearms.
    Mrs. Clinton. That's right.
    Ms. Duckworth. Is that right?
    Mrs. Clinton. Yeah, the Blue Mountain was not. Certainly 
our Diplomatic Security officers were. The militia members, who 
were supposed to be providing kinetic help for us, were. So it 
was only the static guards that were not.
    Now, I will say that, you know, some of those guards did 
stand their ground. They were basically run over. Several of 
them were injured the night of the attack. So I don't want to 
cast aspersions on all of them and the service they provided, 
but it was not adequate for what we needed then or really at 
any time.
    Ms. Duckworth. Are we facing that same type of restriction 
in other nations as well, in other hot spots? We talked earlier 
about the 19 missions that are out there. Would these types of 
issues with the LPTA and contracting and as well as host nation 
requirements exist there?
    Mrs. Clinton. Yes, we do. You know, the host nation gets to 
call a lot of the shots. Under the Vienna Convention, the host 
nation is responsible for providing security for diplomatic 
posts, but when a host nation is either unwilling to do so, as 
we do have in some places where we are present, or unable to do 
so, because I do think with the Libyans, there was a desire to 
be helpful but not a capacity to produce what we needed, we 
have to really work hard to get the kind of support that is 
required. And, you know, in some cases, we've been able to work 
out arrangements with the host countries, some we have just 
defied them and tried to be very quiet about what we were 
doing, and others, you know, we are prohibited. So it's a 
constant--again, it goes back to that balancing of risk and 
reward that we're always doing.
    Ms. Duckworth. Going back to the ARB conducted by Admiral 
Mullen and Ambassador Pickering, how many of their 
recommendations did you as Secretary of State accept?
    Mrs. Clinton. I accepted all of them. They made 29 
recommendations, Congresswoman. I accepted all 29 of them and 
began to implement them before I left the State Department, and 
I know that Secretary Kerry has continued that work.
    Ms. Duckworth. Do you recommend for future Secretaries and 
for this committee and other members of Congress some sort of a 
formal review process as we go forward? I don't want there to 
be a review process that is triggered by death of Americans.
    Mrs. Clinton. Uh-huh.
    Ms. Duckworth. This goes back to my earlier question about 
institutionalization of this process so that we make sure that 
our men and women in embassies right now are safe and that 
they're safe tomorrow and a year from now and 10 years from 
now. What needs to be done so that we can make sure that our 
four heroic dead did not lay down their lives in vain?
    Mrs. Clinton. Well, Congresswoman, before the attacks in 
Benghazi, the Congress never fully funded the security requests 
that the administration sent to Congress. Following Benghazi, 
that has improved, but there are still areas where I think 
greater funding and responsiveness would be helpful. It was 
unfortunate that we didn't get all the resources that might 
have enabled us to do more in all the high-threat posts before 
Benghazi, but I appreciate what the Congress has done since.
    The one specific recommendation that I would like to see 
the Congress act on expeditiously is the training facility that 
would be set up in order to train Diplomatic Security officers 
specifically for these high-threat situations. And I think this 
is overdue. I know that on a bipartisan basis, representatives 
from Virginia, which is the state where the site that has been 
identified is found, have urged in a recent op-ed that the 
Congress act on this. I would certainly echo that as well.
    Ms. Duckworth. Thank you.
     I yield back.
    Chairman Gowdy. I thank the gentlelady.
    Madam Secretary, they've called votes, but we're going to 
try to get in Mr. Roskam.
    And I'm going to recognize Mrs. Brooks for 10 seconds 
before Mr. Roskam.
    Mrs. Brooks. Thank you, Mr. Chairman.
    And just to clarify for the record, I made a statement 
previously that we had received none of Undersecretary Patrick 
Kennedy's emails. We've received some through production of 
other individuals' emails. We have not received a full 
production of Undersecretary Patrick Kennedy's emails. So I 
just wanted to clarify, we do have some, but it is through 
other email production.
    Thank you. I yield back.
    Chairman Gowdy. Yes, ma'am.
    The gentleman from Illinois.
    Mr. Roskam. Thanks.
    Secretary Clinton, can I just direct your attention to the 
screen?
    [Video shown.]
    Mr. Roskam. You're familiar with that clip, ``We came, we 
saw, he died''? Is that the Clinton doctrine?
    Mrs. Clinton. No. That was an expression of relief that the 
military mission undertaken by NATO and our other partners had 
achieved its end, and therefore, no more American, European, or 
Arab lives would be at stake in trying to prevent Qadhafi from 
wreaking havoc on Libyans or causing more problems to the 
region and beyond.
    Mr. Roskam. I want to direct your attention and maybe 
direct the group's attention right now to something that hasn't 
really been discussed. There has been this explicit criticism 
of Republicans being partisans today, but I want to direct your 
attention to what is actually going on with you and your team, 
many of whom are here today with you.
    So Jake Sullivan, one of your close advisors that you just 
told us about, put together the tick tock on Libya memo, and 
that was a memo that was all about you. It put together 22 
different accomplishments, and you were the central figure in 
all 22 of those accomplishments.
    And I've got to tell you, it's really well-put-together. He 
uses language of ``action'' and ``initiative'' and 
``leadership.'' Let me just give you a couple of these. HRC, 
that's you obviously, announces, directs, appoints special 
envoy, travels to G8, secures Russian abstention, secures 
transition of command and control, travels to Berlin, Rome, Abu 
Dhabi, Istanbul. He's basically laying the foundation that the 
Libya policy is your policy. Essentially, he's making the 
argument that it's your baby.
    And you are clearly familiar with this timeline because in 
email exchanges with your senior staff, you were not happy 
about it. And the part that you weren't happy about wasn't that 
you were the focal point, it's that it didn't include enough. 
So you said, this is your email: What bothers me is that the 
Policy Office prepared the timeline, but it doesn't include 
much of what I did.
    Another time, you said: The timeline is totally inadequate, 
which bothers me about our record-keeping--and I'll come back 
to that in a minute, Madam Secretary--for example, I was in 
Paris on 3/19 when the attack started. It's not on the 
timeline. What else is missing? Go over as soon as possible.
    Now, this timeline was put together, according to your 
senior staff, explicitly for an article that came out in the 
Washington Post entitled ``Clinton's Key Role in Libya 
Conflict.'' And, in fact, according to your staff, ``The 
comprehensive tick tock memo Jake had put together was done in 
large part for the Warrick piece.'' It was a piece written by 
Joby Warrick at the Washington Post. And, again, according to 
your staff, the great detail Joby had came entirely from Jake. 
That's Jake Sullivan. Joby didn't do any independent research. 
That's according to your staff.
    Now, this article is one of these articles that you read a 
couple of times if it's about you. Here are some excerpts. 
Washington Post: A foreign policy success for the Obama 
administration and its most famous Cabinet minister, Secretary 
of State Hillary Rodham Clinton.
    Or this: She went to Paris. There were no instructions from 
the White House on whether to support strong action in Libya, 
said a senior State Department official, yet within 3 days, the 
official said, Clinton began to see a way forward.
    And I think my personal favorite is this: Clinton, ignoring 
the advice of State Department lawyers, convinced Obama to 
grant full diplomatic recognition to the rebels.
    Now, you and your team were pleased with the work that you 
did and the risks that you took, the leadership that you took. 
A couple--you know, a couple of hours ago, you told me: Hey, 
I'm the diplomat here; I'm driving the policy. And isn't it 
true that you'd been thinking about getting political credit, 
actually, for months on this?
    Mrs. Clinton. No.
    Mr. Roskam. Well----
    Mrs. Clinton. We were----
    Mr. Roskam [continuing]. If that's your answer----
    Mrs. Clinton. We were trying----
    Mr. Roskam [continuing]. Let me draw your attention, Madam 
Secretary----
    Mrs. Clinton. But, Congressman, you--you--let me, please--
--
    Mr. Roskam. All right. Sure enough.
    Mrs. Clinton [continuing]. If I could.
    Mr. Roskam. Go ahead.
    Mrs. Clinton [continuing]. We were trying to make sure that 
what was written, because it's not always accurate, in case you 
all haven't noticed in your own careers, what was written about 
a very important foreign policy effort by this administration 
was accurate. This was all in response, as I understand it, to 
a reporter trying to ask questions and us providing the best 
possible information we could; in fact, trying to make sure 
that we ourselves had a good timeline and that our record-
keeping was accurate.
    I think that is not an uncommon experience here in 
Washington: somebody calls you up, says, ``I'm writing a story; 
what can you tell us?'' And you tell them.
    Mr. Roskam. Well, Secretary Clinton, that's not all that 
was going on, though. Isn't that right? Because you knew that 
this was good for you because this is what you were writing in 
August, August of 2011. This is right after Tripoli fell. You 
wrote: What about the idea of my flying to Martha's Vineyard to 
see the President for 30 minutes and then making a statement 
with him alone?
    Or you asked your staff how to convince the White House 
that this would be good for the President.
    And these are your words, Madam Secretary: It's a great 
opportunity to describe all that we've been doing before the 
French try to take all the credit.
    In fact, your staff told you that they thought it would be 
a political boost for the President showing that he was 
huddling with you instead of being on vacation. And so you 
asked your chief of staff, Cheryl--or Jake Sullivan asked your 
chief of staff, Cheryl Mills, to call Denis McDonough, now the 
President's chief of staff, to put together a full-court 
press--I'll wait while you read Jake's note.
    Mrs. Clinton. Thank you, because I don't understand----
    Mr. Roskam. Here's my question.
    Mrs. Clinton. Yeah. I don't--yeah. I'm waiting for a 
question.
    Mr. Roskam. Well, go ahead. You finish reading, and I'll 
start talking.
    Mrs. Clinton. Well, one thing I wanted, which is----
    Mr. Roskam. Well, I'll----
    Mrs. Clinton. Since I don't have----
    Mr. Roskam. Are you waiting for the question?
    Mrs. Clinton. Since I don't have what you're reading----
    Mr. Roskam. Oh. Here, I'll--it's page----
    Mrs. Clinton [continuing]. In front of me, Congressman----
    Mr. Roskam. It's tab 12.
    Mrs. Clinton. Well, that has now been handed to me. And 
it's clear that I wanted to make sure Chris Stevens, Jeff 
Feltman, DOD, got credit. I wrote that. You did not quote that.
    Mr. Roskam. Yeah. But you're----
    Mrs. Clinton. Yeah. Well----
    Mr. Roskam. This is all about your state of mind at that 
particular point. You were not--you were thinking about credit 
for you. Isn't that right?
    Mrs. Clinton. No, that's not. I wanted those who were part 
of this policy to be given recognition, and I also wanted to be 
sure that we had the President and the White House coordinating 
with us. It was a very gutsy decision for the President to 
make, Congressman. It was not by any means an easy call. As I 
alluded earlier this morning, I was in that Situation Room 
many, many times watching the President have to balance 
competing interests, competing opinions, trying to make a 
decision. When he made the decision that the United States 
would support NATO and support the Arabs, there was no 
guarantee about how it would turn out. And I personally believe 
he deserved a lot of credit, as did Chris Stevens, Jeff 
Feltman, the Department of Defense, and others.
    We had a daily phone call, a daily secure phone call that 
often included the President, included, you know, the generals 
responsible--generals and the admirals responsible for our 
mission, included our top diplomats. This was a very important 
and challenging effort that we undertook in large measure to 
support our NATO allies. So I wanted everybody who had any role 
in it to be acknowledged.
    Mr. Roskam. Well, and then, on August 2011, you received an 
email from Sidney Blumenthal, that's tab 11, in which he wrote 
this to you: ``This is a historic moment, and you will be 
credited for realizing it. When Qadhafi himself is finally 
removed, you should, of course, make a public statement before 
the cameras wherever you are, even in the driveway of your 
vacation home. You must go on camera.''
    That was Blumenthal's admonishment to you.
    Mrs. Clinton. And I don't recall doing that, just----
    Mr. Roskam. Well----
    Mrs. Clinton [continuing]. In case you're going to ask me.
    Mr. Roskam. Yeah. But, I mean, look at the timing. You 
forwarded Blumenthal's suggestion to Jake Sullivan, and you 
were focused on how dramatic it would be. You were working to 
make this the story of the day. Isn't that right? This is your 
email to Jake. This is tab 11. This is your words, Madam 
Secretary: ``Sid makes a good case for what I should say, but 
it's premised on being said after Qadhafi goes, which will make 
it more dramatic. That's my hesitancy, since I'm not sure how 
many chances I'll get.''
    So 2 months before the end of the Qadhafi regime, and 
you're already planning on how to make your statement dramatic 
to maximize political gains. Isn't that right?
    Mrs. Clinton. Congressman, I think that what we were trying 
to do was to keep the American people informed about this 
policy. It was, as you recall, somewhat controversial. Now, 
there were Republicans as well as Democrats who advocated for 
it, and there were Republicans as well as Democrats who were 
concerned about it. So I think as Secretary of State, I did 
have an obligation at some point to be part of the public 
discussion about what had occurred, and I see nothing at all 
unusual about trying to figure out when would be the best time 
to do that.
    Mr. Roskam. Isn't it true that your staff heard from the 
White House after the Warrick piece in the Washington Post that 
they were concerned, that is, the White House, of the amount of 
credit that you were getting as opposed to the amount of credit 
the President's getting? That's true, isn't it, Madam 
Secretary?
    Mrs. Clinton. Look, the President deserves the lion's share 
of the credit. He was the----
    Mr. Roskam. Then why is the White House uptight that you're 
taking the credit?
    Mrs. Clinton. Well, I was often being asked that. The 
President had a lot of other stuff going on. He was still 
trying to, you know, rescue the economy, a lot of other things 
happening. So, from my perspective, the President deserves the 
credit. He's the one who made the decision. I was honored to be 
part of the team that advised him, and insofar as I was able to 
explain what we did and what the import of it was, I was ready 
to do so.
    Mr. Roskam. So when Jake Sullivan, tab 11, emails you and 
said that you wanted--you should publicize this in all of your 
television appearances, that he wanted to, ``have you lay down 
something definitive, almost like the Clinton Doctrine.'' That 
wasn't the Obama doctrine. Is that right, Madam Secretary?
    Mrs. Clinton. Well, I think what----
    Mr. Roskam. This was the Clinton Doctrine.
    Mrs. Clinton. Well, look, I think that the effort we made, 
the way we put together the coalition, the way I put together 
the coalition that imposed sanctions on Iran, I think that 
there is a lot to talk about. I talked about smart power. If 
you're talking about what I believe, I believe we have to use 
every tool at our disposal, lead with diplomacy, support with 
development, and when necessary, as a last resort, not a first 
choice, defense. So, yes. Is that what I believe? It is what I 
believe. And I think that, you know, Libya was, to some extent, 
an example of that.
    Mr. Roskam. And you were the author of the Libya policy. 
You were the one that drove it. It was your baby. It was an 
attempt to use smart power, and that's what you tried to do. 
Isn't that right?
    Mrs. Clinton. It certainly was something that I came to 
believe was in the interests of the United States to join with 
our NATO allies and our Arab partners in doing. The decision, 
as all decisions in any administration, was made by the 
President. So the President deserves the historic credit. What 
role I played, I'm very grateful to have had that chance, and 
I'm, you know, very convinced that it was the right thing to 
do.
    Mr. Roskam. Well, you just recited the Clinton Doctrine to 
us, and let me tell you what I think the Clinton Doctrine is. I 
think it's where an opportunity is seized to turn progress in 
Libya into a political win for Hillary Rodham Clinton, and at 
the precise moment when things look good, take a victory lap 
like on all the Sunday shows three times that year before 
Qadhafi was killed, and then turn your attention to other 
things.
    I yield back.
    Mrs. Clinton. Well, Congressman, that is only a political 
statement, which you well understand. And I don't understand 
why that has anything to do with what we are supposed to be 
talking about today.
    Chairman Gowdy. Madam Secretary, votes have been called, so 
we will go vote and be in recess. And we will be back as 
quickly as we can.
    [Recess.]
    Chairman Gowdy. The committee will come to order.
    Thank you, Madam Secretary. Again, we apologize for that 
vote series.
    And, with that, we will go to the gentlelady from Alabama, 
Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman.
    Secretary Clinton, I want to talk to you about August 17, 
2012. On that day, you received two memos about Libya and its 
security. The first one described a deteriorating security 
situation and what it meant for your people on the ground. The 
second one also described Libya's security as, in simple terms, 
``a mess.''
    So this memo wanted you to approve $20 million to be given 
to the Libyan Government to bolster its----
    Mrs. Clinton. Could you tell me what tab that is on the 
materials that you have----
    Mrs. Roby. Oh, sure, yes ma'am. The first one is, I 
believe, 33 and 34.
    Mrs. Clinton. Thank you.
    Mrs. Roby. I apologize.
    So you received those two memos. The second one also 
described Libya's security in simple terms as ``a mess.'' And 
it was, again, that you were approached about approving this 
$20 million that we have referred to as the contingency fund, 
$20 million that would have gone to the Libyan Government to 
bolster their own security there in country. And then, in fact, 
a few days later, you approved that $20 million.
    And I am going to get back to that in a minute, but I want 
to circle back, based on those two memos, to some questions 
that my colleague Mr. Pompeo asked about the 1998 ARB. You had 
talked about, in that line of questioning, that you, in fact, 
had made the decision to close some embassies based on the 
premise that--the 1998 ARB recommended the Secretary of State 
should personally review the security situation. You made a 
distinction between whether the walls should be 10 foot high 
versus whether or not it was a highly vulnerable situation.
    And so I wanted to ask you, when I was listening to that, 
knowing that I was going to address these August 17 memos, I 
wanted to ask you, when you were looking at these two memos on 
August 17--one said their security was in disarray, and the 
other said they paint a picture of a country in chaos. And I 
wanted to just ask you, in your opinion, as a Secretary of 
State that had closed embassies, whether those references to 
the security situation in Libya would amount to one as ``highly 
vulnerable,'' per your own words.
    Mrs. Clinton. Congresswoman, I want to answer your 
question, but I think we need the right tabs.
    Mrs. Roby. Excuse me, 8 and 32. I apologize.
    Mrs. Clinton. Thank you very much. Let me take a look at 
those, 8 and 32.
    On August 17, there was a memo from Beth Jones, the Acting 
Secretary of State, describing a spike in violence and 
characterizing it as perhaps a new normal.
    It is, very clearly, something that we were following, as I 
have said throughout the hearing today. It said that the 
International Committee of the Red Cross had withdrawn 
personnel from Benghazi and Misrata but continued to work in 
the rest of Libya. It also pointed out that there is a lack of 
effective security and that the transition, the kind of 
transition we wanted to see for the people of Libya and 
particularly in Benghazi, was not as forthcoming from the 
Libyans themselves.
    I think that the description here is certainly something 
that we were aware of, and a list of recent violence in Libya 
is something we were aware of. And the ongoing monitoring of 
the situation in Libya is something we took very seriously.
    I can tell you that these kinds of assessments were not 
uncommon for other places, high-threat, dangerous, unstable 
places, even war zones, where we were also operating.
    Mrs. Roby. Would you categorize those type of descriptions 
as ``highly vulnerable''?
    Mrs. Clinton. Well, I think that, again, there was no 
recommendation based on any of the assessments, not from our 
State Department experts, not from the intelligence community, 
that we should abandon either Benghazi or Tripoli.
    Mrs. Roby. Right, and I understand that.
    And, Secretary Clinton, you know, I guess one of the 
questions that we need answered is: You were a huge advocate 
for our presence there to begin with. What prevented you from 
making the decision, based on the knowledge that you had from 
these memos about the deteriorating security situation, what 
prevented you, as Secretary of State, from making that decision 
on your own?
    Mrs. Clinton. Well, Congresswoman, I took into 
consideration a wide variety of factors. There were a number of 
places where violence would spike and we would have to make a 
decision.
    At this point, what we were trying to do was work with the 
Libyan authorities. That's what the August 17 memo from Deputy 
Secretary Nides refers to. We were trying to provide additional 
security assistance so that the Libyans could do more to assist 
themselves.
    And, you know, it is the case that in the world we are in 
today there are a lot of places that are dangerous. Violence 
goes up and goes down. Part of what Acting Assistant Secretary 
Beth Jones was referencing in this memo is this is a new--is 
this a new normal?
    And the Secretary does personally oversee the decision to 
order departure or shut down posts. And it is important to take 
that ultimate responsibility very much to heart, which I did. 
But I think that there was no recommendation to do that.
    And, again----
    Mrs. Roby. All right.
    Mrs. Clinton [continuing]. I was following it. I was 
watching it. I was trying to, you know, make a very well-
reasoned analysis. But I was also listening to the people who 
were both on the ground and with a lot of experience, who had 
served in Iraq----
    Mrs. Roby. Right.
    Mrs. Clinton [continuing]. Afghanistan, Pakistan, Yemen, 
other places like that, and there was no recommendation.
    Mrs. Roby. Secretary Clinton, what I am trying to make a 
distinction between is the decisions you made with respect to 
Benghazi and decisions that your staff made with respect to 
Benghazi. But I am already running out of time, so I do want to 
get back to that $20 million that we talked about.
    On numerous occasions, the finger has been pointed at 
Congress for not properly funding the security--or the funding 
not being available for the security requests. Yet I find it 
curious that you were able to find $20 million to support 
increased security forces in Libya, yet we weren't able to find 
money to support your own people on the ground. And, you know, 
particularly in light of the fact that Mrs. Lamb said that 
funding wasn't an issue.
    So I think that it has been a little bit misleading to say 
it is Congress' fault, but then, also, it is worth pointing out 
that there was $20 million found for Libyan security and no 
dollars found to support the increased security of our own 
people.
    Mrs. Clinton. Well, as I know you are aware, Congresswoman, 
the Congress sets spending levels in categories of spending. 
And, as I said earlier, the requests for diplomatic security to 
do exactly what you are referencing were underfunded. They were 
underfunded continuously. I am pleased that, following the 
tragedy at Benghazi, we began to get more support from the 
Congress.
    But one of the funds that is very important when you're 
actually talking about an American presence in the country goes 
back to questions that I was being asked by Congresswoman 
Duckworth. If we can help build up the Libyan security forces, 
they are the host country; it is their responsibility to 
protect diplomatic posts.
    So I don't see these as unconnected. But it is true that we 
spent money for diplomatic security out of what the Congress 
appropriated for diplomatic security.
    Mrs. Roby. Right, but, Secretary Clinton, Charlene Lamb 
said herself it wasn't a budget issue. Would you take issue 
with that statement?
    Mrs. Clinton. Well, I can only tell you that our analysis 
of the underfunding of security for our diplomatic posts was 
very much in line with what I have just said, that we asked for 
money in this administration in the earlier years, and we were 
underfunded.
    And so I can tell you that it would have been very helpful 
to have more money for diplomatic security. And I want to thank 
the Congress for upping the amount of money that went to 
diplomatic security, working with the Defense Department to get 
more Marines deployed to more posts and the other actions that 
have been taken post-Benghazi.
    Mrs. Roby. And we appreciate that. Although, again, I 
really think there is a conflict between Charlene Lamb's 
statement and some that you have made about that.
    But, real quickly, Mr. Chairman, I want to run through one 
quick timeline and make an observation.
    On August 17, you received a memo on the deteriorating 
security in Libya. The same day, you were asked to give $20 
million to the Libyan Government to beef up its own security. 
Your department issued a warning telling American citizens to 
get out of Libya and not to travel there. And then Libya itself 
issued a, ``maximum alert'' for Benghazi.
    You several times made the statement--and we believe you--
that Ambassador Stevens was your friend. And I am wondering 
why, with all of this in front of you, the Secretary of State, 
why did it not occur to you to pick up the phone and call your 
friend?
    I know you have mentioned experts. I know you have said 
that Ambassador Stevens and other diplomats go into these high-
threat situations with their eyes wide open. But I just want to 
hear from you why, with all of this information in front of 
you, particularly on the date of August 17, did it not occur to 
you to pick up the phone and call your friend Ambassador 
Stevens and ask him what he needed?
    Mrs. Clinton. We knew what he was asking for. Those 
requests went to the security professionals.
    And I would only add, with respect to the travel warning, 
we issued travel warnings for many, many places in the world. 
They are really aimed at informing American travelers, business 
travelers, tourists about conditions that they might face if 
they go to countries. They are not a criterion for determining 
whether we keep or end a diplomatic presence.
    And I just want to go back to the point you were making and 
read from the Accountability Review Board.
    ``For many years, the State Department has been engaged in 
a struggle to obtain the resources necessary to carry out its 
work, with varying degrees of success. This has brought about a 
deep sense of the importance of husbanding resources to meet 
the highest priorities--laudable in the extreme. But it has 
also had the effect of conditioning a few State Department 
managers to favor restricting the use of resources as a general 
orientation.
    ``It is imperative for the State Department to be mission-
driven rather than resource-constrained. And one overall 
conclusion in this report is that Congress must do its part to 
meet this challenge and provide necessary resources to the 
State Department to address security risks and meet mission 
imperatives.''
    Mrs. Roby. My time is out, and I am afraid my chairman is 
going to tell me to be quiet, but the last----
    Chairman Gowdy. Well, I am not going to tell you to be 
quiet. I am just going to ask you if you might hold it. I am 
going to try to be a little quicker on the gavel than I have 
been, just in the interest of time.
    Mrs. Roby. Okay. I will circle back then. Thank you. I 
yield back.
    Chairman Gowdy. I would recognize the gentleman from 
Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Let me say that, Madam Secretary and committee, the August 
17, 2012, information memo just referenced is not something 
new.
    Mrs. Clinton. That's right.
    Mr. Cummings. It's not something that this committee 
uncovered.
    Mrs. Clinton. That's right.
    Mr. Cummings. In fact, Congress has had the information 
memo for years. It was attached as an exhibit to the Benghazi 
ARB report that Secretary Clinton sent to Congress before her 
testimony to Congress in January of 2013. The ARB had it and 
considered it important enough to append it to its report. And 
Congress already questioned the Secretary about her awareness 
of security conditions in Libya in the run-up to the attacks.
    Mrs. Roby. Will the gentleman yield?
    Mr. Cummings. We just gave you an extra 3 minutes. I have 
got to use my time. I'm sorry. If I have extra time, I will 
give it to you.
    Within months of the attacks, the Republican investigations 
of Benghazi have begun, and the chief investigator, Madam 
Secretary, who was chairman of the House Oversight Committee, 
Darrell Issa, made it clear that his efforts were directed at 
you as he spoke at a political event in New Hampshire. Chairman 
Issa had said he came to that political event in New Hampshire 
to, ``shape the debate for 2016.'' How right he was. In that 
event, Chairman Issa explained--can we roll the tape, please?
    [Video shown.]
    Mr. Cummings. The idea that you would intentionally take 
steps to prevent assistance to Americans under attack in 
Benghazi is simply beyond the pale. The claim has also been 
disproven multiple times over. First, it was disproved by the 
ARB, which issued its report at the end of 2012. Admiral 
Mullen, former Chairman of the Joint Chiefs of Staff had led 
the ARB's military review and concluded that the military had, 
``Done everything possible that we could.''
    Then the Republican-led--the Republican-led--House Armed 
Services Committee issued its report in February of 2014, Madam 
Secretary, which detailed all of the steps taken by the 
military to mobilize upon hearing of the attacks, including 
immediately redirecting a surveillance drone to Benghazi; 
ordering two Marine FAST platoons to Rota, Spain, to deploy, 
one bound for Benghazi and the other for Tripoli; ordering the 
commanders in in-extremis force training in Croatia to move to 
a U.S. naval air station in Sigonella, Italy; and dispatching a 
Special Operations Unit to the region from the United States.
    About his review, the chairman, Howard ``Buck'' McKeon, a 
Republican, stated: ``I think I've been pretty well satisfied 
that given where the troops were, how quickly the thing all 
happened, and how quickly it dissipated, we probably couldn't 
have done more than we did.''
    Chairman Issa's Oversight Committee, which I am the ranking 
member of, even spent years actively pursuing evidence for this 
claim and found nothing. And as it says in the Democratic 
report we put out on Monday, none of the 54 individuals 
interviewed by our select committee has identified any evidence 
to support this Republican claim against you. In fact, not one 
of the nine congressional and independent investigations has 
identified any evidence to support this assertion in the last 3 
years.
    My question: I sincerely hope this puts this offensive 
claim to rest once and for all. I'm asking you, Madam 
Secretary, did you order Defense Secretary Leon Panetta to 
stand down on the night of the attacks?
    Mrs. Clinton. Of course not, Congressman, and I appreciate 
your going through the highlights of the very comprehensive 
report that the House Armed Services Committee did on this. I 
think it's fair to say everybody, everybody, certainly Defense 
Secretary Panetta, Joint Chiefs of Staff Chairman Dempsey, 
everybody in the military scrambled to see what they could do, 
and I was very grateful for that. And as you rightly point out, 
logistics and distance made it unlikely that they could be 
anywhere near Benghazi within any kind of reasonable time.
    Mr. Cummings. Now, Madam Secretary, the Benghazi attacks 
occurred during a period of significant upheaval and intense 
volatility in the Middle East and North Africa. There was 
tremendous unrest throughout the region. I would like to play a 
clip that shows what was happening at dozens of posts 
throughout the world, and then I would like to get your 
reaction if you can. Please, play the tape.
    [Video shown.]
    Mr. Cummings. Secretary Clinton, what was your sense of how 
things were unfolding?
    Mrs. Clinton. Congressman, they were very dangerous and 
very volatile. Starting on Monday with the attack on our 
Embassy in Cairo, going all the way through that week into the 
next week, there were numerous protests, some of which you have 
shown us clips of. And they were dangerous. You know, the one 
that I was particularly concerned about happened in Tunis, and 
it was the Friday after the attack in Benghazi. We knew from 
monitoring the media, from reports coming in from our embassies 
throughout the region, that this was a very hot issue. It was 
not going away. It was being kept alive. We were particularly 
worried about what might happen on Friday because Friday is the 
day of prayers for Muslims, so we were on very high alert going 
into Friday.
    I got a call through our operations department from our 
Ambassador in Tunis, who was in the safe room in the Embassy in 
Tunisia. There were thousands of demonstrators on the outside. 
They were battering down the barriers and the walls around our 
Embassy. They had already set on fire the American school, 
which is very close to the Embassy. And the Ambassador and his 
team were desperate for help. Their calls to the government of 
Tunisia, the host government had gone under answered. I 
immediately got on the phone, calling the Foreign Minister, 
calling the Prime Minister, who were the heads of government. I 
could not find either one of them. I called the President, 
President Marzouki. I got him on the phone. I told him he had 
to rescue our people. He had to disperse the crowds that were 
there because of the video.
    He said: I don't control the Army. I have nothing I can do.
    I said: Mr. President, you must be able to do something. 
I've got all of my people inside the Embassy. They are being 
attacked. If the protesters get through into the Embassy, I 
don't know what will happen.
    He said: Well, you know, I do have a presidential guard.
    I said: Mr. President, please deploy your presidential 
guard. At least show that Tunisia will stand with the United 
States against these protesters over this inflammatory video.
    To his great credit and to my great relief, that is exactly 
what he did. He sent the presidential guard. Those of you who 
have traveled know that sometimes they are, you know, men in 
fancy uniforms, sometimes they are on horses, but he sent them. 
He sent whatever he could muster to our rescue. And the crowd 
was dispersed. The damage was extensive. But we, thankfully, 
did not have anything other than property damage to the Embassy 
and to the American school. And the government of Tunisia later 
helped us to repair that. But it was the kind of incredibly 
tense moment, we had protesters going over the walls of our 
Embassy in Khartoum. We had protests, as you rightly point out, 
all the way to Indonesia. Thankfully, no Americans were killed, 
partly because I had been consistent in speaking out about that 
video. From the very first day when we knew it had sparked the 
attack on our Embassy in Cairo, I spoke about it because I 
wanted it to be clear to every government around the world that 
we were going to look to them to protect our facilities. And it 
was a very tense week, Congressman, one that I think 
demonstrated how volatile the world is, and how important it is 
for the United States to be on top of what people themselves 
are reacting to. And that's what I tried to do during that 
time.
    Mr. Cummings. Thank you, thank you very much.
    Chairman Gowdy. I thank the gentleman from Maryland.
    The chair will now recognize the gentleman from Georgia, 
Mr. Westmoreland.
    Mr. Westmoreland. Madam Secretary, I want to thank you for 
giving us a play-by-play of what happened in Tunisia.
    Could you do the same thing for what happened in Benghazi? 
Could you tell us the same kind of play-by-play about who came 
to the rescue there? Because I don't know of anybody that did. 
So I don't know who you called, and their lack of ability to 
get anybody there. It is just hard for me to comprehend why you 
would give us that blow-by-blow of something that we are not 
even investigating here, but we appreciate it. But I do want to 
ask you.
    Mrs. Clinton. Well, Congressman if I could----
    Mr. Westmoreland. Sure.
    Mrs. Clinton. Several of you have raised the video and have 
dismissed the importance of the video. And I think that is 
unfortunate because there's no doubt, and as I said earlier, 
even the person we have now arrested as being one of the ring 
leaders of the attack on our compound in Benghazi is reputed to 
have used the video as a way to gather up the attackers that 
attacked our compound.
    So I think it's important. These are complex issues, Mr. 
Congressman, and I think it's important that we look at the 
totality of what was going on. It's like that terrible incident 
that happened in Paris.
    Mr. Westmoreland. I got you.
    Mrs. Clinton. Cartoons sparked two Al Qaeda-trained 
attackers who killed, you know, nearly a dozen people.
    Mr. Westmoreland. Reclaiming my time.
    Mrs. Clinton. I think it is important that you, as Members 
of Congress, looking into these issues, that you look at the 
totality so we can learn the best lessons to try to----
    Mr. Westmoreland. Yes, ma'am, reclaiming my time. Let me 
ask you about a little thing. You said that you spent a lot of 
sleepless nights. And I can't imagine. And you said you often 
wondered what you could have done different. What did you come 
up with?
    Mrs. Clinton. Oh, a long list, a long list, Congressman.
    Mr. Westmoreland. Give me the top two.
    Mrs. Clinton. Well, to go back to the point that 
Congresswoman Duckworth was raising about contractors, if we'd 
had a more reliable security force in large enough numbers, 
well armed and well focused on protecting our compound----
    Mr. Westmoreland. Well, what could you have done different 
than what you did do?
    Mrs. Clinton. Well, I'm trying to tell you. I think if the 
militia that had been engaged by both the CIA and the State 
Department had been more reliable----
    Mr. Westmoreland. But you didn't have anything to do with 
that, you said.
    Mrs. Clinton. But I made a long list, Congressman, about 
anything that anybody could have done. And that's how I looked 
at it. I looked at it from the perspective of, what are the 
many pieces? Contracting is a part of that. There are many 
other issues that we need to address. That's really the main 
reason I'm here to continue to try to do what I can to honor 
those who were lost and to make sure that, you know, we are 
well-prepared to try to prevent. Now, we know we can't prevent 
everything--that's the way the world is--but to do the very 
best we can, and there are many elements that go into that.
    Mr. Westmoreland. Well, the contractors would be number 
one. What would be number two?
    Mrs. Clinton. Well, if there had--I don't think that's an 
unimportant point. We had a militia. We had an unarmed static 
force that probably couldn't have done much more. It should, I 
think, inspire us to look for ways to get host countries to 
permit there to be more dedicated security forces, well-enough 
armed and trained, to be really a force to protect our 
compounds and our other facilities. That would have perhaps 
made a difference.
    Mr. Westmoreland. Okay.
    Mrs. Clinton. It certainly, you know, might have made a 
difference if we had more help from the CIA there on the 
compound, if maybe we had a rotating presence, but I have to--I 
have to say in reviewing a lot of the analyses that have been 
made by security experts, very well-trained, experienced 
security people, they are not sure that anything would have 
stopped the attackers. And I know that Admiral Mullen when he 
went into his work for the ARB, was concerned that none of the 
Diplomatic Security officers had fired a shot. They had their 
weapons.
    Mr. Westmoreland. Ma'am, I'm not trying to cut you off. I 
have tried to be nice, and you are doing well. We both talk 
slow, so let's give each other a little breathing room here.
    You talked about Ms. Victoria Nuland. You know her, right?
    Mrs. Clinton. Yes, I do.
    Mr. Westmoreland. Okay. This was her briefing on September 
the 13th. Some reporter named Elise had asked her a question 
about the security, and her response was: ``I'm going to reject 
that, Elise. Let me tell you what I can about the security on 
our mission in Benghazi. It did include a local Libyan guard 
force around the outer perimeter.'' That guard force never 
showed up that night, and it did not normally patrol the outer 
perimeter. The only people that patrolled the outer perimeter, 
was the unarmed Blue Mountain. But, she said: ``This is the way 
we work in all of our missions all around the world, that the 
outer perimeter is the responsibility of the host government,'' 
which there wasn't really a host government at the time. 
``There was obviously a physical perimeter barrier, a wall, and 
then there was a robust American security presence inside the 
compound.''
    I don't think five DS agents, not fully equipped or armed 
for what they were facing, you could call a robust American 
security presence.
    Mrs. Clinton. Well, Congressman----
    Mr. Westmoreland. Would you have used the word ``robust''?
    Mrs. Clinton. I would certainly have said that the security 
on that night was reliant on a militia that did not perform as 
had been expected.
    Mr. Westmoreland. I am not talking about the militia on the 
outside. I am talking about the robust----
    Mrs. Clinton. Well----
    Mr. Westmoreland [continuing]. American presence on the 
inside.
    Mrs. Clinton. It was considered robust in the sense that 
the request had been for five Diplomatic Security officers to 
accompany the Ambassador. There were five there. And they did, 
as I have testified to, the very best they could. They were 
armed.
    And in the course of the thorough investigation conducted 
by the Accountability Review Board, as I was saying, Admiral 
Mullen zeroed in on this, having, you know, more than 40 years' 
experience in the military. And he wanted to know why the DS 
agents had not fired their weapons. And they explained, as many 
since have heard who have interviewed them, their assessment 
was that it would have resulted in the loss of even----
    Mr. Westmoreland. Yes, ma'am.
    Mrs. Clinton [continuing]. Greater life, and they chose not 
to. And Admiral Mullen reached the conclusion that they acted 
appropriately.
    So, even though we had the five DS agents that had been 
requested, they were overrun and unable to do more than they 
did.
    Mr. Westmoreland. They were overrun because they didn't 
have any defensive positions to fight from because they refused 
to give them additional sandbags because they did not want it 
to look like a military compound. I have heard that testimony.
    I want to ask you about the FEST. Are you familiar with the 
FEST?
    Mrs. Clinton. Yes.
    Mr. Westmoreland. What is the FEST, Madam Secretary?
    Mrs. Clinton. It is an emergency support team to help stand 
up embassies that have or consulates or other facilities that 
have been impacted by either natural disasters or some kind 
of----
    Mr. Westmoreland. Attacks.
    Mrs. Clinton [continuing]. Attacks. Exactly.
    Mr. Westmoreland. Kidnapping. And where are they located?
    Mrs. Clinton. They are located in the United States.
    Mr. Westmoreland. At Langley Air Force Base?
    Mrs. Clinton. I'm not sure of where they're located now.
    Mr. Westmoreland. They are there. And it is an interagency 
task force.
    Mrs. Clinton. Right.
    Mr. Westmoreland. It includes the FBI, I guess the DOD, and 
the State Department?
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland. And if you look at the State Department 
Web site, FEST comes up under that, so I am assuming that you 
are the lead in those agencies.
    Mrs. Clinton. It's an interagency effort.
    Mr. Westmoreland. Okay. But it was deployed in 1998 in 
Kenya, correct----
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland [continuing]. After the embassy bombing 
there, of the towers?
    Mrs. Clinton. Right.
    Mr. Westmoreland. And to Tanzania, correctly?
    Mrs. Clinton. That's correct.
    Mr. Westmoreland. They were there, ready to go on short 
notice. They said they could have been ready in 4 hours to 
leave.
    This is the group of people that would go into a situation 
as you describe, when an embassy had been overrun, attacked, 
kidnapping, or whatever, to basically give guidance to any of 
the other forces or help that was coming in, correct?
    And I know that your staff--and we have a number of emails 
from your staff that originally recommended that you send the 
FEST team. And I think they may have talked to Mr. Sullivan, or 
it was somebody that got an email, and they said they would 
pass it up the chain.
    And somebody made the decision not to send the FEST team, 
which would have been, as Secretary of State, I would think, 
since it was a State Department-led mission, that that would 
have been the first thing that you would have wanted to get 
out. But, instead, if I understand correctly from the email 
chain, your first request was to see how soon the FBI could get 
over there. Is that a true statement?
    Mrs. Clinton. Well, Congressman, the FEST went to East 
Africa to help rebuild our embassy capacity. They have 
expertise in, you know, once our two embassies were bombed, how 
do we regain communications, for example. We were not going to 
rebuild in Benghazi, so there was no reason to send a FEST 
team.
    There was a reason to try to get the FBI investigators into 
Benghazi as soon as it was safe for them to go, so they could 
start to try to build a case so we could bring the perpetrators 
of the attack to justice. That was absolutely the primary goal 
that we had in working with the FBI.
    And I think, you know, when we make a decision on a 
deployment of the FEST, it is not just the Secretary of State. 
In this case, there was the NSC involved, there was the CIA 
involved, there was a SVTC about it. And the considered 
conclusion was we're not going to rebuild in Benghazi. So, yes, 
we didn't send the FEST.
    Mr. Westmoreland. Well, that was a quick decision to make 
that night, that you were not going to rebuild in Benghazi. 
That was pretty----
    Mrs. Clinton. Well, the FEST would not--there was nothing 
to rebuild. There was----
    Mr. Westmoreland. I understand, but you just mentioned all 
the agencies that would have been important to get on the 
ground as quick as possible and summarize what the situation 
was to give you that direction.
    But I know I am out of time, Mr. Chairman, but I do want to 
say: What Ms. Roby was trying to get you to say is what 
decisions did you make in regard to Benghazi and what were you 
responsible to make. And I think that is what all of us want to 
know. What did you do, and what decisions did you make? And you 
said everybody else is responsible for everything else. What 
were you responsible for?
    Mrs. Clinton. I was responsible for sending Chris Stevens 
to Benghazi as an envoy. I was responsible for supporting a 
temporary mission that we were constantly evaluating to 
determine whether it should become permanent in Benghazi. I was 
responsible for recommending Chris Stevens to be the 
Ambassador. I was responsible for working on the policy both 
before and after the end of the Qadhafi regime.
    I was responsible for quite a bit, Congressman. I was not 
responsible for specific security requests and decisions. That 
is not something I was responsible for.
    Chairman Gowdy. The gentleman's time has expired.
    The chair will now recognize the gentleman from California, 
Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Madam Secretary, we are now almost at the end of the second 
round of questions, and I find it necessary to amend something 
that I said after the first round, and that is: I don't 
understand the core theory of this case. I thought I did, but, 
after this round, I honestly don't understand where my 
colleagues are coming from.
    I am probably not as good a lawyer, undoubtedly not as good 
a prosecutor as our chairman. Most of what we have gone over in 
this round, frankly, were questions that were asked to you when 
you testified before the House the last time, before you 
testified before the Senate; they were the subject of the ARB 
report. But there were a few unique lines of questioning that I 
want to comment and ask you about.
    One of my colleagues spent his time asking about some of 
your interactions with your press people, I guess critiquing 
your overall Libya strategy and something he called the 
``Clinton doctrine.''
    We have been assured this committee, contrary to what 
Representative McCarthy said, is not about attacking you, but, 
frankly, I don't see the relevance of any of those questions in 
terms of what actually happened in Benghazi, except as a means 
of trying to attack you or make a political statement regarding 
the presidential campaign.
    And then there was the continuing preoccupation with Sidney 
Blumenthal. The chairman spent both panels asking you about 
Sidney Blumenthal. And I have to say, I just don't understand 
the preoccupation with Sidney Blumenthal. You would think, for 
the time we have spent on him, that he was in Benghazi on the 
night manning the barricades.
    There is not a member on this dais that doesn't have 
friends they have known for a long time that send them 
unsolicited emails, and we are too polite to write back saying, 
you know, ``This really isn't all that helpful.'' There is not 
a member here that hasn't had that experience. So I don't know 
why that is so remarkable.
    So I honestly don't understand this fixation, but I do know 
one thing about Sidney Blumenthal. It has been abundantly clear 
here today: My seven colleagues do not want the American people 
to read what he said in his deposition.
    And I will tell you, it is not because of anything he said. 
What they really don't want the American people to see is what 
they asked. And it was what Ranking Member Cummings intimated, 
which is they have gone on national TV to say, ``We are not 
interested in the foundation, we are not interested in all 
these other things. We are only interested in whether we have 
gotten everything.'' But when you read that deposition, you 
see, that is exactly what they were interested in.
    Now, I can't release it myself, but I can tell you Sidney 
Blumenthal by the numbers. So here is Sidney Blumenthal by the 
numbers.
    Republicans asked more than 160 questions about Mr. 
Blumenthal's relationship and communications with the Clintons, 
but less than 20 questions about the Benghazi attacks.
    Republicans asked more than 50 questions about the Clinton 
Foundation, but only four questions about security in Benghazi.
    Republicans asked more than 270 questions about Mr. 
Blumenthal's alleged business activities in Libya, but no 
questions about the U.S. presence in Benghazi.
    And Republicans asked more than 45 questions about David 
Brock, Media Matters--I have no idea what that is even--and 
affiliated entities but no questions--no questions--about 
Ambassador Stevens and other U.S. personnel in Benghazi.
    That's Sidney Blumenthal by the numbers.
    Now, there were a couple lines of questioning that I did 
understand. One of them was about the Accountability Review 
Board report. Now, not the one, actually, that is relevant to 
today about Benghazi, but the one that was written 17 years ago 
about a different attack in Tanzania.
    And Mr. Pompeo put up a very nice chart--they've got great 
exhibits--selectively quoting from that report. And the 
implication was that the Secretary should be the one deciding 
the security at every facility around the world.
    What he didn't read to you was part of the same section of 
that report, which says, ``In the process, the Secretary should 
reexamine the present organizational structure with the 
objective of assuring that a single high-ranking officer is 
accountable for all protective security matters and has the 
authority necessary to coordinate on the Secretary's behalf.''
    Quite a different impression you get from reading the whole 
thing.
    We had a debate about whether we should participate in this 
committee, given where it was going and where it has been. Mr. 
Cummings said we should so we could be in the room to point out 
when a witness wasn't treated fairly. I have to say, I think he 
was right, as much as I held the opposite opinion.
    But it is important to be able to point out, if they are 
not going to give you the actual report or give you the time to 
read it, where they want to be selective to make a point. Now, 
I don't think that selectively quoting that 17-year-old ARB 
sheds much light on what happened in Benghazi, but it is a nice 
way to attack you.
    I also want to talk a bit about something that I spent a 
lot of time on as the ranking on Intel and as a member of the 
investigation that the Intelligence Committee did. That was a 
Republican-led investigation. Two of my colleagues here are on 
the same committee, went through the same investigation.
    And my colleagues have intimated that there was an effort 
to spin what happened. And they have neglected to point out--as 
you might imagine and as you well know--that the intelligence 
we got after an attack like this in the fog of war--initially, 
you believe one thing, and then you get more information and 
you understand something better, and then you get more and you 
understand still something better. And we were briefed by the 
Director of the CIA at the time. I wish he were here today. And 
our understanding kept evolving.
    And, in the beginning, we got it wrong. And I have looked 
through that. And, in that initial intelligence, within a few 
hours, there were some reports indicating it was a direct 
attack, as you told the Egyptian Prime Minister at the time. 
That was what was understood in the immediate hours.
    Mr. Schiff. Within 24 hours, though, we had intelligence, 
both open source and signals intelligence, that there was a 
protest, that the protest was hijacked, and that it became an 
attack. And your statements were indicative and reflective of 
what we knew then. It wasn't until about a week or 10 days 
later when we actually got the videos from the compound that we 
learned definitively there was no protest.
    Well, that simple chronology sheds a lot of light on why 
you and Ambassador Rice said what you did at the time. Not a 
member here has shown anything you have said or the Ambassador 
said that was at all inconsistent with what our intelligence 
agencies told us exactly at the time.
    It may come of interest to some of my colleagues who are 
not on Intelligence to know that there are still a great many 
people in the intelligence community that believe the video was 
part of the motivation of some who attacked us on that night.
    I wish, frankly, we spent more time giving you an accurate 
representation of the documents and the reports and the facts 
instead of making an effort to demagogue on this. I find it 
fascinating, frankly, that my colleagues put so much reliance 
in the 17-year-old Accountability Review Board report, but they 
place no weight in the one actually about Benghazi.
    Thomas Pickering has 40 years of experience. There is 
probably no one in the diplomatic corps more respected. Admiral 
Mullen, the other co-chair, Chair of the Joint Chiefs of Staff, 
someone the Republicans and Democrats both respected 
tremendously. Are we now to believe that they are a bunch of 
rubes? That they had the wool pulled over their eyes? Or that 
they were corrupt or incompetent? Why is their report of so 
little value?
    It's hard for me to escape the conclusion that the one 
centric fact of them all is that you are running for President 
and with high poll numbers. And that's why we are here. And I 
say all this because I never want to see this happen again. I 
don't want four years from now or eight years from now or 12 
years from now, another presidential election, for us to be in 
here, or for one side or the other, I don't want the 
Republicans to say, ``Let's do Benghazi again, that really 
worked,'' or the Democrats to say, ``They did it to us, let's 
do it to them.'' And I think, frankly, by only pointing these 
things out, that's the only way we are going to avoid having 
this happen again.
    Well, let me just ask you, on that 17-year-old ARB, and in 
light of Mr. Morell, who came in and talked to us--not about 
the security at the diplomatic facility, but at the CIA Annex--
his testimony was, ``All of the improvements to the security of 
Benghazi base, the idea to conduct an assessment, the 
assessment itself, the implementation of its recommendations, 
were all done without the knowledge and direction of the 
Director and I. It happened exactly where it should have 
happened which is in that security office.''
    The same view on the CIA's part, which they are not here, 
but would you like to comment on what the full recommendation 
of the Tanzania ARB was and the very similar process used in 
our intelligence agencies?
    Mrs. Clinton. Thank you very much, Congressman Schiff, and 
I think you make an excellent point. I'm aware of Deputy 
Director Morell's testimony. It's very similar to what I have 
said here. It is very similar to what I believe General 
Petraeus would have said had he come before you, that the 
issues about security, whether we are talking State Department 
or we are talking CIA or any other agency, are not made at the 
level of Secretary, Director; it is made at the appropriate 
level of the security professionals. And I think what Mike 
Morell told you in the Intelligence Committee investigation, 
you would hear from anyone in the government at a high level 
who has to deploy Americans around the world.
    We see that with the Defense Department. You know, we see 
breaches of security on our military bases. And we know that 
everybody is struggling to get it right. And as I have said, in 
the vast majority of cases, our security professionals do. And 
then, unfortunately, there are instances where they do not. And 
that's why we have after-action reports or why we have the 
Accountability Review Board to look at what happened and try to 
learn from it. And going all the way back to Tehran and Beirut 
and East Africa and the 100 attacks on facilities around the 
world since 2001, we have tried to learn and apply those 
lessons, and we will, I hope, continue doing so.
    Mr. Schiff. Thank you, Madam Secretary. I yield back.
    Chairman Gowdy. The gentleman yields back.
    The chair will now recognize the gentleman form Ohio, Mr. 
Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Secretary Clinton, just a couple of minutes ago, you said 
some of you have raised the video. Raised the video? You raised 
the video. At 10:08, on September 11, 2012, you raised the 
video. At 10:08, with Americans still fighting for their lives 
an hour and a half before the attack ends, you raised the 
video.
    I'm going to go back to that 10:08 statement. In our first 
round, you said that the statement was not meant to explain the 
type of attack or the cause of the attack.
    Let's look at your statement. ``Official press statement 
from the Department of State, statement on the attack in 
Benghazi, press statement, Hillary Rodham Clinton, Secretary of 
State, Washington, D.C., September 11, 2012. Twelve sentences 
in this statement. I'm going to focus on the one: ``Some have 
sought to justify this vicious behavior as a response to 
inflammatory material posted on the Internet.'' There's a 
cause. There's the motive presented there. And there's only one 
motive. You say this, you say: ``Inflammatory material caused 
vicious behavior.'' Vicious behavior, vicious behavior that led 
and resulted in the deaths of four Americans. There sure seems 
to be cause there.
    Mrs. Clinton. Congressman, may I read what I said? What I 
said is that: ``I condemn in the strongest terms the attack on 
our mission in Benghazi today. As we work to secure our 
personnel and facilities we have confirmed that one of our 
State Department officers was killed. We are heartbroken by 
this terrible loss. Our thoughts and prayers are with his 
family and those who have suffered in this attack. This 
evening, I called Libyan President Magariaf to coordinate 
additional support to protect Americans in Libya. President 
Magariaf expressed his condemnation and condolences and pledged 
his government's full cooperation. Some have sought to justify 
this vicious behavior as a response to inflammatory material 
posted on the internet. The United States deplores any 
intentional effort to denigrate the religious beliefs of 
others. Our commitment to religious tolerance goes back to the 
very beginning of our nation, but let me be clear: There is 
never any justification for violent acts of this kind. In light 
of the events of today, the United States government is working 
with partner countries around the world to protect our 
personnel, our missions, and American citizens worldwide.''
    Mr. Jordan. Right. And I'm asking. You said the first round 
there was no motive, no cause. You weren't trying to explain 
the cause of the attack. It sure seems to me like you did.
    Mrs. Clinton. Well, Congressman, what I----
    Mr. Jordan. You said, you presented ``inflammatory material 
was the reason for the vicious behavior.'' Is that not a cause 
and effect?
    Mrs. Clinton. That's not what it says. What I said was, 
``some have sought''----
    Mr. Jordan. I know what you said. You read the whole thing.
    Mrs. Clinton. I did.
    Mr. Jordan. I'm asking about that one sentence because 
earlier you said it wasn't, there was no cause, no motive 
presented. I think there was. And that's what I think most of 
the American people thought.
    Mrs. Clinton. Well, I know there was a great deal of news 
coverage that looked at the events in Cairo, looked at what 
happened in Benghazi, and drew some comparisons and maybe even 
connections. I know, as we have just heard from Congressman 
Schiff, there was a lot of fast-moving analysis by the 
intelligence community to try to make sense of all of this, and 
I can only tell you from the perspective of having been in 
the----
    Mr. Jordan. Secretary Clinton, hang on one second. If--the 
intelligence may have changed some, but your story didn't. 
That's the point. Privately, and privately your story was much 
different than it was publicly.
    Again, you said to the Egyptian Prime Minister: We know the 
attack in Libya had nothing to do with the film. It was a 
planned attack, not a protest. You said to your family: 
Terrorists killed two of our good people. So your story 
privately is much different than what you are telling the 
American people. The intelligence may have changed, the video 
may have had an impact in other places, but in Benghazi, it 
didn't. And you tried to put them all together. That's what 
bothers us. Let me show you a slide here.
    This is from September 14. The first statement is by Jay 
Carney: ``Let's be clear these protests were a reaction to a 
video that had spread to the region. We have no information to 
suggest that Benghazi was a preplanned attack.''
    The statement below is from your press person in Libya, 
sends to Greg Hicks and to the experts in the Near Eastern 
Affairs Bureau, the same people who said Susan Rice was off the 
reservation--off the reservation on five networks. Here's what 
they get, here is what she says to them: ``Benghazi, more a 
terrorist attack than a protest. We want to distinguish''--
distinguish--``not conflate the events. This was a well-planned 
attack.'' So again, privately, the experts in the Near Eastern 
Affairs Bureau, the experts in Libya, know that this was a 
well-planned attack, but publicly Jay Carney is saying the same 
thing you are saying publicly: We have no information that this 
was preplanned. This was caused by a video.
    Mrs. Clinton. Congressman, the next morning, at 9:59, I 
gave another statement and I listened carefully to what you 
said, and you kept talking about cause. Well, the word 
``cause'' is not in my statement of the night before.
    Mr. Jordan. I'm referring to what you said to me in our 
first exchange 2 hours ago.
    Mrs. Clinton. No, well, I'm sorry, Congressman, if I 
haven't been clear, I will try to be clearer. I was talking 
about people throughout the region trying to justify attacks on 
our facilities, as we saw later in the week, and justifying 
their behavior and repeating it and using the fact of the 
video, not only to arouse crowds, as we saw in the video clips 
that the ranking member played, but also that would deter 
governments from coming to our rescue because they would be, 
perhaps, ambivalent about doing so. So you're right, I 
mentioned the video because I feared what would happen, and in 
fact, it did happen. And in the next morning, the night before 
was a brief statement that we put out because we knew we had 
lost Sean Smith, and I felt an obligation to tell that to the 
American people.
    Mr. Jordan. Madam Secretary.
    Mrs. Clinton. The next morning, I gave a much longer 
statement, and it was very clear: Heavily armed militants 
assaulted the compound and set fire to our buildings. That's 
what it says.
    Mr. Jordan. Secretary Clinton, that's all good, but you 
said you were trying to communicate to folks all over, all the 
folks you have around the Middle East, right?
    Mrs. Clinton. Yes. I was trying to send a message, yes.
    Mr. Jordan. Okay, I got it. But that's not what the experts 
said. They said: Don't conflate the events. Tell the truth 
about Benghazi. Talk about what happened there. Other places 
where the video may have had impact, fine, say that.
    Why did you put them all together when you didn't do that 
privately? When you told your family about Benghazi, it was: 
Terrorists killed two of our people. When you talked to the 
Libyan President: Ansar al-Sharia did it. Al Qaeda did it. When 
you talked to the Egyptian Prime Minister, we know it's not a 
film. We know it's not a protest. We know it's not a video. 
It's a terrorist attack.
    Mrs. Clinton. Well, Congressman, I was working off the 
information that we had which was that Ansar al-Sharia claimed 
responsibility. And, at that point, I did say that it was an Al 
Qaeda-related group.
    Mr. Jordan. Madam Secretary, look at the difference in 
these two statements. One says it wasn't a preplanned attack. 
That's Jay Carney talking publicly. The other says from your 
experts in Libya, says it was a well-planned attack. Now, they 
could not be further apart. They could not be. That's what I'm 
having a hard time figuring out.
    And you know what's interesting, the date of this, 9-14-12, 
9-14-12. Do you know what else happened on the 14th, September 
14? There's another document that is kind of important. That's 
the same day that Ben Rhodes drafted his talking points memo. 
Bullet point No. 2: To underscore that these protests are 
rooted in an Internet video, not a broader failure of policy 
because we couldn't have Libya, your baby, as Mr. Roskam 
pointed out earlier, we couldn't have that fail. Can't have 
that. So the same day you have got Jay Carney saying, this was 
no way a preplanned attack and the experts in Libya, talking 
Greg Hicks and the Near Eastern Affairs people, are saying it 
was a well-planned attack, that same day, the talking points 
that gets Susan Rice ready for the Sunday shows: Make sure you 
focus on the video.
    Mrs. Clinton. Well, Congressman----
    Mr. Jordan. Make sure you focus on the video, not about a 
broader policy failure. After all, we got an election coming in 
50 some days.
    Mrs. Clinton. Well, Congressman, I believe to this day the 
video played a role. I believe that the person we have----
    Mr. Jordan. But your experts didn't.
    Mrs. Clinton. There were many experts. If you look--you 
probably haven't had an opportunity to read the excellent 
report issued by the Democrats, but on September 13, the 
intelligence community issued its first thorough, fully 
coordinated assessment of what happened in Benghazi. It said, 
``We assess the attacks on Tuesday against the U.S. Consulate 
in Benghazi began spontaneously . . . The attacks began 
spontaneously following the protests at the U.S. Embassy in 
Cairo . . . Extremists with ties to Al Qaeda were involved in 
the attacks.'' There is no contradiction.
    The protests because of the video----
    Mr. Jordan. Is there a contradiction----
    Mrs. Clinton [continuing]. And those who were affiliated 
with Al Qaeda----
    Mr. Jordan. Is there a contradiction right here, Secretary 
Clinton?
    Mrs. Clinton. There is no contradiction, Congressman.
    Mr. Jordan. How about this contradiction: Well-planned 
attack. No preplanned attack. How about that?
    Mrs. Clinton. Well----
    Mr. Jordan. One of them is well planned; one of them isn't. 
Jay Carney says there was no preplanned attack, and the experts 
in Libya said it was a preplanned attack.
    Mrs. Clinton. Well, the experts in Libya were among the 
experts looking at this and analyzing it. We went on the basis 
of the intelligence community, and they were scrambling to get 
all the information that they could. And, yes, the intelligence 
community assessment served as the basis for what Ambassador 
Rice said when she appeared on the Sunday show.
    And on September 18, when the video footage arrived from 
the security cameras, the Deputy CIA Director has testified it 
was not until September 18 when the CIA received the Libyan 
Government's assessment of video footage that showed the front 
of the facility with no sign of protesters, that it became 
clear we needed to revisit our analysis. And then, after they 
looked at the video footage and FBI reporting from interviews 
of personnel on the ground in Benghazi during the attacks, the 
CIA changed its assessment. And that was explained thoroughly 
in the bipartisan report issued by the House Permanent Select 
Committee on Intelligence, which did a very thorough job, 
Congressman.
    Chairman Gowdy. The gentleman yields back.
    Madam Secretary, I think we're going to take a quick 10-
minute break. Two of my colleagues throughout the day have 
asked for 10 seconds. I've had a third colleague ask for 10 
seconds. If she holds it to 10 seconds, I will give the 
gentlelady from Alabama 10 seconds.
    Mrs. Roby. I just wanted to point out that the ranking 
member is actually incorrect. The August 17 memo that I was 
referring to in my last question we have not had the 
opportunity to discuss with Secretary Clinton and how it 
affected her decisions, and it was just declassified last week.
    Chairman Gowdy. All right. With that, we will take a 10-
minute break and come back.
    [Recess.]
    Chairman Gowdy. Welcome back, Madam Secretary.
    The chair will now recognize the gentleman from Illinois, 
Mr. Roskam.
    Mr. Roskam. Thank you, Mr. Chairman.
    Madam Secretary, the other side of the aisle has admonished 
the Republicans for not having a theory. And let me tell you a 
little bit of a theory that I've developed from my reading and 
research and listening today, and it's this: That you initiated 
a policy to put the United States into Libya as the Secretary 
of State and you overcame a number of obstacles within the 
administration to advocate for military action, and you were 
successful in doing that.
    Ultimately, the decision was the President's, as you 
acknowledge. But you were the prime mover. You were the one 
that was driving. You were even contemplating something called 
the Clinton doctrine. And you were concerned about image, you 
were concerned about credit, which is not something that is 
unfamiliar to people in public life.
    But then I think something happened. And my theory is that 
after Qadhafi's death, and essentially a victory lap, then I 
think your interest waned, and I think your attention waned. 
And I think that the emails that Mrs. Brooks put forth, you had 
an answer, and that was, Look, I got a lot of information from 
a lot of different places. But I think you basically gave a 
victory lap, sort of a mission accomplished quote in October 
30, 2011, in The Washington Post.
    This is what you said, and this is very declarative: ``We 
set into motion a policy that was on the right side of history, 
on the right side of our values, on the right side of our 
strategic interests in the region.'' It has all of the feel of 
a victory lap. But there was a problem. And the problem, Madam 
Secretary, was that there were storm clouds that were 
gathering, and the storm clouds that were gathering was a 
deteriorating security situation in Benghazi.
    And you had a lot to lose if Benghazi unraveled. If Libya 
unraveled you had a lot to lose, based on the victory lap, 
based on the Sunday shows, based on the favorable accolades 
that were coming. If it went the wrong direction, it would be 
on you, and if it was stable and it was the right direction, 
you were the beneficiary of that.
    So the question is, how is it possible that these urgent 
requests that came in, how did they not break through to the 
very upper levels of your inner circle, people who are here 
today, people who served you? How did those requests from two 
ambassadors, Ambassador Cretz and Ambassador Stevens, that came 
in on these dates, June 7, June 9, July 19, August 2, and March 
28, all of 2012, how is it possible that those didn't break 
through?
    You've told us that that wasn't your job, basically. You 
said, I'm not responsible. But here's my theory. I think that 
this is what was going on: That to admit a need for more 
security was to admit that there was deteriorating situation, 
and to admit a deteriorating situation didn't fit your 
narrative of a successful foreign policy.
    Where did I get that wrong?
    Mrs. Clinton. From the very beginning you got it wrong, 
Congressman. Look, we knew that Libya's transition from the 
brutal dictatorship of Qadhafi, which basically destroyed or 
undermined every institution in the country, would be 
challenging, and we planned accordingly. We worked closely with 
the Libyan people, with our allies in Europe, with partners in 
the region to make sure that we tried to get in position to 
help the Libyan people.
    And, yes, the volatile security environment in Libya 
complicated our efforts, but we absolutely--and I will speak 
for myself--I absolutely did not forget about Libya after 
Qadhafi fell. We worked closely with the interim government, 
and we offered a wide range of technical assistance. We were 
very much involved in helping them provide their first 
parliamentary elections. That was quite an accomplishment.
    A lot of other countries that were post-conflict did not 
have anything like the positive elections Libya did. In July of 
2012, the transitional government handed over power to a new 
General National Congress in August. We were doing everything 
we could think of to help Libya succeed. We tried to bolster 
the effectiveness of the interim government.
    We worked very hard to get rid of the chemical weapons, 
coordinating with the transition Libyan authorities, with the 
U.N., and others. And by February of 2014, we had assisted in 
destroying the last of Qadhafi's chemical weapons.
    We were combating the spread of shoulder-shoulder--anti-
aircraft shoulder-fired missiles because of the danger that 
they posed to commercial aircraft. And we were providing 
assistance, some of which I discussed earlier with 
Congresswoman Roby. We had humanitarian assistance. We brought 
people for health to Europe and for--and to the United States.
    But much of what we offered, despite our best efforts--we 
had the Prime Minister come to Washington in the spring of 
2012--much of what we offered was difficult for the Libyans to 
understand how to accept.
    I traveled, as you know, to Libya and met there, I stayed 
in close touch with Libya's leaders throughout the rest of my 
time as Secretary. Both of my deputies went there. We talked 
with the Libyan leadership frequently by phone from Washington 
and communicated regularly, as I have said, with our team based 
in Tripoli. And all of this was focused on trying to help stand 
up a new interim government. And we were making progress on 
demilitarization, demobilization, trying to reintegrate militia 
fighters into something resembling a security force and on 
securing loose weapons.
    I think it's important to recognize--and, of course, I was 
ultimately responsible for security. I took responsibility for 
what happened in Benghazi. What my point----
    Mr. Roskam. What does that mean when you say, ``I took 
responsibility''? When Mr. Westmoreland asked you that 
question, you said, what, contracting and so forth? So when you 
say you were responsible for something, Madam Secretary, what 
does that mean? If you're responsible, what action would you 
have done differently? What do you own as a result of this?
    So far I've heard since we've been together today, I've 
heard one dismissive thing after another. It was this group. It 
was that group. I wasn't served by this. I wasn't served by 
that. What did you do? What do you own?
    Mrs. Clinton. Well, I was just telling you some of the many 
related issues I was working on to try to help the Libyan 
people make----
    Mr. Roskam. What's your responsibility to Benghazi? That's 
my question.
    Mrs. Clinton. Well, my responsibility was to be briefed and 
to discuss with the security experts and the policy experts 
whether we would have a post in Benghazi, whether we would 
continue it, whether we would make it permanent. And as I've 
said repeatedly throughout the day, no one ever recommended 
closing the post in Benghazi.
    Mr. Roskam. No one recommended closing, but you had two 
ambassadors that made several requests. And here's basically 
what happened to their requests: They were torn up. They were 
dismissed.
    Mrs. Clinton. Well, that's just not true, Congressman.
    Mr. Roskam. Madam Secretary, they didn't get through. It 
didn't help them. Were those responded to? Is that your 
testimony today?
    Mrs. Clinton. Many were responded to. There were 
affirmative responses to a number of requests for additional 
security.
    Mr. Roskam. And you laid this on Chris Stevens, didn't you? 
You said earlier, he knows where to pull the levers. So aren't 
you implying that it's his responsibility to figure out how 
he's supposed to be secure, because Chris Stevens knows how to 
pull the levers? Is that your testimony?
    Mrs. Clinton. Ambassadors are the ones who pass on security 
recommendations and requests. That's true throughout the world.
    Mr. Roskam. And when he does and they're not responded to, 
what's his----
    Mrs. Clinton. They too--they too rely on their security 
professionals.
    Mr. Roskam. What's his remedy if they're not responded to? 
What's his remedy if it's no?
    Mrs. Clinton. As I testified earlier, he was in regular 
email contact with some of my closest advisers.
    Mr. Roskam. So hit resend, is that it?
    Mrs. Clinton. He was in regular email contact and cable 
contact with a number of other----
    Mr. Roskam. The cables didn't get through. You created an 
environment, Madam Secretary, where the cables couldn't get 
through. Now----
    Mrs. Clinton. Well, that is--that is inaccurate. Cables, as 
we have testified, and as I responded----
    Mr. Roskam. They didn't get through to you. They didn't 
break into your inner circle. That was your testimony earlier. 
You can't have it both ways. You can't say all this information 
came in to me and I was able to process it, and yet it all 
stops at the security professionals.
    Mrs. Clinton. Well, that's not what I----
    Mr. Roskam. Let me turn your attention----
    Mrs. Clinton. Congressman, that's not what I was saying. I 
think we've tried to clarify that, you know, millions of cables 
come in. They're processed and sent to the appropriate offices 
and personnel. With respect to specific----
    Mr. Roskam. They didn't get through. They didn't make any 
difference. They couldn't break into the inner circle of 
decisionmaking.
    Now, let me draw your attention, in closing, to testimony 
that you gave before the House Foreign Affairs Committee in 
January 2013. And you said some wonderful things about 
Ambassador Stevens, similar to what you've said in your opening 
statement today. And they were words that were warm and 
inspirational and reflecting on his bravery.
    But I think in light of the facts that have come out since 
your testimony, and I think in light of things that the 
committee has learned, he's even braver than you acknowledged. 
In January 2013, this is what you said to Congress: ``Nobody 
knew the dangers or the opportunities better than Chris. During 
the first revolution, then during the transition, a weak Libyan 
government, marauding militias, even terrorist groups, a bomb 
exploded in the parking lot of his hotel. He never wavered. He 
never asked to come home. He never said let's shut it down, 
quit, or go somewhere else. Because he understood that it was 
pivotal for America to be represented in that place at that 
time.''
    Secretary Clinton, I think you should have added this: 
Chris Stevens kept faith with the State Department that I 
headed even when we broke faith with him. He accepted my 
invitation to serve in Benghazi even though he was denied the 
security he implored us to give him. I and my colleagues were 
distracted by other matters and opportunities and ambitions, 
and we breached our fundamental duty to mitigate his danger and 
secure his safety and that of Glen Doherty, Sean Smith, and 
Tyrone Woods.
    That would be more accurate, wouldn't you say, Secretary 
Clinton?
    Mrs. Clinton. Of course I would not say that, and I think 
that it's a disservice for you to make that statement, 
Congressman. And it's a----
    Mr. Roskam. Who does it disserve?
    Mrs. Clinton. Well, it is a disservice of how hard the 
people who are given the responsibility of making these tough 
security decisions attempted to----
    Mr. Roskam. The people that were disciplined? Did they keep 
faith with Chris Stevens? No.
    Mrs. Clinton. Well, Chris Stevens was someone who had a 
commitment to our presence in Libya.
    Mr. Roskam. There is no question.
    Mrs. Clinton. And we want to honor that by continuing----
    Mr. Roskam. There is no question.
    Mrs. Clinton [continuing]. To do what we can to support the 
Libyan people's transition. It is very much, in my view, in 
America's interest to continue to try to do so.
    Mr. Roskam. I yield back.
    Chairman Gowdy. Gentleman's time has expired.
    The chair will now recognize the gentlelady from Illinois, 
Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Madam Secretary, I just want to talk a little bit more 
about what has been done for embassy personnel security, 
diplomatic personnel security since then. My understanding is 
in Benghazi there were some security improvements that were 
made. Could you talk about some of those, both prior to the 
attacks as well as some of the things, that perhaps you sort of 
alluded to, with more ventilation in the safe rooms and some of 
those things?
    Mrs. Clinton. Yeah. There were a number of security 
improvements that were made to the facility. Again, there was 
an emphasis on trying to buttress the outer walls, to try to, 
you know, create a more effective guard entrance. There was an 
effort to try to make sure that the facility itself was 
hardened so that it could withstand attacks if that came to 
pass.
    It was in a series of decisions made by the security 
professionals. In November of 2011, our people in Benghazi said 
they needed to hire additional local guards. Money was approved 
that day. In December of that year, they asked for money to buy 
jersey barriers. The funds were sent by the end of the week.
    In January of 2012, the RSO, meaning a regional security 
officer, requested that all personnel deploying to Tripoli and 
Benghazi for more than 30 days complete the specialized Foreign 
Affairs Counter Threat training course, which was soon 
implemented.
    Also in January 2012, they asked for money for sandbags, 
security lights, steel door upgrades, drop arm reinforced car 
barriers that was promptly sent. Later that month they were 
sent extra helmets, bulletproof vests, and a WMD response 
equipment.
    In February 2012, they requested support for a major 
renovation of the walls surrounding the complex, including 
making the walls higher, adding concertina wire, laying barbed 
wire. That project was completed.
    In March 2012, they asked to construct two extra guard 
positions. That was completed. In April 2012, they needed help 
from experts in technical security. And, by May, a special team 
visited to enhance security equipment and security lighting. In 
June 2012, following the IED incident, immediately a regional 
team was sent to enhance the perimeter and additional funding 
was approved for more guards.
    In July 2012, they said that they needed a minimum of three 
American security officers in Benghazi from then on through 
July, August, and September. They always had three, four, or 
five American DS agents overseeing the expanded contingent of 
Libyan guards on site.
    Those are just some of the requests and the affirmative 
responses, Congresswoman, that were provided specifically for 
Benghazi.
    Ms. Duckworth. Thank you.
    We know that short of putting people in bunkers and never 
allowing them outside of embassy compounds, we're going to have 
some sort of a threat to our diplomatic personnel security. I 
mean, obviously it was not enough. What I'd like to know is, in 
light of that, what efforts have been put in to provide for 
contingency operations, especially for known potentially 
volatile periods in the calendar year? September 11 comes 
through every year; 2016, September 11 is probably going to be 
an especially volatile time period.
    So can you talk a little bit about what you have done or 
what you've put into place and any difficulties you may have 
come across in coordinating with DOD, the intelligence 
agencies, others across the government?
    Is there a--know this is not a secure room so we can't talk 
about things that are classified. But, you know, September 11 
is coming. Prior to that week, are we moving aircraft carriers 
nearby? Are we putting an air wing on a 6-hour leash with, you 
know, one lift of aircraft on a 2-hour leash? What are we 
doing? Do we have FAST teams and FEST teams gearing up ready to 
go? What is going on in light of the lessons learned at 
Benghazi, and what did you personally direct to take charge--to 
happen, especially at your level of interagency cooperation?
    Mrs. Clinton. It's an excellent question, and it's really 
at the heart of what I hope will come out of this and the prior 
investigations.
    In December of 2014, Assistant Secretary Starr from the 
State Department testified before the select committee that 25 
of the 29 recommendations made by the ARB had been completed. 
And a September 2013 inspector general's report noted that the 
ARB recommendations were made in a way that was quickly taken 
seriously and that I took charge directly of oversight for the 
implementation process.
    Here's some examples. More Diplomatic Security and DOD 
personnel are on the ground at our facilities today. We have 
increased the skills and competency for our Diplomatic Security 
agents by increasing the training time in the high-threat 
course. We've expanded the Foreign Affairs Counter Threat 
course so that the skills are shared by not just the Diplomatic 
Security agents, but people like Chris Stevens and Sean Smith 
as well.
    We've also been working hard to up the interagency 
cooperation. The interagency security teams that you asked 
about earlier, Congresswoman, that's a continuing commitment 
that we are working on. And I know, because of this terrible 
tragedy, DOD is much more focused on what needs to be thought 
through with respect to planning and reaction.
    You know, we had problems in the past with the pastor from 
Florida, Terry Jones, inciting riots and protests that resulted 
in the deaths of people, including U.N. and others who were 
stationed in Afghanistan. And so we're trying to stay in very 
close touch between the State Department and DOD.
    In that case, Secretary Gates actually called him and asked 
him, please, not to get involved in what he was doing because 
it was dangerous to our troops and our civilians. 
Unfortunately, you know, he has a mind apparently of his own.
    So we are trying to have a closer coordinated planning and 
response effort.
    With respect to your specific questions that are really 
within the purview of the Department of Defense, like the 
deployment of certain Navy vessels, air wings, and the like, I 
think that DOD is trying hard to think about how particularly 
in North Africa and the Middle East they can respond, because, 
you know, one of the--one of the claims that was made that was 
proven to be untrue was that DOD withheld sending air support. 
And indeed the closest air support that would have been in any 
way relevant was too far away. So they're trying to think about 
how they better deploy and station various assets so that they 
can have a quicker response time.
    I've not been involved intimately in this now for, you 
know, two years, I guess more than two years, so I can't speak 
directly, but I know that this was part of the important work 
that was underway when I left.
    Ms. Duckworth. You spoke about you--thank you--you spoke 
about making personal phone calls to ask for help from the 
heads of local government, and you spoke a lot about the power 
of the chief of the mission, the trust that you put into these 
professionals that are there. So when an embassy comes under 
attack, especially after this Benghazi attack, from this time 
forward, do ambassadors, do they need to call you to ask for 
help from other agencies of the U.S. Government?
    Or do they have the ability, if there's a DOD--you know, if 
there is a CIA or DOD force nearby, a Marine FAST team, for 
example, does the ambassador have to come through security, or 
do they need to call you to have you call for that? How does 
that work?
    Mrs. Clinton. No. And there's an example out of the 
Benghazi attack. There was a preexisting understanding between 
the diplomatic compound and the CIA Annex, and there was no 
need for anybody at the compound to call Washington to alert 
the CIA Annex. They immediately contacted the CIA Annex and, 
you know, they sprang into action to try to come to the 
assistance of our team at the compound.
    So we're trying to have more preexisting arrangements like 
that, and that goes to your question. If there are assets in 
the region, how do we plan for contingencies so that they can 
be immediately triggered and try to respond.
    You know, I, obviously, spoke to the White House, I spoke 
to General Petraeus, I spoke to, you know, lots of other people 
that evening trying to get whatever help we could get. We did 
get a surveillance plane above the location, but it took some 
time to get there. It had to be diverted----
    Ms. Duckworth. Unarmed drone. I'm sorry, it was an unarmed 
drone, correct?
    Mrs. Clinton. Yes, it was unarmed. It was on our----
    Ms. Duckworth. UAV.
    Mrs. Clinton. Yeah. UAV, right.
    So we asked for everything we could get, and everybody 
immediately tried to provide it. But I think now there's more 
awareness that maybe we should be doing these scenarios ahead 
of time to try to figure out what could be done without having 
to, you know, reinvent it every time.
    Ms. Duckworth. Thank you.
    I'm out of time, Mr. Chairman.
    Chairman Gowdy. I thank the gentlelady from Illinois.
    The chair would now recognize the gentlewoman from Indiana.
    Mrs. Brooks. Thank you, Madam Secretary.
    I'm going to follow up on what the Congresswoman from 
Illinois is discussing, which is facility. And I appreciate the 
laundry list that you just listed with respect to the security 
improvements or whatever happened with respect to Benghazi.
    But I have to ask you if you're familiar with the fact that 
in the wake of the 1998 bombing attacks in Nairobi and Dar es 
Salaam, Congress passed something referred to as SECCA, the 
Secure Embassy Construction and Counterterrorism Act, which 
requires the Secretary of State to issue a waiver under two 
conditions: If U.S. Government personnel work in separate 
facilities or if U.S. overseas facilities do not meet the 
security setback distances specified by the Bureau of 
Diplomatic Security.
    The law specifies that only the Secretary of State may sign 
these waivers and that requirement is not to be delegated. Was 
a waiver issued for the temporary mission in Benghazi and the 
CIA Annex after the temporary mission compound was authorized 
through December of 2012, and did you sign that waiver, Madam 
Secretary?
    Mrs. Clinton. I think that the--the CIA Annex I had no 
responsibility for, so I cannot speak to what the decisions 
were with respect to the CIA Annex. That is something that I 
know other committees have----
    Mrs. Brooks. But you acknowledge you were responsible for 
the temporary mission compound?
    Mrs. Clinton. Yes, of course, but you put them together. I 
just wanted to clarify that I had no responsibility for the CIA 
Annex, obviously.
    The compound in Benghazi was neither an embassy nor a 
consulate. Those are the only two facilities for which we would 
obtain a formal diplomatic notification, and those were the 
only kinds of facilities that we would have sought waivers for 
at the time because we were trying to, as has been testified to 
earlier, understand whether we were going to have a permanent 
mission or not.
    That means you have to survey available facilities, try to 
find a secure facility, and the standards that are set by the 
interagency Overseas Security Policy Board are the goals we try 
to drive for. But it is very difficult, if not impossible, to 
do that in the immediate aftermath of a conflict situation.
    The temporary mission in Benghazi was set up to try to find 
out what was going on in the area, to work with the CIA where 
appropriate, and to make a decision as to whether there would 
be a permanent facility. So we could not have met the goals 
under the Overseas Security Policy Board, nor could we have 
issued a waiver, because we had to set up operations in order 
to make the assessments as to whether or not we would have a 
permanent mission, whether that mission would remain open. And 
we made extensive and constant improvements to the physical 
security, some of which I mentioned before.
    Mrs. Brooks. Thank you. Madam Secretary, thank you.
    So it is obvious that a waiver was not signed, and you've 
given a defense as to why a waiver was not signed, and it was 
temporary because it was made up. It was something different. 
The compound had never become official. And so therefore you 
did not sign a waiver, which when most of our people are 
stationed in such dangerous places--let me get into that with 
respect to the dangerous places.
    We know that Libya, you've testified before, was incapable 
of providing host nation support, and that involves protecting 
our diplomats and other U.S. Government officials who travel 
there. So if the Libyan people didn't have a government capable 
of providing security and we didn't have U.S. military in 
Libya, then we have two options: We either leave when it gets 
too dangerous or the State Department makes sure that they 
provide that protection.
    And I want to just chat with you a little bit about the 
fact that when Ambassador Stevens returned there in late May 
2012, after being named the ambassador, less than 4 months 
later he was killed, but the number of violent attacks that 
occurred during that summer are off the charts. They're against 
Westerners.
    I'd like you to refer to tab 6. It is a 51-page document 
prepared by your head security guy in Libya. For security 
incidents, serious security incidents between June 2011 and 
July 2012, 51 pages long, 235 significant security incidents, 
235 attacks in one year. In Benghazi, there were 77 serious 
attacks in one year; 64 in 2012.
    Now, let me just tell you, as I flip through this--and I'm 
not talking--Benghazi, as I showed earlier, it is a large city, 
about the size of D.C. or Boston. I'm not talking about violent 
attacks like everyday robberies, burglaries, holdups. I'm 
talking about assassination attempts and assassinations, 
bombings, kidnappings, attacks on the Red Cross. The Red Cross 
gave up and pulled out. The people who always go in when 
disaster strikes, they pulled out. That doesn't include 20 
other major incidents. Bombings on police departments, the 
courts.
    Think about this: If you're in the city of Washington, 
D.C., or Boston, and we're now over in Benghazi and all of 
these types of bombings are happening and these security 
incidents are happening, there are hundreds more actually I 
could talk with you about, but, frankly, I don't have time.
    I hope I've painted the picture, because I'm baffled. You 
sent Chris Stevens to Libya and to Benghazi, and granted, he 
never raised the flag and said, ``I want out,'' and granted, he 
never said, ``Shut down Benghazi,'' and I understand and 
appreciate that you deferred to him. But you also, Madam 
Secretary, we have no record of you ever talking to him, that 
you never talked to him personally after May of 2012 when you 
swore him in as our ambassador.
    Am I wrong? Did you ever talk to Ambassador Stevens when 
all of this was going on in the hotbed of Libya?
    Mrs. Clinton. Well----
    Mrs. Brooks. That is a yes-or-no question, Madam Secretary. 
I'm sorry. Did you ever personally speak to Ambassador Stevens 
after--we don't know the answer--did you ever personally speak 
to him after you swore him in in May?
    Mrs. Clinton. I believe----
    Mrs. Brooks. Yes or no, please.
    Mrs. Clinton. Yes, I believe I did. But I----
    Mrs. Brooks. And when was that?
    Mrs. Clinton. I don't recall. And I want to clarify for the 
record that this document is about all of Libya, not just 
Benghazi. I don't want anybody to be misled.
    Mrs. Brooks. Absolutely, but 77 are about Benghazi.
    Mrs. Clinton. You know, Congresswoman, look, I appreciate, 
and I really do, the passion and the intensity of your feelings 
about this. We have diplomatic facilities in war zones. We have 
ambassadors that we send to places that have been bombed and 
attacked all the time. And----
    Mrs. Brooks. And you're their boss. Is that correct?
    Mrs. Clinton. You're right. You're right I am. And we----
    Mrs. Brooks. And you're their leader. Is that correct? And 
are there ever situations where you call them, where you bring 
them in, where you are personally caring and concerned and are 
letting them know that? Are there situations where you recall--
and I'd like to know what the conversation was with Ambassador 
Stevens and what month it was with Ambassador Stevens, because 
there are no call logs with him. There's nothing from the Ops 
Center with him that we have found. We have no record that you 
had any conversations with the Ambassador after you swore him 
in and before he died, and you were his boss.
    Mrs. Clinton. I was the boss of ambassadors in 270 
countries. I was the boss of ambassadors in places like 
Afghanistan, where shortly before I visited one time the 
embassy had been under brutal assault by the Taliban for hours. 
I am very well aware of the dangers that are faced by our 
diplomats and our development professionals. There was never a 
recommendation from Chris Stevens or anyone else to close 
Benghazi.
    Now, sitting here in the comfort of this large, beautiful 
hearing room, it's easy to say, well, there should have been, 
somebody should have stood up and said do that. But that was 
not the case. And it is a very difficult choice with respect to 
any of these facilities given the level of threat and 
instability that we confront around the world today.
    And it's deeply, deeply distressing when any of our 
facilities or our personnel are in danger. And we do and have 
done the best we can, and I think we can do better, which is 
why I implemented all of the ARB's recommendations, which we 
have barely talked about.
    Mrs. Brooks. And, Madam Secretary----
    Mrs. Clinton. And those were essential in trying to improve 
and better position and prepare and respond, and that's what we 
tried to do.
    And, you know, I find it, you know, deeply, you know, 
saddening because, obviously, everyone, everyone who knew him, 
everyone who worked with him, including Libyans, as I said at 
the very beginning, would have given anything to prevent this 
from happening. Our security professionals usually, in fact 
more than 99-plus percent of the time, get it right.
    Mrs. Brooks. And, Madam Secretary, if we would have given 
anything, had you talked to him in July he would have told you 
that he had asked to keep the security in Libya that he had. He 
was told no by your State Department. We didn't give him 
everything. Thank you.
    I yield back.
    Chairman Gowdy. The gentlelady is out of time. The witness 
may answer the question if she'd like to.
    Mrs. Clinton. Well, it's the same answer I've been giving 
all day. Chris Stevens had an opportunity to reach me directly 
anytime he thought there was something of importance. The 
people with whom he worked, the people who were around him and 
with him, they very well understood the dangers that they were 
confronting, and they did the best they could under the 
circumstances. And many of the security requests, as I just 
detailed, were agreed to; others weren't.
    Chairman Gowdy. The gentlelady from California is 
recognized.
    Ms. Sanchez. Thank you.
    Madam Secretary, I want to begin by thanking you for your 
patience and your endurance during today's hearing. It's been 
quite a long day.
    And I also want to begin by apologizing for my Republican 
colleagues who apparently either want to write your answers for 
you or testify for you, because I think it fits in better with 
their outlandish narratives of what happened.
    And since they insist on criticizing you for not doing 
anything right, I want to talk to you a little bit more about a 
line of questioning that we pursued in the first round of 
questions. I asked you a little bit about what you were doing 
the night of the attacks in Benghazi, and I want to just 
continue that a little bit more.
    Now, you said previously that you had spoken with the White 
House that evening, with the CIA, the Defense Department, and 
the State Department. You also spoke directly with people on 
the ground at the Embassy in Tripoli that night at around 7 
p.m., and I can tell from the documents that we've seen that 
you've asked--you asked to speak with deputy chief of mission 
in Tripoli.
    Can you explain the purpose of that call and why you felt 
that was important?
    Mrs. Clinton. Well, for a number of reasons. They were a 
source of information. They had their own sources on the ground 
that they were reaching out to, trying to gather additional 
insight into what happened, what provoked it, who was behind 
it.
    But much more importantly even than that, they were in a 
great state of dismay and grief. And I thought it was important 
to speak with our team in Tripoli directly so that they knew 
that we were trying as best we could from so far away to help 
them and to help their colleagues.
    We also had pushed to have an additional team of security 
officers fly from Tripoli, and really the embassy in Tripoli 
just took that on. They, in fact, probably came up with the 
idea and put it together and got the plane and sent more help 
on the way to Benghazi. But it was a very personal conversation 
between me and those who were in our embassy.
    This is a place that I'd spent a lot of time and paid a lot 
of attention to, as I said earlier. We had to evacuate the 
embassy before, while Qadhafi was still in power. I talked to 
those people in our embassy family as they were on the ferry 
going from Tripoli back to Malta.
    So we tried to, you know, engage with, listen to, and 
support our teams when they were facing these very difficult 
circumstances.
    Ms. Sanchez. Now, this committee has interviewed your staff 
that was with you that evening of the attacks, your chief of 
staff, Cheryl Mills, and your deputy chief of staff, Jake 
Sullivan, and they explained that you personally participated 
in a secure video teleconference with senior officials from the 
intelligence community, the White House, and the Department of 
Defense.
    Your chief of staff, Cheryl Mills, told the committee that 
your attendance at the deputies-level meeting broke with 
protocol and surprised other attendees, but that you simply 
said, ``These are our people on the ground. Where else would I 
be?''
    Why did you think that it was important for you to 
participate personally in that Deputies Committee meeting?
    Mrs. Clinton. The people who were on that SVTC were part of 
the operational decisionmaking, and I wanted to know firsthand 
from them what they were trying to do to help us, particularly 
DOD. Also the intelligence community, because at that time, as 
I recall, the CIA Annex had not yet come under attack, and we 
were trying to get all Americans out of Benghazi. We were 
trying to provide planes for evacuation.
    So there was a lot of detail that was being worked out, and 
I wanted to be as hands-on as I could be, to know, number one, 
what all the other agencies were doing to help us, and what we 
could do to try to assist them in their efforts to get to 
Benghazi and do whatever was possible.
    Ms. Sanchez. Were the participants surprised by your visit 
on the----
    Mrs. Clinton. Apparently they were, because they weren't 
expecting me to walk into the room and sit down at the table.
    Ms. Sanchez. Do you think that your appearance on that 
teleconference conveyed to them how seriously you were taking 
the attacks and the response to the attacks?
    Mrs. Clinton. I'm sure it did, Congresswoman, but we'd been 
sounding the alarm and reaching out for several hours by then. 
And we were getting a very positive response from everyone. I 
knew----
    Ms. Sanchez. From the Defense Department?
    Mrs. Clinton. Yes, the Defense Department, you know, the 
CIA. Obviously, the White House was deeply involved in reaching 
out and coordinating with us.
    So we knew people were trying to help. There was never, 
ever any doubt about that. I just wanted to hear firsthand 
about their assessments of what they could do. Could they, 
could anybody get there in time? How were we going to evacuate 
the Americans?
    And we were also still unsure of where our Ambassador was, 
which made all of this incredibly difficult for everybody in 
the State Department. We didn't know where he was. We didn't 
know whether he was alive. And it was shortly after that in the 
evening when we found out that he was not.
    Ms. Sanchez. Your chief of staff also explained to this 
committee that you were concerned the night of the attacks, not 
only for the safety of your team in Benghazi, but also about 
your teams in Tripoli and elsewhere. She said this about you, 
``She was very concerned. She was also very determined that 
whatever needed to be done was done. And she was worried. She 
was worried not only about our team on the ground in Benghazi, 
but worried about our teams that were on the ground in Libya 
and our teams on the ground in a number of places given what we 
had seen unfold in Egypt.''
    Can you explain some of the context of the evening and why 
you were concerned, not just about what was happening in 
Benghazi, but the risk that Americans were at elsewhere?
    Mrs. Clinton. Well, that's exactly right. I was quite 
concerned about Tripoli because we didn't know if there would 
be coordinated attacks. We were still trying to gather 
information about who was behind what happened in Benghazi.
    We, in the course of the conversations with our team on the 
ground in Tripoli, began to explore whether they should move 
from where they were in the place that was operating as our 
Embassy at that time to a more secure location. There were lots 
of considerations about what to do to keep our team in Tripoli 
safe.
    And then, as I've testified earlier, we were very concerned 
about the impact of the video sparking unrest, attacks, 
violence in a wide swath of countries. It turned out that that 
was well-founded concern, as we saw the attacks and protests 
across the region all the way to India and Indonesia.
    So there was a lot of effort being put into not only doing 
the immediate tasks before us in Benghazi and doing whatever we 
needed to do to keep our people in Tripoli safe, but beginning 
to talk through and prepare for what might happen elsewhere.
    Ms. Sanchez. I want to switch line of questioning for just 
a second. I've got a couple minutes left.
    Following the attacks on Benghazi but before the 
Accountability Review Board completed its work, you did a 
number of things to evaluate and improve security at overseas 
posts. This is even before the ARB had finished its 
investigation and issued its finding and recommendations. I 
know you've mentioned them multiple times today, but some of my 
colleagues appear to have amnesia about what you really 
accomplished.
    So can you tell me about some of the steps that you took to 
implement in the State Department even before the ARB completed 
its work?
    Mrs. Clinton. Well, although the ARB had not completed its 
own investigation, clearly, in the aftermath of Benghazi, we 
were doing our own evaluation of what had happened, what we 
knew about the circumstances, and what we needed to do to try 
to get ahead of any other potential problems.
    One of the decisions that I made and discussed with General 
Dempsey and Secretary Panetta was how we could get more 
assistance from the Department of Defense. And in particular, 
we sent out teams to the high-threat posts that we had to get 
evaluations from those on the ground so that we would have a 
better idea of where there might be necessary upgrades to 
security that we could immediately try to act upon.
    So we did begin a conversation with the Department of 
Defense, which I think it's fair to say, and as Admiral Mullen 
himself testified, sees the scope of the American diplomatic 
presence as beyond the capacity of the Defense Department to be 
responsive to. So we had to begin to first look at the high-
threat posts, then we had to take the second layer about those 
that we think could become more dangerous going forward and 
really begin this process, which as I told Congresswoman 
Duckworth, I'm confident is still continuing because, you know, 
we can't get behind the curve in being able to predict where 
there might be problems in the future.
    We had a perfect example of that in Yemen. You know, we 
kept the embassy open in Sana'a under some very difficult and 
dangerous circumstances for a very long time. We even moved it 
physically to a more well-defensed position. Thankfully, we 
have not had incidents resulting in American diplomats being 
killed, but it was a constant challenge to us.
    And there are many other examples, like the one that 
Congressman Smith has raised twice, Peshawar, which is an 
incredibly dangerous high-threat post.
    So what we tried to do is to close as best we could the 
relationship between State and DOD. So wherever DOD could help 
us, they would be prepared to factor that into their planning. 
And I was very grateful for their responsiveness.
    Ms. Sanchez. We're grateful for yours. Thank you very much.
    I yield back.
    Chairman Gowdy. The gentlelady yields back.
    The chair will now recognize the gentlelady from Alabama, 
Mrs. Roby.
    Mrs. Roby. Secretary Clinton, I want to follow up on 
questions about the night of the attack and decisions made 
then.
    You wrote in your book ``Hard Choices'' ' that you were 
directing the State Department response the night of September 
11, 2012, but you also stated that you left your office on the 
night of the attacks and went to your home in Northwest 
Washington because you said you knew the next few days were 
going to be taxing and the Department was going to be looking 
to you.
    I want to talk about a few things. Do you have a SCIF in 
your home?
    Mrs. Clinton. Yes, I did.
    Mrs. Roby. Okay. And who else was at your home? Were you 
alone?
    Mrs. Clinton. I was alone, yes.
    Mrs. Roby. The whole night?
    Mrs. Clinton. Well, yes, the whole night.
    Mrs. Roby. I don't know why that's funny. I mean, did you 
have any in-person briefings? I don't find it funny at all.
    Mrs. Clinton. I'm sorry, a little note of levity at 7:15. 
Noted for the record.
    Mrs. Roby. Well, I mean, the reason I say it's not funny is 
because it went well into the night when our folks on the 
ground were still in danger. So I don't think it's funny to ask 
you----
    Mrs. Clinton. Well, Congresswoman----
    Mrs. Roby [continuing]. If you were alone the whole night.
    Mrs. Clinton. Congresswoman, you asked if I had a SCIF. I 
had secure phones. I had other equipment that kept me in touch 
with the State Department at all times. I did not sleep all 
night. I was very much focused on what we were doing.
    Mrs. Roby. Okay. Who was at your office when you left? Was 
Cheryl Mills, your chief of staff, still at the office when you 
left?
    Mrs. Clinton. I don't remember. I know that a lot of my 
staff were there.
    Mrs. Roby. I'm going to go through and name them, we'll see 
if you remember. Jake Sullivan, was he still there?
    Mrs. Clinton. Well, when--yes, they were all there when I 
left. They were all there certainly when I left.
    Mrs. Roby. Okay. Victoria Nuland was there when you left?
    Mrs. Clinton. When I left everyone was there, is my----
    Mrs. Roby. Philippe Reines was there?
    Mrs. Clinton. I can give you a blanket answer. When I 
left----
    Mrs. Roby. Well, no, I'm going to ask specifics. Was 
Patrick Kennedy there?
    Mrs. Clinton. I'm sure he was.
    Mrs. Roby. Was Philippe Reines there?
    Mrs. Clinton. I don't know. I don't know whether he was----
    Mrs. Roby. What about Stephen Mull?
    Mrs. Clinton. I'm sure that the core team at the State 
Department was still there.
    Mrs. Roby. Beth Jones?
    Mrs. Clinton. I'm sure she was.
    Mrs. Roby. And Bill Burns and Thomas Nides?
    Mrs. Clinton. I have no specific recollection of any of the 
names you've given me, because when I left I knew I would stay 
in touch, and I do not know how long anybody else stayed at the 
State Department.
    Mrs. Roby. What time did you learn that Sean Smith had 
died?
    Mrs. Clinton. That was earlier in the evening.
    Mrs. Roby. So that was before you left?
    Mrs. Clinton. Yes.
    Mrs. Roby. Okay. And then what about Ambassador Stevens, 
was that before?
    Mrs. Clinton. It was before I left.
    Mrs. Roby. Okay. And then what about his confirmation of 
his death, before or after you left?
    Mrs. Clinton. We knew that, yes.
    Mrs. Roby. Okay. And what about the recovery of his body? 
Was that before or after you left?
    Mrs. Clinton. We got word that we had a sighting of----
    Mrs. Roby. Confirmation.
    Mrs. Clinton. Well, I'm trying to tell you what we knew and 
how we found out, because it was something that we were trying 
to determine and we had mixed signals about what we learned. 
And it was our understanding, and certainly by the time I left, 
that he was most likely not alive. But I'm not sure exactly 
when we were able to confirm that because it depended upon 
getting firsthand information from a Libyan contact.
    Mrs. Roby. Okay. Where were you when you learned of the 
second attack? Were you at home or at the office?
    Mrs. Clinton. I was at home.
    Mrs. Roby. And did you go back to the State Department when 
you learned about the second attack or did you stay home?
    Mrs. Clinton. I stayed home. I went to the State Department 
early in the morning. The CIA Annex attack, as I recall, was, 
you know, late in the evening, early the next morning, by our 
time around 5 a.m. or so in Benghazi.
    Mrs. Roby. Did you meet with the President that night?
    Mrs. Clinton. I talked with the President. I did not meet 
with him.
    Mrs. Roby. How many times did you talk to the President?
    Mrs. Clinton. I talked to the President that evening. That 
was the only time I talked with him on the 11th, and then I 
went over to the White House the next morning.
    Mrs. Roby. So once. And do you recall what time you spoke 
to the President? You said that evening. Do you recall more 
specifically what time?
    Mrs. Clinton. I think it was late in the evening. I don't 
know exactly when.
    Mrs. Roby. What did you discuss?
    Mrs. Clinton. I'm sorry, what?
    Mrs. Roby. What specifically did you discuss with the 
President?
    Mrs. Clinton. Well, I don't usually talk about my 
discussions with the President, but I can tell you we talked 
about what had happened during the day. I thanked him for his 
very strong support because he made it absolutely clear that 
everyone was supposed to be doing all they could, particularly 
DOD, to assist us wherever possible, and I'm sure I thanked him 
for that.
    Mrs. Roby. What did he say to you?
    Mrs. Clinton. Again, I don't talk about the conversations I 
have with the President. We talked about the events of the day 
and his determination to do everything he could to try to help 
our people in Benghazi.
    Mrs. Roby. Did you meet with Secretary Panetta?
    Mrs. Clinton. No, I did not.
    Mrs. Roby. Did you speak to Secretary Panetta?
    Mrs. Clinton. The next day.
    Mrs. Roby. Not on the 11th?
    Mrs. Clinton. No.
    Mrs. Roby. Okay. Did you talk with General Dempsey?
    Mrs. Clinton. The next morning I did.
    Mrs. Roby. So you did not meet with him or talk with him on 
the 11th?
    Mrs. Clinton. Congresswoman, it wasn't necessary. Everybody 
was doing everything they could think of to do. It's one of the 
reasons I sat in on the SVTC.
    Mrs. Roby. I'm just trying to figure out if you did or you 
didn't.
    Mrs. Clinton. Well, I'm telling you, I sat in on the SVTC 
that Congresswoman Sanchez was asking me about because I wanted 
to talk to the operational people and they were represented on 
that SVTC. They were the ones who were carrying out the orders 
that they received from the President on down.
    Mrs. Roby. What about Petraeus? When did you speak to him?
    Mrs. Clinton. I spoke to Petraeus that afternoon because I 
knew that we had an agreement with the CIA Annex, and I spoke 
with him about an hour after finding out about the attack and 
after gathering information about what we thought was happening 
in Benghazi.
    Mrs. Roby. Did you--our surviving agents were evacuated to 
Tripoli the morning of the 12th. Did you talk to the survivors 
either that night or once they arrived in Tripoli?
    Mrs. Clinton. We did not speak to them directly. We 
obviously made arrangements for them to be safely evacuated and 
then to be transported to a hospital facility that we thought 
was safe from any potential attacks.
    Mrs. Roby. Did you talk to them the next day?
    Mrs. Clinton. No.
    Mrs. Roby. Did you talk to them later that week?
    Mrs. Clinton. No, I did not.
    Mrs. Roby. Did you talk to them when they first got back to 
the United States?
    Mrs. Clinton. I did not talk to them until they had had an 
opportunity to be debriefed and to provide information that 
would help us understand what happened, help the intelligence 
community and help the FBI as they were trying to build their 
case, and----
    Mrs. Roby. How would it have harmed the case that was 
trying--that they were trying to build for you, Secretary of 
State, just to check in on their well-being?
    Mrs. Clinton. I did check on their well-being. I----
    Mrs. Roby. No. Personally.
    Mrs. Clinton. Well, I did personally talk with the people 
who were taking care of them, transporting them to Germany.
    Mrs. Roby. Them, the survivors, when did you talk to the 
survivors?
    Mrs. Clinton. I talked to the survivors when they came back 
to the United States, and one, who was for many months in 
Walter Reed, on the telephone.
    Mrs. Roby. Okay. And----
    Mrs. Clinton. You know----
    Mrs. Roby [continuing]. Going back to Panetta and Dempsey, 
you had stated that they were the decisionmakers----
    Mrs. Clinton. Uh-huh.
    Mrs. Roby [continuing]. But you never spoke with them while 
your people were on the ground?
    Mrs. Clinton. I'm sorry.
    Mrs. Roby. I want to make sure this is clear. Panetta and 
Dempsey were the decisionmakers when it came to response. We've 
already talked about the FEST, so I'm not going to get back 
into that, but what I'm trying to clarify is that they were the 
decisionmakers, your people were on the ground in harm's way, 
and you never had a conversation with them.
    Mrs. Clinton. I did not need to. During the turmoil of that 
afternoon and into the evening, we knew the President had 
personally told them both in the Oval Office that he expected 
them to do everything they possibly could do. And I knew that 
they would then turn to those officers responsible for carrying 
out that order. They were represented on that SVTC. That's why 
I sat in it.
    And remember, too, Congresswoman, we had a lot of other 
threats coming in. We were still worried about Cairo. We had--
--
    Mrs. Roby. Well, I understand, but you had your people on 
the ground that were being attacked.
    I want to get back to the survivors in the little time I 
have left. Did you talk to the survivors directly at all----
    Mrs. Clinton. Yes, I did.
    Mrs. Roby [continuing]. At any point? Can you tell us when?
    Mrs. Clinton. It was kind of a rolling series of 
conversations. When they came back to the State Department, I 
met with and talked with them. As you know, their names have 
never been made public. I don't intend to today.
    Mrs. Roby. Can you give me a month?
    Mrs. Clinton. I'm sorry. What?
    Mrs. Roby. A month?
    Mrs. Clinton. It was--for some of them, it was less time 
than that, and for one of them, I did not--I talked with him on 
the phone. I did not get to physically see him until he'd been 
released from the hospital, and that was early in 2013.
    Mrs. Roby. I think, Mr. Chairman, there's two messages 
here. I think the first message is that--is the message that 
you sent to your personnel the night of the attack, that you 
went home. They all stayed there, and you didn't go back till 
the next morning. I think the second message that is sent is 
that you used the FBI's inquiry as an excuse not to check in 
with your agents who were on the ground who survived that 
horrible night just to ask them how they were.
    And I yield back.
    Mrs. Clinton. Well, if I could respond, Congresswoman. I 
think that, again, is part of a theory that you and your 
colleagues are attempting to weave.
    It was made very clear that the FBI wanted a fresh and 
clean opportunity to speak with the survivors, which I totally 
understand, and, in fact, their investigation has led to the 
charging of at least one person, and I hope we find all of them 
and bring them to justice.
    Chairman Gowdy. The gentlelady yields back.
    The gentleman from Washington is recognized.
    Mr. Smith. Thank you, Mr. Chairman.
    I want to start by pointing out that at this point, 
Secretary Clinton has testified here for longer than she did in 
the previous two testimonies on this subject combined. We've 
been here now for 9\1/2\ hours, and the questions are 
increasingly badgering; I would even go on to say increasingly 
vicious. And, again, we're hoping to elicit information that 
will help us learn what happened and learn how to prevent 
future attacks.
    And it seems to me that really what the majority is doing 
is they simply wish to wear you down and hopefully get you to 
say something that they can then later use. I just--I don't see 
the utility of that. When the chairman returns, I'd be curious 
as to if we just plan on going all night continuing to badger 
the witness or if there is in fact an end point to this because 
I don't think it's fair to the witness to have to sit there for 
that long and go over intimate details.
    I mean, I guess we learned whether or not you had a fax 
machine, so I guess that was useful. But, you know, ``did you 
talk to this person,'' ``did you talk to that person,'' ``was 
this person there,'' ``was the other person there.'' And, you 
know, let me just say, I'm very impressed by the number of 
answers you have and by the memory you have of all the details 
of this event, but I hope we will consider how much longer 
we're going to continue to do this.
    And as to the last line of questioning, I mean, to imply 
that you didn't care about your personnel. How many countries, 
how many different embassies, different consulates did you 
visit during your time as Secretary of State, roughly? I know 
you don't know that off the top of your head.
    Mrs. Clinton. Well, at least 112, and I think more than 
that because I sometimes visited the embassy itself plus the 
consulate in a country that I was in.
    Mr. Smith. And can you give us a flavor--I know you went at 
one point to the Eastern Democratic Republic of the Congo 
because I have an interest in that area, which is a very 
dangerous place to be--can you give us a flavor for some of the 
places where you visited your personnel?
    Mrs. Clinton. Well, Congressman, I did go to the Democratic 
Republic of Congo. I went to Eastern Congo because of the 
horrific violence there and the particularly unstable situation 
in that region.
    I, obviously, went to Yemen, and I have made many trips to 
Afghanistan and Pakistan and had the opportunity to visit our 
diplomats and our development experts in dangerous places.
    One of the, you know, one of the places that is 
particularly hard now is Iraq, and it was hard then.
    Egypt during the revolution was very challenging, and there 
I came under giant protests against the United States, against 
me personally. On a visit to the consulate in Alexandria, my 
team was pelted with tomatoes and shoes and other insults 
hurled at us, which put a lot of pressure on the Diplomatic 
Security.
    I, obviously, went to Tunis and worked hard to help support 
Tunisia, and they, as of now, seem as though they are working 
toward some kind of resolution.
    I visited Beirut.
    I was in Jordan and in Turkey numerous times during the 
uprising against Syria.
    So I think that it's a long list, and it's by no means----
    Mr. Smith. Thank you.
    Mrs. Clinton [continuing]. A complete one.
    Mr. Smith. And let me just say that the line of questioning 
recently has been basically implying that you don't care. Okay? 
There's no other way to interpret what we just heard, is to 
say: ``Oh, you didn't make this phone call, you didn't talk--
well, what month, what day, what time, you know?'' ``Did you 
really care?'' ``Did you visit them three times or just two?'' 
Okay? The line of questioning is implying that you don't care.
    And there are two things that are troubling about that. 
First of all, you do, or you wouldn't be doing this, or you 
wouldn't be representing the people that you do and doing the 
jobs that you did. But second of all, whether or not you care 
has nothing to do with learning what happened in Benghazi and 
how to solve the problem.
    So all the while--and I was chastised last time for 
claiming that the majority was trying to be partisan, and then 
we got a recitation of your political back and forth about how 
to talk about, you know, who should get credit for Libya, you 
know, being chastised for that, but it is clear that they are 
trying to attack you personally. And I really wish that we 
could focus on the issues instead of that. But to get into that 
level of questioning, I think, is not helpful to this 
committee, and it's not even helpful to the Republicans, for 
that matter. It's clear that you care.
    And I'll simply go back to where we've been a couple of 
times. Tell us again, how many embassies do we have in the 
world?
    Mrs. Clinton. We have 270 countries we're represented in.
    Mr. Smith. Right. And on some level, the Secretary of 
State, Secretary Kerry now, you before, is responsible for all 
of them?
    Mrs. Clinton. That's right.
    Mr. Smith. And how many personnel, roughly?
    Mrs. Clinton. Seventy thousand, between the State 
Department and USAID.
    Mr. Smith. And you're responsible for all of them as well.
    Mrs. Clinton. That's true, Congressman.
    Mr. Smith. Can any human being on the face of the planet 
protect every single one of them every second of every day?
    Mrs. Clinton. Well----
    Mr. Smith. That's a rhetorical question.
    Mrs. Clinton. We can try. We can try. And, you know, 
Congressman, we have, as I just said, 270 consulates and 
embassies. We are represented in 194 countries. Some of them 
are very friendly to us. Some of them are our adversaries.
    But I do want to pick up on the point you were making 
because I really appreciate it very much, Congressman. I care 
very deeply about the people who serve our country. I worked 
with them. I knew them. I saw them in action. On my last full 
day as Secretary of State, we were able to hold a ceremony 
awarding the five Diplomatic Security agents the highest award 
for heroism that the State Department has to offer. We held it 
then because we wanted to be sure that the fifth man could be 
there because he'd been in the hospital for so long, and he was 
able to be there.
    I got a chance to meet their families. I got a chance all 
at once, not just individually but all together, to thank them 
and commend them for their heroism. And I'll tell you, the 
agent who had been in the hospital all those months, as I was 
leaving, he called me over and he said: Secretary, please do 
everything you can to make sure I get to go back in the field. 
And I told him I would, and it was one of the requests I made 
on the way out the door. He was determined to go back to do 
what he could to protect our diplomats, to protect you when you 
travel. And I was so struck then, as I had been so many times 
before, about the quality and the integrity and the courage of 
those Americans who serve us, whether in uniform or out. I care 
very deeply about each and every one of them.
    Mr. Smith. Thank you.
    And I do have one other point to make. Do you happen to 
know where the CIA Director, General Petraeus, was when the 
second attack happened on the CIA and where he went? Well, I--
--
    Mrs. Clinton. No, I do not. I don't know where he was when 
I reached him and spoke with him.
    Mr. Smith. Yeah. He was home operating out of a SCIF, and 
after the attack, he continued to operate out of that SCIF. 
Which again is why this would be a far more productive 
investigation if we actually had the CIA Director and DOD 
instead of trying to pick apart every single solitary thing you 
said or did during the course of this, and sometimes even going 
before and after that. If we actually were trying to get to the 
truth of this, we would have a broader array of people to talk 
to so that we could get there, instead of picking you apart at 
every, every conceivable turn.
    You know, we've gone back and forth. And I just want to 
make one other point. Congressman Jordan, you know, I like you. 
I have a great deal of respect for you. But this, you know, 
whole going back twice now to the ``some'' having implied that 
this was because of a video, somehow you just substitute the 
word ``some'' for ``I'' and think that there's no difference 
whatsoever in that sentence, and that's mind-boggling. I mean, 
and then to badger over and over and over and over again: ``Why 
did you say it was because of the video?'' ``Well, I didn't.'' 
``Why did you say it was because of the video?'' ``Well, I 
didn't.'' ``Why did you say it was because of the video?'' You 
know, I guess this can go on for another 6 or 7 hours, but I 
think we all understand the English language. And when you say 
``some have implied,'' that means--well, I guess it means that 
some have implied; some others have implied. So, you know, it's 
just very frustrating.
    I serve on the Armed Services Committee with Mac 
Thornberry, who's the chairman of that committee, and we 
disagree about a heck of a lot, but we have great arguments in 
that committee. But it never ever comes close to descending to 
this level. Congress can, in fact, function. The House Armed 
Services Committee, under Buck McKeon's leadership before him, 
under Mac Thornberry's leadership now, and all of the members 
of that committee, they aggressively question administrative 
witnesses. And I've seen it. And we've gone back and forth and 
done it. But there is always an element of respect for the fact 
that we are all doing a very difficult job, you know.
    And anyone across this dais who's been in a tough campaign 
knows what it's like to have every single thing you say, every 
single thing you do, every look that is on your face, 
everything that you wear picked apart. It's not helpful. It's 
not helpful to the American public, and it's not helpful to the 
political process, and it's damn sure not helpful to the people 
who died in Benghazi or to their families. So I hope we can do 
better, and I hope that we can be done with the repetitive 
badgering after 9\1/2\ hours.
    And I thank you for putting up with it for that long and 
for your service.
    Mrs. Clinton. Thank you.
    Chairman Gowdy. The gentleman yields back.
    The chairman now recognizes the gentleman from Ohio, Mr. 
Jordan.
    Mr. Jordan. Secretary Clinton, to get to the truth about 
Benghazi, we need the complete record. Your emails are part of 
the record, and we believe the record might be incomplete in 
part because your version of events surrounding your email 
situation keeps changing. Last month, on September 20, you 
said, ``I'm being as transparent as possible, more transparent 
than anybody else ever has been.''
    You didn't say ``more transparent than anybody''; you said, 
more transparent than anybody else ever. Now, my definition of 
transparency includes being honest and straightforward, and 
being honest and straightforward right from the start, right 
from the get-go.
    Let's look at a few things that you said here in the last 
few months. On March 10, you said this: you provided all work-
related emails, erring on the side of anything that might be a 
Federal record. In September you revised that statement and you 
said Mr. Blumenthal had some emails that you didn't. Of course, 
the revised statement was after we interviewed Mr. Blumenthal 
about Benghazi and found out that we didn't receive from you 
and the State Department the same information we received from 
him.
    In March, you said it was your practice to email government 
officials on their dot-gov accounts. Later, you revised that 
statement, and you said there was a fraction of emails with 
work-related information sent to government officials on their 
personal accounts.
    Mr. Smith. I'm sorry, but what does this have to do with 
what happened in Benghazi?
    Mr. Jordan. Of course----
    Mr. Smith. When are we going to get there?
    Chairman Gowdy. The gentleman is not recognized. The 
gentleman from Ohio controls the time.
    Mr. Jordan. This is--and it has everything to do because we 
want the records so we can get to the truth. And maybe if the 
gentleman--if the gentleman from Washington would have shown up 
for more than just 1 hour of one interview, he might know a 
little more about the situation as well and the lack of getting 
the records.
    Of course, this second statement, the revised statement, 
was after this committee had contacted Huma Abedin, Jake 
Sullivan, Philippe Reines, asking for their personal accounts, 
which of course you knew would mean we would get their emails, 
and that first statement in March was not accurate.
    In March, you said no classified information was sent or 
received on your personal accounts. You later revised your 
statement and said no information marked classified was sent or 
received on your personal account. And, once again, your 
revised statement was after the Inspector General for the 
Intelligence Community had examined your emails and determined 
that, yes, some indeed were classified.
    Secretary Clinton, it seems like there's a pattern, a 
pattern of changing your story. In March, you say one thing. 
The truth comes out. Weeks and months later, you say something 
else.
    That's not being the most transparent person ever. That's 
not even being transparent. So if your story about your emails 
keeps changing, then how can we accept your statement that 
you've turned over all work-related emails and all emails about 
Libya?
    Mrs. Clinton. Well, Congressman, I have said repeatedly 
that I take responsibility for my use of personal email. I've 
said it was a mistake. I've said that it was allowed, but it 
was not a good choice. When I got to the Department, we were 
faced with a global financial crisis, major troop decisions on 
Afghanistan, the imperative to rebuild our alliances in Europe 
and Asia, an ongoing war in Iraq, and so much else.
    Email was not my primary means of communication, as I have 
said earlier. I did not have a computer on my desk. I've 
described how I did work, in meetings, secure and unsecure 
phone calls, reviewing many, many pages of materials every day, 
attending----
    Mr. Jordan. I appreciate----
    Mrs. Clinton [continuing]. A great deal of meetings. And I 
provided the Department, which has been providing you, with all 
of my work-related emails, all that I had, approximately 55,000 
pages, and they are being publicly released.
    Mr. Jordan. I appreciate that. And let's get into that. 
Those 55,000 pages, there were 62,000 emails, total emails on 
your system. You have stated that you used a multistep process 
to determine which ones are private, which ones are public, 
which ones belong to you and your family, which ones belonged 
to the taxpayer.
    Who oversaw this multistep process in making that 
determination of which ones we might get and which ones that 
were personal?
    Mrs. Clinton. That was overseen by my attorneys, and they 
conducted a rigorous review of my emails and were----
    Mr. Jordan. And these are the folks sitting behind you 
there, Mr. Kendall, Ms. Mills, Ms. Samuelson?
    Mrs. Clinton. Yes. That's right.
    Mr. Jordan. All right. And you said ``rigorous.'' What does 
that mean?
    Mrs. Clinton. It means that they were asked to provide 
anything that could be possibly construed as work-related. In 
fact, in my opinion, and that has been confirmed by both----
    Mr. Jordan. But I'm asking how----
    Mrs. Clinton [continuing]. The State Department and----
    Mr. Jordan. But I'm asking how it was done. Was--did 
someone physically look at the 62,000 emails, or did you use 
search terms, date parameters? I want to know the specifics.
    Mrs. Clinton. They did all of that. And I did not look over 
their shoulders because I thought it would be appropriate for 
them to conduct that search, and they did.
    Mr. Jordan. Will you provide this committee--or can you 
answer today, what were the search terms?
    Mrs. Clinton. The search terms were everything you could 
imagine that might be related to anything, but they also went 
through every single email.
    Mr. Jordan. But that's not answering the question. What 
were the search terms? Search terms means terms. What terms did 
you use----
    Mrs. Clinton. I did not----
    Mr. Jordan [continuing]. And what were the date parameters? 
With what date did you start? What was the end date and the 
emails in between they were going to look at?
    Mrs. Clinton. Well, Congressman, I asked my attorneys to 
oversee the process. I did not look over their shoulder, I did 
not dictate how they would do it. I did not ask what they were 
doing and how they----
    Mr. Jordan. So you don't know?
    Mrs. Clinton [continuing]. Made the decisions.
    Mr. Jordan. You don't know what terms they used to 
determine which ones were your emails and which ones the State 
Department got and therefore we might get?
    Mrs. Clinton. You know, the State Department had between 90 
and 95 percent of all the ones that were work-related. They 
were already on the system. In fact, this committee got 
emails----
    Mr. Jordan. I'm not asking about those. I'm asking about 
the 62,000 that were exclusively on your system.
    Mrs. Clinton. Ninety to 95 percent of all work-related 
emails were already in----
    Mr. Jordan. Well, we know that the National Archivist--
Secretary Clinton, we know the National Archivist said 1,250 
were clearly personal, no way we should have--no way you should 
have sent them to the State Department. And then we also know 
that 15 you missed because we got those from Mr. Blumenthal 
when he came and was--for his deposition.
    So if you missed 15 you should have given us and you gave 
us 1,250 that, not we say, but the National Archivist says you 
never should have turned over, you erred on both sides. So, 
again, that's why we want to know the terms because if you've 
made a mistake both ways, you might have made more mistakes we 
don't know.
    Mrs. Clinton. Well, first of all, you had nine hours with 
one of my attorneys. And since, I think, the Democrats just 
finally released the transcript----
    Mr. Jordan. And I----
    Mrs. Clinton. I haven't had a chance----
    Mr. Jordan. And I specifically asked Ms. Mills. I did.
    Mrs. Clinton. Well----
    Mr. Jordan. I did. I asked her about this, and she gave me 
basically the same kind of answer you're giving me.
    Mrs. Clinton. Well, she'll be happy to supplement the 
record if she----
    Mr. Jordan. Well, she's not on the witness stand today; you 
are, and I'm asking you.
    Mrs. Clinton. Well, but I asked my attorneys to do it. I 
thought that was the appropriate way to proceed.
    Mr. Jordan. Let me do one other statement. Let me do one 
other statement----
    Mrs. Clinton. Okay.
    Mr. Jordan [continuing]. Because it sounds like--I hope 
you'll turn those--I hope we'll know the terms. I think the 
American people would like to know what terms you used to 
determine what we might get so that we could get all the 
information on Libya and find out what happened where these 
four Americans gave their lives. I think that's critical.
    In March you also said this: your server was physically 
located on your property, which is protected by the Secret 
Service. Now, I've had a hard time figuring this out, because 
this story's been all over the place, but there was one server 
on your property in New York and a second server hosted by a 
Colorado company and housed in New Jersey. Is that right? There 
were two servers?
    Mrs. Clinton. No.
    Mr. Jordan. Okay.
    Mrs. Clinton. There was a--there was a server----
    Mr. Jordan. Just one?
    Mrs. Clinton [continuing]. That was already being used by 
my husband's team, an existing system in our home that I used. 
And then, later, again, my husband's office decided that they 
wanted to change their arrangements, and that's when they 
contracted with the company in Colorado.
    Mr. Jordan. And so there's only one server, is that what 
you're telling me, and it's the one server that the FBI has?
    Mrs. Clinton. The FBI has the server that was used during 
the tenure of my State Department service.
    Mr. Jordan. Okay. In your statement, you say, which was 
protected by the Secret Service. Why'd you mention the Secret 
Service?
    Mrs. Clinton. Well, because----
    Mr. Jordan. And here's why I'm--could a Secret Service 
agent standing at the back door of your house protect someone 
in Russia or China from hacking into your system? Why did you 
mention the Secret Service agent?
    Mrs. Clinton. Out of just an abundance of being 
transparent.
    Mr. Jordan. Transparent? I--but--and how--what's the 
relevance to protecting from classified information?
    Mrs. Clinton. There was nothing marked classified on my 
emails, either sent or received. And I want to respond----
    Mr. Jordan. You used the right term there, you used 
``marked.'' That's the one--that's what you----
    Mrs. Clinton. Well, but that's----
    Mr. Jordan. You used the revised statement there.
    Mrs. Clinton. Well, Congressman, there was a lot of 
confusion, because many Americans have no idea how the 
classification process works, and therefore, I wanted to make 
it clear that there is a system within our government, 
certainly within the State Department, where material that is 
thought to be classified is marked such so that people have the 
opportunity to know how they are supposed to be handling those 
materials.
    Mr. Jordan. I've got one----
    Mrs. Clinton. And that's why it became clearer, I believe, 
to say that nothing was marked classified at the time I sent or 
received it.
    Mr. Jordan. All right. All I know is that's different than 
what you said in March.
    I've got one last question. The FBI's got your server. 
They're doing a forensic review of your server. They may, they 
may recover emails that you deleted from your system. So I 
didn't say this, you said it, and you just said it a little bit 
ago, too, transparency. You said you were the--more transparent 
than anybody else ever. So I want to just ask you one simple 
question. If the FBI finds some of these emails that might be 
deleted as they're reviewing your server, will you agree to you 
allow a mutual third party, like a retired Federal judge, to 
review any emails deleted to determine if any of them are 
relevant to our investigation?
    Mrs. Clinton. Congressman, as you point out, there is a 
security inquiry being conducted by the Department of Justice, 
and I trust that they will do whatever is appropriate to reach 
their conclusions.
    Mr. Jordan. But would you, as the most transparent person 
ever, would you commit to say if--whatever they find, I went to 
a retired Federal judge to evaluate that and look and see if we 
need some of that information to get to the truth?
    Mrs. Clinton. I have been releasing my emails to the 
public. That is transparency. And as I stand by my statement, 
so far as I know, in the modern era, I am the only government 
official who's ever done that.
    Mr. Jordan. Thank you. Thank you, Madam Secretary.
    Chairman Gowdy. The gentleman's time has expired.
    The chair will now recognize the gentleman from Georgia, 
Mr. Westmoreland.
    Mr. Westmoreland. Thank you.
    Secretary Clinton, so far today I've said good morning, 
good afternoon, and----
    Mrs. Clinton. Are you all serving breakfast, Congressman?
    Mr. Westmoreland [continuing]. Good evening, so let me go 
ahead and say good night.
    You know, I may be the only person on this side that 
doesn't really care about your personal email because I know 
that I think you said Colin Powell had one.
    The thing that bothers me is that it was a personal server. 
I think that's the difference because Mr. Powell's emails all 
went through the State Department server. So just to clarify 
it, I think the problem is that you had the full control of 
your emails because they were on a private server and not the 
government server.
    The other thing I'd like to say is to Ms. Duckworth, if you 
would read the testimony of the number of Diplomatic Security 
agents that served in Benghazi, most of them were temporary 
duty, 45-, 60-day people that served. If you will read that, I 
think you'll find that a lot of these things that the Secretary 
said as far as enhancements was paid for by petty cash out of 
their own money and not really fulfilled or completed.
    The other thing I want to ask you, Madam Secretary----
    Ms. Duckworth. Will the gentleman yield for just 20 
seconds?
    Mr. Westmoreland. Yeah.
    Ms. Duckworth. I think that's why it behooves us as Members 
of Congress to increase the security budget for the State 
Department. They routinely get less than they need, and I think 
that Americans in general would not begrudge more money for 
security to safeguard our diplomats. But I agree with you that 
the report does say that.
    Mr. Westmoreland. Well, reclaiming my time. There was $20 
million that she was going to send to Libya for their security 
upgrades.
    You mentioned the sixth man, that you had to wait on the 
sixth man.
    Mrs. Clinton. The fifth man. I'm sorry. The fifth man.
    Mr. Westmoreland. Okay. All right. I was going to say there 
must have been somebody hiding in a closet or something that we 
didn't know about.
    You also said in one of the last things that the State 
Department sent more security from Tripoli to Benghazi during 
the attack?
    Mrs. Clinton. Uh-huh.
    Mr. Westmoreland. There was not a State Department person 
on that plane. There were four GRS agents and two TDY DOD 
people.
    Mrs. Clinton. And----
    Mr. Westmoreland. And an interpreter.
    Mrs. Clinton. Well, that--that is exactly right, and that's 
why the cooperation and coordination that----
    Mr. Westmoreland. Well, ma'am----
    Mrs. Clinton [continuing]. I have been talking about with 
Congresswoman Duckworth----
    Mr. Westmoreland. From all the information we've got, Mr. 
Glen Doherty is the one that said, we are going down to help 
our brothers. And he got permission from the chief of station 
to go down there, and he took three other GRS agents and then 
he got the two DOD guys that wanted to go, volunteered to go, 
they took their interpreter, they chartered the plane and they 
went down there. It was not a State Department deal. And, in 
fact, if you want to know the truth, the only option that the 
State Department had was the FEST team, as we--you and I talked 
about before.
    Now, you mentioned that it was for rebuilding. And I've got 
the State Department thing here about the FEST. And I would 
read it, but it's going to take up too much of my time, but 
there's not anything in--it doesn't say anything about 
rebuilding anything. It says that it's for crisis-management 
expertise; time-sensitive information; planning for contingency 
operations; hostage-negotiating expertise, which we thought at 
one time that the Ambassador may have been kidnapped; reach-
back to Washington, D.C., agencies; and specialized 
communications capabilities.
    Now, that's what it says on the State Department web site. 
And, you know, that would have been the one thing that you 
could have done to get people on the way over there to help 
those folks that were still in an ongoing battle that was ready 
to go, sitting there, but you know what? It never got--that 
plane never got out of the hangar. Those people never got 
assembled. And we've got a chain of emails that the first 
recommendation came back is the FEST from your own people, and 
then the FBI told your employees that the best way to handle 
the situation was to send the FEST team and that was the way it 
had always been done.
    So did you make the decision not to send the FEST team?
    Mrs. Clinton. Well, Congressman, first, let me say that 
it's important to recognize that our Deputy Chief of Mission, 
Greg Hicks, was fully engaged in helping to put together the 
team that flew from Tripoli to Benghazi. And we were very 
grateful that the CIA station chief and his colleagues were 
behind that, and we were, you know, very appreciative.
    They, as you know, didn't get there in time because the 
attack on the compound was very swift; it was over in less than 
an hour, but they did help eventually to evacuate. And it was 
just an additional tragedy that Mr. Doherty lost his life in 
attempting to stave off the attack on the CIA Annex.
    With regard to the FEST recommendation, everything you read 
was no longer applicable to our compound in Benghazi. Unlike 
the FEST team responding in Nairobi, where we were going to 
have an ongoing embassy presence, that was our embassy, the 
FEST team was very much involved in helping to stand up the 
communications and literally begin to get the embassy 
functioning again, despite the fact that Americans and many of 
the locally employed staff had been murdered in the terrorist 
attack. So it was our judgment that the FEST team was not 
needed, was not appropriate for Benghazi.
    Mr. Westmoreland. But you really didn't know what was going 
on at that point, when you could have pulled----
    Mrs. Clinton. Well, we did know. We knew from the reports 
we were getting back from our Diplomatic Security officers that 
they had had to abandon the facility, that it had been set on 
fire, it----
    Mr. Westmoreland. Okay.
    Mrs. Clinton. And--and it was--they were forced to take 
refuge with our CIA colleagues at the CIA Annex. And remember, 
the FEST team is not an armed reaction force. That is not what 
a FEST team does.
    Mr. Westmoreland. Ma'am, I know that.
    Mrs. Clinton. And so we had armed reinforcements coming 
from Tripoli.
    Mr. Westmoreland. But that was the only tool that you had 
to get people over there yourself, not the DOD.
    Mrs. Clinton. But the----
    Mr. Westmoreland. This was the----
    Mrs. Clinton. I'm sorry, Congressman.
    Mr. Westmoreland. Well----
    Mrs. Clinton. I mean, look----
    Mr. Westmoreland. Evidently it has been--it has served its 
purpose from being put into different places it has responded 
to.
    But I want to talk to you just a little bit about your 
emails, and that is that I think you said it was October that 
you received the letter that asked you and former secretary of 
states to present all their emails. Is that correct?
    Mrs. Clinton. That's my memory, yes.
    Mr. Westmoreland. Okay. Now, in August, the State 
Department met with your attorneys to talk about the lack of 
the emails that they had. Did you know that?
    Mrs. Clinton. I didn't at the time, no.
    Mr. Westmoreland. You didn't know that they were meeting--
that the State Department was meeting with your attorneys?
    Mrs. Clinton. Not--not at that time. And as you also 
recall, the State Department was beginning to turn over to this 
committee my emails, because they had between 90 and 95 percent 
of all my work-related emails----
    Mr. Westmoreland. But----
    Mrs. Clinton [continuing]. In the State Department system.
    Mr. Westmoreland. But, ma'am, they met with your attorney, 
and your attorney that they met with happened to be Cheryl 
Mills, which was your chief of staff.
    Mrs. Clinton. That's correct. That's correct.
    Mr. Westmoreland. Now, is that weird that your attorney was 
your chief of staff, so that attorney-client privilege may have 
kicked in there----
    Mrs. Clinton. She was----
    Mr. Westmoreland [continuing]. Somewhere?
    Mrs. Clinton. She was my counsel before she was my chief of 
staff. She became my counsel again after she was my chief of 
staff.
    Mr. Westmoreland. Well, I know that when the email went out 
that night, it called everybody under secretary, director, 
spokesman, and it said, Ms.--she--Ms. Mills was counselor. It 
didn't say chief of staff. And that was the night of the 
attack.
    But let me just go a little bit further. You said that you 
found out in October, but your attorneys met with the State 
Department, and I believe it was in August. Now, from that 
time, you said you turned over everything and that your lawyers 
went through this. And I believe it was in November, after 
finding out in October, that they had reviewed all these 
emails. Now, the State Department hadn't been able to give us 
all those emails in 2 years, but your attorneys--how many--you 
must have some of the fastest reading attorneys in the world to 
go through that, and I know you've got a group of them sitting 
behind you, but how many attorneys does it take to go through 
65,000 emails in 2 months?
    Mrs. Clinton. Well, first of all, the process to provide 
information to the Congress with respect to Benghazi started 
before I left the State Department. There was a concerted 
effort to gather up any information that might be responsive.
    Mr. Westmoreland. Did you tell them you had a private 
server at that time?
    Mrs. Clinton. You know, I don't--I know that----
    Mr. Westmoreland. Well, if they were gathering emails, you 
had to tell them that you had a private server----
    Mrs. Clinton. Well----
    Mr. Westmoreland [continuing]. Because you were there.
    Mrs. Clinton. Well, the server is not the point; it's the 
account. And I made it a practice to send emails that were 
work-related to people on their government accounts. In fact--
--
    Mr. Westmoreland. Ma'am----
    Mrs. Clinton [continuing]. You know, Secretary Kerry is the 
first Secretary of State to rely primarily on a government 
account. So----
    Mr. Westmoreland. But I'm not talking about the account; 
I'm talking about the server. But one last point. Let me just--
I'll close with this, and then the chairman can give you time 
to answer. You want me to tell you what I thought? I think that 
your attorneys sat down with the State Department, and they 
said: We've got a problem, and so we've got to come up with 
something that this is not just the secretary having these 
emails in a private server, so I tell you what let's do. Let's 
go back and ask Madeleine Albright, who was Secretary of State 
in 1997, that never even had an email account, or let's go back 
and ask, you know, Colin Powell, Condoleezza Rice, and me to 
provide all this information.
    Ms. Sanchez. Regular order, Mr. Chairman.
    Mr. Westmoreland. I'm just telling you, it smells, it 
doesn't smell right.
    And so I yield back.
    Mrs. Clinton. Well, if I could respond, I think in the 
course of trying to answer and archive information, the State 
Department determined that they did have gaps in their record-
keeping, and it was much more than about me. They had gaps with 
respect to others, both other Secretaries and others within the 
State Department. And the technology in the State Department, 
indeed, throughout our entire government, is notoriously 
difficult and often unreliable. And I think it was the State 
Department's efforts to try to fill some of those gaps. So I 
didn't know at the time that there had been such a meeting. I 
learned of it subsequently.
    And when I received a copy of the letter that was sent by 
the State Department to me and the other three preceding 
secretaries of state, I immediately said, ``Well, let's help 
them fill the gaps,'' even though I believed that the vast 
majority of my emails were already in their system, and we did. 
We conducted the investigation, the survey that I have 
described to you, and turned over more than 30,000 work-related 
emails, 55,000 pages, to the State Department; 90 to 95 percent 
were already there. We sent so many that some were going to be 
returned because they were clearly not work-related.
    We did our best. I did my best to make sure that if there 
were gaps in record-keeping, at least my materials would be 
there to help fill any gaps above and beyond the 90 to 95 
percent of emails that were already in the system.
    Mr. Westmoreland. Well, I'm not an attorney, but I think 
Ms. Mills is a good attorney----
    Ms. Sanchez. Regular order, Mr. Chairman.
    Mr. Westmoreland [continuing]. And she never told you----
    Ms. Sanchez. At this late hour, I----
    Mr. Westmoreland. She never told----
    Ms. Sanchez [continuing]. Insist that----
    Mr. Westmoreland. She never told you----
    Ms. Sanchez [continuing]. 4 minutes after regular 10 
minutes of time----
    Chairman Gowdy. The gentleman is----
    Ms. Sanchez [continuing]. Should be cut off with 
questioning.
    Chairman Gowdy. The gentleman is out of time, just like 
almost every other member has been out of time.
    Ms. Sanchez. Not 4 minutes out of time, Mr. Chairman.
    Chairman Gowdy. Well, you'd be surprised.
    Ms. Sanchez. Well, it's a late hour----
    Chairman Gowdy. The gentleman from California----
    Ms. Sanchez [continuing]. And our witness has been here for 
more than 9 hours.
    Chairman Gowdy. And as soon as----
    Ms. Sanchez. I think in the interests of brevity----
    Chairman Gowdy. And as soon as the gentlelady finishes, 
I'll recognize the next member.
    Ms. Sanchez. Thank you, Mr. Chairman. I appreciate that 
courtesy.
    Chairman Gowdy. The gentleman from California is 
recognized.
    Mr. Schiff. Well, Madam Secretary, I don't know how you're 
doing, but I'm exhausted. If we stay here much longer, you're 
going to have to take that 3:00 a.m. phone call from the 
committee room. In fact, your testimony has not only gone on 
longer than both of your prior testimonies to the House and 
Senate combined, but I'm, I don't know if ``pleased'' is the 
right word, but I'm able to inform you that your testimony now 
has gone on longer than all of the other hearings that we have 
held combined, but in the interest of full disclosure, we 
haven't done very much. So we've only had three hearings in the 
last year and a half, but still that's pretty impressive 
because some of those hearings were with multiple witnesses, 
and you have now outlasted all of them.
    But I do think you can tell when you're getting to the 
point of diminishing returns when you have members of the panel 
who are inventing testimony for you or imagining conversations 
you're having with your lawyer as well.
    As for your emails, I feel like channeling Bernie Sanders 
here tonight, but I'm no Larry David, and I know I wouldn't do 
it right, so instead, I'll tell you about the other person I 
agree with on your emails, and it's our chairman, who was asked 
on Fox News by Chris Wallace what your email use has to do with 
investigating what happened in Benghazi, and Chairman Gowdy's 
response was: ``Well, probably not much of anything.''
    As we, you know, I hope wind up tonight, I want to just 
make one observation about your emails because I think it's 
true of the investigation generally. For all the talk about 
your emails, what's interesting to me is not a member here, 
either on the news or in leaked form or whatever, has said 
anything about the content of your emails that added any 
insight to what we already know. So it's fascinating to me that 
for all of this talk, they have not pointed to a single thing 
in those emails of substance that alters our understanding of 
what happened in Benghazi; that alters the conclusions of those 
seven or eight other investigations.
    And what's true of your emails is true of this broader 
investigation, which is here we are 17 months later, $4.5 
million later, and we have nothing new to tell the American 
people.
    I have struggled to find something to ask you tonight that 
hasn't already been asked an infinite number of times, an 
infinite number of ways, and I'm not going to go through the 
exercise of searching for a question to be asked again. It's 
too late for that.
    But having, I guess, started by pondering what the core 
theory was of my colleagues--and I do appreciate at least one 
of them taking a stab at it. I do feel it's my responsibility 
now as I wind up to tell you what my theory of what's happening 
is. Speaker Boehner did not want to form this committee. He 
said so, not to me, but he said so on national TV. He said: 
``What is to be gained by having yet another committee after 
all the other committees we've had investigate? What is to be 
gained by this? This is a bad idea.''
    At some point, something changed the Speaker's mind. Now, 
I'm not in the room when the Speaker makes the decision to 
reverse course. In reading a profile of our chairman, he wasn't 
in the room either. He got a call from the Speaker when he was 
back in his district saying: I've decided to form a select 
committee. How would you like to be the chairman? I bet Mr. 
Chairman wishes he never got that call.
    So who was in the room? Well, Kevin McCarthy was in the 
room. There was nobody better situated to know why this 
committee was formed or why the Speaker changed his mind than 
the Speaker's number two, Kevin McCarthy. So, with all due 
respect to our chairman who says, ``Shut up, other Members. You 
don't know what you're talking about,'' I'd have to say 
actually the one person who does know what he's talking about 
was Kevin McCarthy. So that's why I think we're here.
    And it would be one thing if it was that common in 
isolation. It would be another if we didn't have one of their 
own team, a GOP investigator, who's going to vote for whoever 
the Republican nominee is, he tells us proudly, saying the same 
thing. But it's the way we've conducted ourselves that is the 
most compelling evidence that that's the only object here.
    I mean, I think we've seen amply tonight in the questions, 
there's very little interest in what actually happened. There's 
not much interest in how we can prevent it in the future. But 
there's a lot of interest in trying to score points against you 
tonight. Everybody, I think, on this side of the podium is 
hoping they're the one that does the gotcha that makes the 
news. Well, it's a terrible abuse of our responsibility and our 
power, and I think we'll rue the day that we did this.
    I have no questions, Madam Secretary. And I appreciate your 
patience.
    And I yield back. I'd be happy to yield to my colleague, 
Mr. Cummings.
    Mr. Cummings. Madam Secretary, I want to associate myself 
with the voice of my colleague, but I want to go back to the 
ARB. In my 20 years on the Oversight Committee, one of the 
things that I've tried to do is try to make sure that I've 
protected the reputations of the people who come before our 
committee, be they Republican witnesses, be they Democrat or 
independent. The reason being, that I realize that there's life 
after the hearing. And so often, Madam Secretary, what happens 
is people come before these hearings, their family is watching, 
colleagues watching. They are torn apart, and then, in many 
instances, we think to correct it later on. Instead of it 
appearing on the front page of the newspaper, it's on page 33 
at the bottom in a little paragraph.
    And you were talking a little bit earlier about the night 
of the tragedy. And I've done a lot of depositions in my life 
as a lawyer, but I can tell you, and I think you should be very 
proud of this, when I listened to Cheryl Mills, to Mr. 
Sullivan, and Ms. Abedin, when they talked about this night and 
what you did that night, in their transcribed interviews, all 
of them were basically brought to tears. And I remember sitting 
there saying to myself, you know, if you can create a culture 
in an organization where people, in talking about their boss 
and how she reacted and what she felt, that would bring them to 
tears, it says a lot. And I realize that you've gone through a 
lot, but the fact still remains that--and it bothers me when I 
hear people even imply that you didn't care about your people. 
That's not right. And then I sit here and I watch you, and I 
saw how you kind of struggled when you were talking about that 
night. And I just for one want to thank you, and I appreciate 
what you've done. It has not been easy.
    You're right. It's easy to sit up here under these lights 
and Monday morning quarterbacking about what could have been, 
what should have been done. You have laid it out. I think you 
have said you have--this has not been done perfectly. You wish 
you could do it another way. And then the statement that you 
made a few minutes ago when you said, you know, I have given 
more thought to this than all of you combined.
    So I don't know what we want from you. Do we want to badger 
you over and over again until you get tired, until we do get 
the gotcha moment that he's talking about? We're better than 
that. We are so much better. We are a better country, and we're 
better than using taxpayer dollars to try to destroy a 
campaign. That's not what America is all about.
    So you can comment if you like. I just had to get that off 
my chest.
    Madam Secretary.
    Mrs. Clinton. Thank you, Congressman.
    I came here because I said I would, and I've done 
everything I know to do, as have the people with whom I worked, 
to try to answer your questions. I cannot do any more than 
that. The answers have changed not at all since I appeared two 
years ago before the House and the Senate.
    And I recognize that there are many currents at work in 
this committee, but I can only hope that the statesmanship 
overcomes the partisanship. At some point, we have to do this.
    It is deeply unfortunate that something as serious as what 
happened in Benghazi could ever be used for partisan political 
purposes. And I'm hoping that we can move forward together. We 
can start working together. We can start listening to each 
other.
    And I appreciate greatly what you said, Ranking Member 
Cummings.
    Mr. Cummings. Thank you very much.
    Chairman Gowdy. Madam Secretary, before we go to Mr. 
Pompeo, Mr. Schiff from California made reference to a phone 
call that I received from Speaker Boehner, which he's correct, 
I did. And Speaker Boehner never mentioned your name in the 
phone call.
    And then my friend from California suggested that maybe I 
wished I had not received that phone call, and I'd like to 
assure him that he could not be further from the truth.
    Learning about the four people, two of whom you worked with 
and all four of whom we count as fellow Americans, is worth 
whatever amount of political badgering that may come my way. I 
have seen the personification of courage and public service. 
So, Adam, to answer your question is, no, I don't regret it. 
I'm a better person for having learned more about the four 
people that we lost in Benghazi, and that's why we signed up 
for it.
    And, with that, I'll go to Mr. Pompeo.
    Mr. Pompeo. Thank you, Mr. Chairman.
    Mr. Schiff, you also suggested that you had to be in the 
room with the Speaker. You're right. He was originally against 
the formation of this committee, but you don't have to guess as 
to why he formed it. He made it clear when he announced this 
committee. It was because the State Department turned over 
information in a FOIA request that had not been turned over to 
the previous committees. He was concerned about that, and he 
realized that the State Department and other government 
agencies may well not have provided those other committees the 
information they needed to complete their task. So you don't 
need to speculate.
    One more administrative item. Mr. Westmoreland said there 
was a meeting between your counsel, Ms. Mills, and State 
Department regarding your emails. He said the meeting was in 
August. It was actually in July. It was a little bit earlier, 
and I just wanted to make sure that the record reflected that.
    Secretary Clinton, I have a few questions to ask you. We've 
saved them for the end of the day because it may be that you 
can't provide answers to me to these questions in an open 
setting, but it's been a long day, I wanted to give you that 
heads up. These are questions that I would like to get 
answered, but it may be that an open hearing is not a place 
which you'll be permitted to provide those answers because of 
the nature of the answers you'll provide. These are yes-or-no 
questions.
    Were you aware or are you aware of any efforts by the U.S. 
Government in Libya to provide any weapons, either directly or 
indirectly or through a cutout, to any Libyan rebels or 
militias or opposition to Qadhafi's forces?
    Mrs. Clinton. That was a very long question, and I think 
the answer is no.
    Mr. Pompeo. Were you aware or are you aware of any U.S. 
efforts by the U.S. Government in Libya to provide any weapons, 
directly or indirectly or through a cutout, to any Syrian 
rebels or militias or opposition to Syrian forces?
    Mrs. Clinton. No.
    Mr. Pompeo. Were you aware or are you aware of any efforts 
by the U.S. Government in Libya to facilitate or support the 
provision of weapons to any opposition of Qadhafi's forces, 
Libyan rebels, or militias through a third party or country?
    Mrs. Clinton. No.
    Mr. Pompeo. Did you ever consider the idea of using private 
security experts to arm the opposition?
    Mrs. Clinton. Using private security?
    Mr. Pompeo. Yes, ma'am. Did--I'll ask the question again. 
Did you ever at any time consider the idea of using private 
security experts to arm the opposition in Libya?
    Mrs. Clinton. Not seriously, no.
    Mr. Pompeo. What does ``not seriously'' mean, ma'am?
    Mrs. Clinton. Well, I think you're referring to a reference 
in one of Sid Blumenthal's emails.
    Mr. Pompeo. No, ma'am. I'm referring to a reference in your 
email.
    Mrs. Clinton. Well, the answer is no.
    Mr. Pompeo. Ma'am, I'll read you the email. It says: 
``FYI''--this is to Mr. Sullivan, seated behind you. It says: 
``FYI, the idea of using private security experts to arm the 
opposition should be considered.''
    Were you just not serious?
    Mrs. Clinton. It was not considered seriously.
    Mr. Pompeo. But you thought about it. You thought it might 
be both appropriate and lawful when you sent that note to Mr. 
Sullivan.
    Mrs. Clinton. Well, I'm open to ideas, but that doesn't 
mean that they're either considered seriously or acted upon.
    Mr. Pompeo. Were there any further emails or discussion 
with respect to that issue of potentially arming private 
experts--or having private experts arm the Libyans?
    Mrs. Clinton. Not that I'm aware of.
    Mr. Pompeo. Another series of yes-or-no questions, Madam 
Secretary. Did you ask the Department of Defense how you were 
going to get your people out the evening that the incident 
occurred?
    Mrs. Clinton. That was one of the matters that was 
discussed with the Department of Defense, yes.
    Mr. Pompeo. And did you ask about what assets were 
positioned in place that they might be able to help?
    Mrs. Clinton. Of course. That was part of the conversation 
from the very beginning.
    Mr. Pompeo. Did you ask about how long it might take them 
to arrive either in Tripoli or Benghazi?
    Mrs. Clinton. Yes, we did.
    Mr. Pompeo. You earlier said today, a couple hours back, 
that there were no military resources that could have arrived 
in Benghazi in a reasonable time. That is your testimony from 
today. What was a reasonable time?
    Mrs. Clinton. According to what we were told by the Defense 
Department, within a number of hours. There was not any way to 
get assets deployed in time to get to Benghazi. Of course, it 
was too late for our compound. And the idea of evacuating from 
the CIA Annex was seriously addressed before the attack but 
then, obviously, implemented after.
    Mr. Pompeo. Yes, ma'am. But when the initial attack 
occurred, you had no idea how long the incidents would 
continue, did you?
    Mrs. Clinton. It was over within an hour.
    Mr. Pompeo. Yes, ma'am. There was a subsequent attack and 
could have been a third and a fourth. So when the initial 
attack occurred, did you have any idea what the magnitude and 
the duration of the events of that night would be?
    Mrs. Clinton. Congressman, I don't understand your 
question. We knew that the attack was over. We knew that our 
Diplomatic Security team had to evacuate from the compound to 
the CIA Annex, and we were in a frantic search to find 
Ambassador Stevens.
    Mr. Pompeo. Yes, ma'am. But several hours elapsed, and 
there was a subsequent attack. And you didn't know that that 
subsequent attack would take place, I'll concede that.
    My question is, why was heaven and earth not moved at the 
initial sound of the guns, maybe even putting tankers in the 
air from McConnell Air Force Base in Kansas? You simply didn't 
know how long the series of events was going to continue, nor 
did you know how long the risk to the people that worked for 
you was going to remain.
    Mrs. Clinton. Congressman, you will have to ask the Defense 
Department these questions. We certainly asked that all effort 
be made to deploy any assets that could be of use in Benghazi. 
I know that they put a number of assets in the United States, 
in Europe, on alert, but we were advised that it would take a 
number of hours to get there. And, with respect to the CIA 
Annex, you should talk with the intelligence community about 
that.
    Mr. Pompeo. Yes, ma'am, we will do that. And, in some 
cases, we have asked those questions.
    You talked earlier about Mr. Khattala, who is sitting in a 
prison cell not too far from where you and I are sitting here 
this evening. I, too, share your view that I am glad that we 
have pulled one of the terrorists involved in the murder of 
U.S. Government people on that night.
    When that attack took place, Mr. Khattala, according to the 
indictment from the Justice Department, Mr. Khattala and his 
folks removed documents from the temporary mission facility. 
Were you aware of that?
    Mrs. Clinton. Yes, we later became aware that documents had 
been removed. But there were no classified documents at 
Benghazi.
    Mr. Pompeo. And how do you know that?
    Mrs. Clinton. We know it through our own investigation 
about what documents were at Benghazi. And there were no 
classified materials, to the best of our information.
    Mr. Pompeo. Yes, ma'am. Do you know if there was sensitive 
information?
    Mrs. Clinton. I suppose it depends on what one thinks of as 
sensitive information. There was information there, and some of 
it was burnt, either wholly or partially, some of it was 
looted, and some of it was recovered eventually.
    Mr. Pompeo. Madam Secretary, do you know where that 
material that was looted went? Do you know into whose hands it 
fell? And do you know the nature and contents of that material?
    You seem very confident it wasn't classified. I don't share 
your confidence. But, nonetheless, do you know where that 
material went?
    Mrs. Clinton. I think that it is very difficult to know 
where it ended up, but I want to just reiterate the point that 
I made. This was not a facility that had the capacity to handle 
classified material, and there was, to the best of our 
information, Congressman, no classified material at the 
Benghazi facility.
    Mr. Pompeo. Ma'am, the fact that it wasn't capable of 
handling classified material doesn't mean that there wasn't any 
classified material there. Is that correct?
    Mrs. Clinton. Well, the procedure is not to have classified 
material at such a facility. And, again, to the best of our 
knowledge, there was not any there.
    Mr. Pompeo. Yes, ma'am. You are not supposed to have 
classified email on your private server either, and we----
    Mrs. Clinton. And I did not, Congressman.
    Mr. Pompeo. We are aware that sometimes classified material 
ends up in places where it ought not be.
    I want to go back to your statement that you said you 
didn't ever seriously consider arming private security experts. 
Tell me why you ever considered it at all.
    Mrs. Clinton. We considered a whole range of issues. We 
knew that the insurgents fighting Qadhafi needed support, and 
what they were provided was air support facilitated by the 
United States. The United States did not provide any private 
contractors to assist them.
    Mr. Pompeo. There was an email that was from Mr. Blumenthal 
and an email before that also discussed the same situation. Do 
you know who Marc Turi is?
    Mrs. Clinton. No, I don't recall that I know who that is.
    Mr. Pompeo. He was a private trafficker in weapons. He was 
working with Mr. Stevens and attempting to develop an 
authorization with the State Department so that he could in 
fact deliver those weapons into Libya.
    Does any of that ring a bell to you?
    Mrs. Clinton. No, it does not.
    Mr. Pompeo. So you never saw the email that was from Mr. 
Stevens to--I think it went to Mr. Sullivan, where he says to 
Mr. Turi--this is Mr. Stevens. Now, he says to Mr. Turi, 
``Thank you for this information''--information about his 
attempts to get authority to ship arms into Libya. He says, 
``Thank you for this information. I'll keep it in mind and 
share it with my colleagues in Washington. Regards, Chris''--
or, actually, ``Regards, Chris Stevens.''
    Mrs. Clinton. I don't know anything about that 
specifically. I do know that you're referring to a document, 
and if you are, could you tell us what tab it's at?
    Mr. Pompeo. Yes, ma'am. I am not certain it is in there as 
a tab, but I am happy to provide it to you.
    Ms. Sanchez. Mr. Chairman, regular order.
    Mrs. Clinton. Well, it's a little difficult to answer 
questions about documents----
    Mr. Pompeo. Yes, ma'am.
    Mrs. Clinton [continuing]. I don't have, but I can answer 
you.
    Whatever was considered, either out of politeness or out of 
interest, there was not any action taken, so far as I know.
    Ms. Sanchez. Mr. Chairman, regular order.
    Mr. Pompeo. Mr. Chairman, may I just have 60 more seconds?
    Chairman Gowdy. Yes.
    Ms. Sanchez. Mr. Chairman, the last Republican questioner 
went over by 4 minutes. And given that we are allowed 10 
minutes of questioning each and the late hour and the fact that 
we are a minute beyond testimony already, I think that it is 
appropriate to ask for regular order and that questioning be 
closed for this particular member of the panel.
    Chairman Gowdy. The gentleman is recognized for 60 seconds.
    Mr. Pompeo. Thank you, Mr. Chairman.
    I want to come back to one issue we talked about a couple 
of hours back about accountability. You said that you didn't 
have the authority, lawful authority, to terminate any 
employees. Is that correct?
    Mrs. Clinton. That is correct. And----
    Mr. Pompeo. Okay.
    Mrs. Clinton [continuing]. It is because of the laws and 
the regulations of our government, Congressman.
    Mr. Pompeo. Did you have the authority to provide a 
counseling statement to any employee?
    Mrs. Clinton. I do not know what you're referring to.
    Mr. Pompeo. In other words, you couldn't fire them, but you 
could put a letter in their employment file saying, hey, you 
didn't do your job well. Did you undertake that?
    Mrs. Clinton. Well, I think it was pretty well known that 
the ARB did not think they did their job.
    Mr. Pompeo. Yes, ma'am.
    Mrs. Clinton. And the ARB specifically said--and some of 
this has been declassified, as you know--about personnel 
matters that they could not find breach of duty, but they were 
as firm in saying that there were failures in the performance 
of the people that they named.
    Mr. Pompeo. I will just ask----
    Ms. Sanchez. Chairman, regular order.
    Mr. Pompeo [continuing]. Just two yes-or-no questions.
    Ms. Sanchez. Sixty seconds has already elapsed. I believe 
the chairman granted----
    Mr. Pompeo. I will wait for the next round.
    Ms. Sanchez [continuing]. 60 additional seconds.
    Mr. Pompeo. I yield back.
    Mr. Cummings. Mr. Chairman, before my time starts, he just 
said something that I just want to make sure we are clear. He 
just said he is going to wait for his next round. I thought we 
were kind of closing down here.
    Ms. Sanchez. Parliamentary inquiry. How late are we going 
tonight?
    Chairman Gowdy. The gentleman is recognized to ask two yes-
or-no questions.
    Mr. Pompeo. Madam Secretary, did you ask someone or did you 
prepare a counseling statement or letter of reprimand for any 
employees at the State Department connected with the incidents 
of September 11, 2012?
    Mrs. Clinton. There was a process that is the appropriate 
process for dealing with issues concerning performance, and 
that was followed. It continued into my successor's term, and 
the Secretary of State, Secretary Kerry, made whatever the 
final determinations were.
    Mr. Pompeo. Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman's time has expired.
    The chair will now recognize the gentleman from Maryland, 
Mr. Cummings.
    Mr. Cummings. Thank you very much.
    I know the hour is late, but, Madam Secretary, I need to go 
back to something, the ARB.
    You know, maybe it is because I am getting older and care 
about legacy, reputation, and that kind of thing, but there is 
an 83-year-old gentleman named Ambassador Pickering. And I have 
heard a lot of testimony. I was there for his deposition, or 
transcribed interview--I don't remember which it was--and then 
his testimony before the Oversight Committee. And when he 
talked about his appointment to the ARB, he talked about what 
an honor it was. And I think the thing that bothers me about a 
lot of this that has gone on is that, when there have been 
attacks on the ARB, it's as if, I mean, that is like attacking 
him. And at 83 years old, I refuse to sit here and let that go 
by.
    And I remember listening to him, and I said to myself, you 
know, this is the kind of guy that we all ought to honor, 
serving under presidents for 40 years, Democrat and Republican, 
high up on the chain with regard to integrity. I mean, I don't 
even see how you even attack this guy, all right?
    And one of the things he said in his testimony, he said--
you appointed him, and he talked about the appointment. And I 
quote from his June 4 testimony. He said, ``Chris Stevens 
worked for me as my special assistant for 2 years when I was 
Under Secretary of State. This was not any kind of vendetta, 
but I felt that Chris gave me 2 wonderful years of his life in 
supporting me in very difficult circumstances and that I owed 
him, his family, and the families of the other people who died 
the best possible report we could put together.'' And he went 
on and said some other things that were so powerful.
    And then when I hear the implications of people attacking 
the report, talking about he wasn't independent or they weren't 
independent, it is like an attack against him. And I could say 
the same thing about Admiral Mullen.
    And I just want you to tell us about why you picked the 
folks that you picked. And, by the way, it is done by law. I 
mean, that is what----
    Mrs. Clinton. Right.
    Mr. Cummings [continuing]. You are supposed to do. The law 
says you are supposed to pick these people.
    Mrs. Clinton. That's right.
    Mr. Cummings. And so why don't you tell us how you picked 
them? Were you looking for a ``yes'' report? I mean, what were 
you looking for?
    Mrs. Clinton. Well, Congressman, I greatly appreciate your 
strong words of commendation on behalf of both Ambassador 
Pickering and Admiral Mullen.
    You're right, the statute is very clear: The Secretary of 
State picks four of the five members of the Accountability 
Review Board. As I said earlier today, there have been 19 
Accountability Review Board reports, and I think myself and 
prior secretaries have been very fortunate that they could call 
on distinguished Americans with long records of service to 
perform this very important task.
    When I was thinking about who has the integrity, the 
independence, the experience to give us an unvarnished look at 
what happened, the first person I thought of was Ambassador Tom 
Pickering.
    He, as you rightly say, served our nation for more than 
four decades. He holds the rank of Career Ambassador. That's 
the highest position in the Foreign Service. He served as Under 
Secretary of State for Political Affairs. He served as our U.S. 
Ambassador to Russia, India, Israel, El Salvador, Nigeria, and 
Jordan. And he also served as the U.S. Ambassador and 
representative to the United Nations, where he led the U.S. 
effort under the first Bush administration to build a coalition 
in the U.N. Security Council during and after the first Gulf 
War.
    He's a man who had served in high posts and dangerous 
posts. He understood what was to be expected, and I counted on 
him in giving me the most comprehensive report possible.
    I also wanted to find somebody with military experience. 
Because these questions that have been raised about, you know, 
could we have gotten assets there, what actually happened with 
the Diplomatic Security agents?
    And Admiral Mike Mullen, who had just recently retired as 
the Chairman of the Joint Chiefs, was, again, I thought, the 
perfect choice to work with Ambassador Pickering. As you know, 
he was nominated by President George W. Bush to be Chairman of 
the Joint Chiefs. He served as Chief of Naval Operations. He 
led NATO's Joint Force Command, U.S. Naval Forces in Europe, 
commanded a missile cruiser, a missile destroyer, a tanker. He 
served in Vietnam and the Persian Gulf--excuse me.
    Mr. Cummings. Do you need some water, Madam Secretary?
    Chairman Gowdy. Would you like us to take a 60-second, 2-
minute break?
    Mrs. Clinton. No. Let me grab a lozenge.
    So, Congressman, I had the utmost confidence in both of 
them.
    Mr. Cummings. Thank you.
    Let me say this. You know, this hearing began with the 
chairman reading a list of questions that he claimed were 
unanswered. In fact, those questions had been asked and 
answered many times.
    As a matter of fact, when we go back to the last 
questioner, you know, it was Speaker Boehner who--as a matter 
of fact, last Tuesday, Madam Secretary, Speaker Boehner 
acknowledged to Fox News the allegation that the U.S. 
Government was involved in an illegal weapons program in Libya 
has been--and this is according to him--investigated by the 
House Intelligence Committee and debunked. That is what Speaker 
Boehner said about this illicit weapons transfer situation.
    Do you want us to hold up, Madam?
    Mrs. Clinton. No. Go right ahead.
    Mr. Cummings. Okay.
    And so, going back, today--so these questions, again, were 
asked and answered. The new documents we obtained and the 
interviews we conducted don't contradict the conclusions from 
the previous investigations. They simply confirm them.
    Even after this marathon grilling, the Select Committee has 
found no evidence of any nefarious activity on the part of the 
secretary. She did not order the military to stand down, and 
there is still no indication that she approved or denied 
requests for security in Benghazi.
    And as the day has dragged on, the Select Committee's costs 
has raised up to $4.8 million. That's taxpayer dollars, by the 
way.
    Two weeks ago, the State Department informed the Select 
Committee that it had spent $14 million responding to requests 
relating to Benghazi over the past three years. This does not 
include the costs incurred over the past three years by other 
Federal agencies, such as the Department of Defense. In a 
letter to Congress on March 11, 2014, the Defense Department 
estimated that the total cost it has expended during previous 
congressional reviews ran into, ``the millions of dollars.''
    So that is at least $20 million right there. And that is a 
conservative estimate because it does not include the cost of 
the seven previous investigations by congressional committees. 
When I think about that amount, $20 million, $20 million, it 
pains me to imagine what that money could have done.
    I don't want anyone to mistake what I am saying. Of course 
we needed to know what happened in Benghazi so we could take 
action to help prevent it in the future. And I have personally 
investigated this. We compiled an entire database of 
information on our web site about a year ago. We put together a 
133-page compendium. We released a new report this week with 
the results of 54 interviews.
    And I want all of those transcripts to be made public to 
the American people after the appropriate redactions. They 
ought to be released. I want the American people to see every 
word--of course, with appropriate redactions, because I don't 
want anybody accusing me of saying otherwise.
    But, finally, my point is this. Instead of spending this 
entire $20 million on these eight investigations, we could have 
dedicated at least some part of those funds to actually 
increasing security for our diplomats overseas. Even if it were 
just a fraction of that amount, I can't help but wonder how 
many consulates could have been improved, how many embassies 
could have been better protected, and how many more of our 
patriotic American diplomats would be safer today.
    And so, with that, Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman yields back.
    Madam Secretary, I couldn't help but think, when he was 
using the $20 million figure, that is two more ISIS fighters 
that we could have paid for. I refuse to put a price tag on the 
lives of four Americans.
    Your figure of $20 million is wrong, Mr. Cummings, and that 
is not what the State Department told us. But I don't care what 
the figure is; there is no price tag when it comes to justice 
for four people who gave their lives for this country.
    Madam Secretary, with respect to the ARB, I want to ask you 
this. If you were investigating Benghazi or what happened in 
Benghazi and there was an author of an email three months to 
the day--three months to the day--from when our four fellow 
Americans were killed, the author of the email says, ``anti-
American demonstration,'' ``looking for Americans to attack,'' 
``game-changer,'' ``soft target,'' ``no continuity,'' ``the 
cost to continue to do business there may become challenging,'' 
would you want to talk to the author of that email if you were 
investigating Benghazi?
    Mrs. Clinton. The Accountability Review Board had full run 
of the State Department to talk to anyone they chose to talk 
to. It's my understanding they conducted more than 100 
interviews. And they were well aware, as their report 
reflects----
    Chairman Gowdy. I don't want----
    Mrs. Clinton [continuing]. Of the dangerous situation in 
Libya.
    Chairman Gowdy. I don't want to interrupt you. That 
actually was not my question. My question is, would you want to 
talk to that person? Not whether or not the ARB did, because 
the ARB actually did talk to that person. My question is, 
wouldn't you want to talk to that person if you were 
investigating Benghazi?
    I promise it is not a trick question. The answer is, yes, 
you would want to talk to the person who authored that email.
    Mrs. Clinton. And, as you just said, Mr. Chairman, the ARB 
did.
    Chairman Gowdy. Yes. And the co-chair of the ARB called 
your chief of staff and told the author of that email not to go 
to Congress. That is my point.
    My point is the ARB did some good things. That is why our 
first two hearings were on making sure the recommendations by 
the ARB were actually implemented.
    But when the author of that email is going to be brought 
before Congress and one of the co-chairs calls your chief of 
staff and says, ``I don't think that that witness is going to 
be a good witness,'' Madam Secretary, with all due respect, she 
is a fact witness. Whether she is good or bad, the author of 
that email has a right for Congress to question them. I mean, 
that is not even a close question.
    So somebody can be a good person--and I have no doubt that 
Mr. Mullen and Mr. Pickering both are. But this is also what I 
don't doubt: I don't doubt that that phone call was made to Ms. 
Mills saying, ``Don't send Charlene Lamb before Congress. She 
is not going to make a good witness.''
    And I don't doubt that there is not a transcript from any 
of the ARB interviews. And you may say, well, why does that 
matter? If you are going to write a report and you want to 
write a report with specificity and particularity, you have to 
cite the transcript. And I can't tell you a single question 
that was asked of a single ARB witness because there is no 
transcript.
    So my point is not that the ARB did a bad job or a good 
job. My point is, from the standpoint of a serious 
investigation, it was an inadequate job. And I want to 
hopefully prove that to you.
    There used to be a stack up there, when Mr. Smith was with 
us, about all of the previous investigations that Congress and 
the ARB had done. Did any of those previous congressional 
investigations or the ARB have access to your emails?
    Mrs. Clinton. Mr. Chairman, first of all, the witness you 
are referring to did appear before Congress----
    Chairman Gowdy. That was not my point. My point----
    Mrs. Clinton. Well, but your implication was that that 
witness was stopped from going to Congress. And----
    Chairman Gowdy. No, she----
    Mrs. Clinton [continuing]. In fact, that did not happen, 
Mr. Chairman.
    Chairman Gowdy. No, she definitely came. No, that is not my 
implication. My implication is the co-chair of what you call an 
independent Accountability Review Board was calling someone he 
was supposed to be investigating to say, ``Please don't send 
that witness to Congress. They are not going to show up well.'' 
That is my point.
    My point is, how could you consider that to be--I mean----
    Mrs. Clinton. Well, look----
    Chairman Gowdy [continuing]. Have you ever heard of a judge 
calling the DA----
    Mrs. Clinton [continuing]. You know, Mr. Chairman----
    Chairman Gowdy [continuing]. Or the defense attorney and 
saying, ``Don't call that witness''?
    Mrs. Clinton. Mr. Chairman, I really don't care what you 
all say about me; it doesn't bother me a bit. I do care a lot 
about what you're implying about Admiral Mullen, and I will not 
sit here and hear that. Admiral----
    Chairman Gowdy. Well, ma'am----
    Mrs. Clinton [continuing]. Mullen served this country with 
great distinction. He served the State Department with great 
distinction in being the co-chair of the Accountability Review 
Board. And I think his work speaks for itself. And I'm sorry 
that----
    Chairman Gowdy. Well, let me ask you about his work.
    Mrs. Clinton [continuing]. I'm sorry that the important 
work that was done by that board is held in such low regard by 
some members of this committee, and I deeply regret it.
    Chairman Gowdy. Are you doubting that he placed a phone 
call? Is that the purpose of what you are saying?
    Mrs. Clinton. I know nothing about the phone call.
    Chairman Gowdy. Well, I do because he testified before 
another congressional committee. He admits it was a mistake, 
Madam Secretary. I don't know why you can't.
    Mrs. Clinton. Well----
    Chairman Gowdy. He admits it was a mistake to call and say, 
``Don't send a fact witness before a congressional committee.''
    Mrs. Clinton. Well, I think that shows----
    Chairman Gowdy. It doesn't mean he is a bad person. It just 
means that when you hold up the ARB as independent and your 
chief of staff picked most of the folks on it--Patrick Kennedy 
had a role in picking some of the folks on the ARB despite the 
fact that some people think Patrick Kennedy may have also been 
involved in approving or not approving--if you need to read a 
note from your lawyer, you are welcome to, Madam Secretary.
    Mrs. Clinton. No. It's just hard to sit here listening to 
the comments you're making about someone that I consider to be 
a great American. If he said he made a mistake, that's even 
more proof of what a fine gentleman he is and what a great 
public servant he's been. It doesn't in any way, what you're 
saying, impugn his service for 40 years and certainly not his 
service on the Accountability Review Board.
    I can't help it, Mr. Chairman, that you all don't like the 
findings of the Accountability Review Board.
    Chairman Gowdy. Ma'am, we had two hearings----
    Mrs. Clinton. I can't help it that you don't like the 
findings of all the other congressional committees.
    Chairman Gowdy. We had two hearings where we did nothing 
but discuss the implementation of the ARB findings, Madam 
Secretary. So, with all due respect, we have had more hearings 
about the ARB findings than we have with you. So don't tell me 
that we don't care about the ARB. We had two hearings.
    My point is this. The ARB nor the previous congressional 
investigations had access to your emails, did they?
    Mrs. Clinton. I don't know what they had access to. I know 
that, during the time I was at the State Department, there was 
certainly a great effort to respond to your predecessor, 
Congressman Issa's inquiries. And many thousands of pages of 
information was conveyed to the Congress. And I know that the 
State Department has worked diligently and persistently to try 
to respond to the many requests that it has received. And I 
think that, given the pressure and the stress of business they 
have been under, they have, you know, performed as well as they 
could.
    So you will be getting and, in fact, the entire world will 
be getting all of my emails, because they are all going to be 
public, and you will be able to read them along with everybody 
else.
    Chairman Gowdy. Madam Secretary, that actually was not my 
question. My question was whether or not the previous 
congressional committees and ARB had access to your emails. 
That was my question.
    Mrs. Clinton. Ninety to 95 percent of my work-related 
emails were in the State system. If they wanted to see them, 
they would certainly have been able to do so.
    Chairman Gowdy. You know what? That is maybe the tenth time 
you have cited that figure today.
    Mrs. Clinton. It is.
    Chairman Gowdy. And I have not heard anyone other than you 
ever cite that figure. Who told you that 90 to 95 percent of 
your emails were in the State Department system? Who told you 
that?
    Mrs. Clinton. We learned that from the State Department in 
their analysis of the emails that were already on the system. 
We were trying to help them close some gaps that they had. But 
they already----
    Chairman Gowdy. Can you provide me----
    Mrs. Clinton. They already----
    Chairman Gowdy. Can you provide me with a name? Because 
when I asked the State Department about 10 days ago, what is 
the source of that figure, they shrugged their shoulders.
    Mrs. Clinton. Well, you can look for the state.gov 
addresses, and they certainly pop up----
    Chairman Gowdy. Right. And the inspector general report, 
Madam Secretary, the inspector general report--which you can't 
argue by perfect analogy, but you can certainly extrapolate--
the inspector general report found that less than 1 percent--
less than 1 percent--of State Department emails, record emails, 
were captured.
    So they give a number of less than 1 percent, and you give 
a number of 90 percent.
    Mrs. Clinton. Well, I don't know what you are referring to. 
I can only speak about my emails, my work-related emails, and--
--
    Chairman Gowdy. Well, let's talk about your work-related 
emails. We asked for them last year, and the State Department 
gave us eight. If they had 90 percent of yours, why did we only 
get eight?
    Mrs. Clinton. Well, I don't know initially what you asked 
for, but I know that they tried to be responsive. Ninety to 95 
percent of them were on state.gov. I understand that the 
committee broadened the scope of their request, and I think 
that, in response, the State Department has been trying to 
provide what you have requested.
    In the meantime, they are going through the process of 
making all of my emails public.
    Chairman Gowdy. You think our first request--there were 
only eight emails responsive to our first request?
    Mrs. Clinton. I can't speak to it. I believe your----
    Chairman Gowdy. I can----
    Mrs. Clinton [continuing]. First request was for Benghazi, 
and I believe that the State Department did a diligent search. 
Then I believe you expanded it to Libya and weapons and maybe a 
few other terms, and I believe they conducted a diligent----
    Chairman Gowdy. Well, our jurisdiction hasn't grown, Madam 
Secretary. Our jurisdiction is the same thing it was.
    Let me ask you this. You say that you turned over 
everything. I don't get a chance to watch you a lot on 
television, but when I see you are interviewed, you make a 
point of saying, ``I turned over everything.''
    Mrs. Clinton. All my work-related emails, yes.
    Chairman Gowdy. How do you know that?
    Mrs. Clinton. I know that because there was an exhaustive 
search done under the supervision of my attorneys, and that is 
exactly the outcome. We turned over every work-related email.
    In fact, as somebody referred to earlier, we turned over 
too many. The State Department and the National Archives said 
there were 1,246 out of the 30,000-plus that they have already 
determined did not need to be turned over.
    Chairman Gowdy. And you have a----
    Ms. Sanchez. Regular order, Mr. Chairman.
    Chairman Gowdy [continuing]. Really good groups of 
attorneys, which makes me wonder how they missed 15 of them.
    Mrs. Clinton. Well, if you are talking about Mr. 
Blumenthal, which I assume you are, he had some that I didn't 
have, and I had some that he didn't have. And I was under no 
obligation to make any of his emails available unless I decided 
they were work-related. And the ones that I decided that were 
work-related I forwarded to the state.gov accounts of the 
people with whom I worked.
    Chairman Gowdy. Madam Secretary, is there any question that 
the 15 that James Cole turned over to us were work-related? 
There is no ambiguity about that. They were work-related.
    Mrs. Clinton. They were from a personal friend, not any 
official government--not any government official. And they 
were, I determined on the basis of looking at them, what I 
thought was work-related and what wasn't. And some I didn't 
even have time to read, Mr. Chairman.
    Chairman Gowdy. So are you telling me the 15----
    Ms. Sanchez. Mr. Chairman, regular order.
    Chairman Gowdy. Are you telling me that the 15----
    Ms. Sanchez. Mr. Chairman.
    Chairman Gowdy. I will tell the gentlelady from California 
that I am going to take a little bit extra time just like 
everybody else has and that we can either do it this round----
    Ms. Sanchez. May I----
    Chairman Gowdy. We can either do it this round or we can do 
it next round.
    Ms. Sanchez. May I make a simple inquiry about how many 
more minutes the chairman plans?
    Chairman Gowdy. The fewer the interruptions, the quicker I 
can get done. I will put it to you that way.
    Ms. Sanchez. Okay.
    Chairman Gowdy. How's that?
    Ms. Sanchez. I am just being mindful of the time.
    Chairman Gowdy. My question to you on the 15 is, did your 
lawyers find them and decide that they weren't work-related or 
did they not find them?
    Mrs. Clinton. Well, I don't know why he had emails I 
didn't, and I don't know why apparently I had emails he didn't. 
And all I can tell you is that I turned over every work-related 
email in my possession.
    Chairman Gowdy. All right.
    I am going to make two more observations, and then we're 
going to call it a night.
    The first observation that I would make is that when you 
speak to the public, you say, ``I turned over everything.'' 
That is, for the most part, a direct quote. When you have 
talked to the public, you say, ``I turned over everything.''
    When you talk to the court, you say, ``While I do not know 
what information may be responsive for purposes of this 
lawsuit, I have directed that all my emails on clintonemail.com 
in my custody that were or potentially were Federal records be 
provided to the Department of State, and, on information and 
belief, that was done.''
    Why the different explanation depending on who you are 
talking to?
    Mrs. Clinton. Well, one is a shorthand, Mr. Chairman.
    Chairman Gowdy. Well, why not just tell the court, ``I 
turned over everything''?
    Mrs. Clinton. Well, you know how lawyers are. They use more 
words, perhaps, than they need.
    Chairman Gowdy. Trust me, I know that. And they charge you 
for every one of them.
    Mrs. Clinton. Yes. I'm well aware of that, Mr. Chairman. 
And the clock is ticking.
    Chairman Gowdy. Well, one more. One more. And I will pay 
Mr. Kendall's fee for the last question. How's that?
    Mrs. Clinton. Oh, I don't think you want to do that, Mr. 
Chairman.
    Chairman Gowdy. I probably can't do it.
    You see my point, though? You are very definitive when you 
are talking to the American people that you turned over 
everything.
    Mrs. Clinton. That's right.
    Chairman Gowdy. But there are those kind of lawyerly fudge 
words when you are talking to court, ``on information and 
belief.''
    Mrs. Clinton. Well----
    Chairman Gowdy. And the reality is, even tonight, you 
cannot tell us that you turned over everything, because you 
didn't think you missed the 15.
    Mrs. Clinton. Well, I didn't have them. I turned over 
everything I had. Everything I had----
    Chairman Gowdy. Which means the system you had----
    Mrs. Clinton [continuing]. Has been turned over to the 
State Department.
    Chairman Gowdy [continuing]. Somehow missed those 15.
    Mrs. Clinton. Well----
    Chairman Gowdy. Last question on your system. Mr. Cummings 
said that your email arrangement was inappropriate. I think the 
President may have said it was a mistake. You have said that it 
was a mistake.
    My question to you, Madam Secretary, is, was it a mistake 
for the four years that you had that email arrangement? Was it 
a mistake for the almost two years that you kept the public 
record to yourself? Or has it manifested itself as a mistake in 
just the last six months?
    Mrs. Clinton. Well, since I believed that all of my work-
related emails to dot-gov accounts were being captured and 
preserved, it wasn't until I was asked to help the State 
Department to fill in what they saw as some recordkeeping gaps, 
not just with me but with others.
    I did the best I could during those four years and thought 
that everything that I was emailing that was work-related was 
being preserved.
    Chairman Gowdy. If you can find the source for the 90 to 95 
percent, I would be grateful for it, and we would probably have 
fewer questions. If there is a source that you can provide that 
90 to 95 percent were on the State Department system, then I 
will know that I need to ask the State Department what took 
them so long.
    Because I am just telling you, Madam Secretary, I got eight 
emails the first time I asked, and now I have over 1,500. So 
there is some disconnect there.
    Mrs. Clinton. Well, Mr. Chairman, I think that is a fair 
question. And I'm not at the State Department any longer, but I 
do want to defend them.
    They are under the most extraordinary pressure to answer 
congressional inquiries. I saw a figure recently that FOIA 
requests have jumped something like 300 percent. They don't 
have the resources; they don't have the personnel. They take 
their responsibility of reading every single line and, as 
Ranking Member Cummings reminded us, having to redact personal 
information, personnel information.
    Obviously, they take it very seriously. I think they are 
doing the best they can, and I know that they have tried to be 
responsive to you and to the many other requests that have come 
their way.
    Chairman Gowdy. Well, Madam Secretary, on behalf of all of 
us, we want to thank you for your patience and for your 
willingness to come. And you have been willing to come in the 
past, as I noted in my opening, and we appreciate it.
    And, with that, we will be adjourned.
    Mrs. Clinton. Thank you.
    [Whereupon, at 9:00 p.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
